<html>
<title> - WILD SKY WILDERNESS ACT; LAND IN DOUGLAS COUNTY, OR; CAMPS ON THE SALMON RIVER; CIBOLA NATIONAL WILDLIFE REFUGE; AND ALASKA NATIVE VILLAGE CORPORATION LAND EXCHANGE</title>
<body><pre>[Senate Hearing 108-68]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-68
   WILD SKY WILDERNESS ACT; LAND IN DOUGLAS COUNTY, OR; CAMPS ON THE 
   SALMON RIVER; CIBOLA NATIONAL WILDLIFE REFUGE; AND ALASKA NATIVE 
                   VILLAGE CORPORATION LAND EXCHANGE

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 391                                S. 1003

                           S. 714                                H.R. 417

                           S. 924


                                     
                               __________

                              JUNE 4, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

88-398              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                  CONRAD BURNS, Montana, Vice Chairmaa

GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Kira Finkler, Democratic Counsel
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Cantwell, Hon. Maria, U.S. Senator from Washington...............     6
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Heckert, Mark, President, Washington Wildlife Federation, 
  Olympia, WA....................................................    23
Hughes, Jim, Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................    10
Husmann, Member, Snohomish County Washington Farm Bureau.........    34
Larsen, Hon. Rick, U.S. Representative from Washington...........     6
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     2
Murray, Hon. Patty, U.S. Senator from Washington.................     3
Postema, John, Local Businessman, Snohomish, WA..................    25
Rey, Mark, Under Secretary, Natural Resources and the 
  Environment, Department of Agriculture.........................    77
Town, Mike, Friends of the Wild Sky..............................    18

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    49

                              Appendix II

Additional material submitted for the record.....................    53

 
   WILD SKY WILDERNESS ACT; LAND IN DOUGLAS COUNTY, OR; CAMPS ON THE 
   SALMON RIVER; CIBOLA NATIONAL WILDLIFE REFUGE; AND ALASKA NATIVE 
                   VILLAGE CORPORATION LAND EXCHANGE

                              ----------                              


                        WEDNESDAY, JUNE 4, 2003

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Larry Craig 
presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good morning, everyone. The Subcommittee on 
Public Lands and Forests of the Committee on Energy and Natural 
Resources will be convened.
    I want to thank all of you for coming to the hearing today. 
I would like to recognize, not yet present, but I trust him to 
be present, my ranking colleague, Ron Wyden, but I especially 
want to welcome Senator Patty Murray, who is here to testify in 
support of S. 391, the Wild Sky Wilderness bill. She and 
Senator Cantwell have worked very hard to get this bill passed.
    Senator Murray, welcome. We look forward to your testimony 
this morning. Welcome to each of the witnesses who have 
traveled here to Washington, D.C. to testify on S. 391, and 
finally, I'd like to welcome Mark Rey, the Under Secretary of 
Agriculture, Deputy Director of the BLM, Jim Hughes. It's nice 
to see you both this morning. Welcome to the committee.
    We are taking up several bills that we dealt with last year 
that I hope we can work through quickly. S. 924, Senator 
Murkowski's--how do you pronounce that?--Newtok Islands 
exchange, and S. 714, Senator Wyden and Senator Smith's Douglas 
County, Oregon conveyance bill were marked up in the past in 
this committee. They were noncontroversial. We would hope to 
move them out quickly. H.R. 417 is designed to correct a 
boundary mistake that was made probably 40 years ago. It is my 
hope that we can expedite consideration of these bills.
    S. 1003 is legislation that I introduced to remove an 
ambiguity regarding the intent of the Central Idaho Wilderness 
Act of 1980 to provide a continuation of a historic use of our 
outfitter hunting camps on the Snake River. In short, these 
camps were established well before the river designation, and 
they have been managed as part of the river designation for 23 
years.
    These camps allow the elderly and the physically challenged 
to have access to and enjoy the spirit of this wild area. The 
rustic nature of these camps upholds the ideals envisioned by 
Congress, and they are used in accordance with all provisions 
of the law. We have numerous letters of support from a variety 
of interests supporting the clarification as proposed by the 
legislation, and those letters will become a part of our 
committee record.
    Now I want to quickly discuss S. 391. Last year it came to 
light that several of the parcels proposed in wilderness, in S. 
391, contained concrete and log stringer bridges. The 
structures have the potential to fall into fish-bearing streams 
within the proposed wilderness. Our staff worked last year to 
cherry-stem some of these bridges out of the wilderness area, 
and I say our staff collectively, Senator Murray's staff, ours, 
the committee's staff, Senator Cantwell's staff. Over the 
winter, additional information became available on an 
additional concrete bridge on a decommissioned road within the 
proposed wilderness. In April, we found out there are eight 
more log stringer bridges within the proposed wilderness 
boundary. Seven of these bridges have already failed.
    Further, there appears to be as many as 90 culverts, 
ranging in size from 18 inches to 10 feet in diameter that will 
be abandoned within the wilderness boundary, along with the 28 
logging roads to be included in the wilderness. I want to 
discuss how to address the possibility that these bridges or 
culverts could fail, causing potential damage to critical 
fisheries' habitats.
    In my mind, we are fooling ourselves if we think these 
culverts and bridges will function as originally designed 
forever. Once we designate the area wilderness, it becomes very 
difficult, if not impossible, to complete maintenance on these 
structures. It would seem that we guarantee future damage to 
important fisheries. If that happens, it will be a little late 
for Congress to approve a waiver to allow mechanized equipment 
to enter the wilderness to repair the damage.
    We have, in certain instances in the past, allowed 
mechanized equipment within wilderness areas for a moment in 
time to do repair work, and I'd like to work with you, Senator 
Murray, to see if we can't create an exception here specific to 
a potential problem that might occur. I know that between our 
staff and the Forest Service we can find the acceptable 
solution, I would hope, to this possible problem, so I wanted 
to make that a part of the record as we work our way through 
this, but I don't see that as a problem.
    With that, let me turn to my colleague, the Senator from 
the State of Washington, Senator Patty Murray. Senator, welcome 
before the committee.
    [A prepared statement from Senator Murkowski follows:]

  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska

    Mr. Chairman, thank you for calling this hearing today.
    I would like to make a brief statement about my legislation that 
would authorize a land exchange between the federal government and a 
small community in the southwestern part of my State of Alaska.
    Newtok, a Village with about 300 Yupik Alaska Native residents, is 
located in the Yukon-Kuskokwim Delta near the Ninglick River. Erosion 
from the Ninglick is slowly threatening Newtok, and the Village will be 
under water in less than a decade and the Village airstrip in less 
time. Once the Village airstrip--Newtok's only connection with outside 
world--is flooded, the Village will not be able to survive.
    This Village is surrounded by land owned by the federal government 
in the Yukon Delta Wildlife Refuge. In 1997, the Newtok Native 
Corporation attempted to exchange land on higher ground with the Fish 
and Wildlife Service, administratively, but those negotiations failed. 
Therefore, action by Congress is required to ensure the future of 
Newtok and its residents.
    My legislation would begin the process of moving Newtok to a 
location that is not threatened by erosion or flooding. The Newtok 
Native Corporation has identified a 10,943 acre tract of land on Nelson 
Island for the location of the new Village. Newtok Native Corporation 
is willing to accept this land in the Yukon Delta Wildlife Refuge from 
the Fish and Wildlife Service in exchange for a 996 acre piece of land 
on Baird Inlet Island and another 11,105 acre plot northeast of the 
present location of Newtok.
    The Fish and Wildlife Service desires the Newtok owned land for 
ecological reasons and Newtok needs the federal land because of its 
geology keeps it safe from erosion. Both parties will benefit from this 
exchange; the federal government improves the Yukon Delta Wildlife 
Refuge for the benefit of the American people, and villagers of Newtok 
have the opportunity to move to a safe location and see that their 
culture and community endure.
    Thank you Mr. Chairman.

         STATEMENT OF HON. PATTY MURRAY, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Murray. Well, thank you very much, Mr. Chairman. I 
really appreciate you including the Wild Sky Wilderness Act as 
part of your hearing today.
    The Wild Sky Wilderness Area will protect wildlife and 
promote clean water, enhance and protect recreational 
opportunities, reflect the diverse landscapes of the Puget 
Sound Region, and contribute to the local economy. Mr. 
Chairman, this has really been a team effort with many 
partners, and I want to thank Senator Cantwell as well. She 
will be here, I know, in a little while. She is a strong 
supporter of this bill, and I really appreciate all of her 
assistance.
    I especially want to acknowledge my colleague and partner 
in this bill, Congressman Rick Larsen. Rick has really reached 
out to the local communities there to understand their 
priorities.
    The bill before you today is a result of over 3 years of 
discussion and negotiation with the local community, Longview 
Fiber, the Washington State Snowmobile Association, the Wild 
Washington Campaign, the Back Country Horsemen, the Seaplane 
Pilots Association, Washington Coalition of Citizens with 
Disabilities, Chelan County Public Utility District, and many 
others.
    My colleagues and I have worked very hard to address every 
single constructive and timely concern that's been brought to 
us, and I think you'll see that because we worked so hard to 
address those concerns this bill has very broad support. 
Working with the local and State snowmobile groups, we excluded 
large sections of land they identified as important riding 
areas.
    Snohomish County came to us with concerns about emergency 
communication capabilities. We've addressed that in this 
legislation. At the Index meeting, local town, local resident 
Bob Hubbard expressed concerns at a section of 700-year-old 
trees that had been left out, and we added those 400 acres. We 
also worked with the Forest Service on various boundary road 
and management issues, and lastly we adjusted the proposed 
boundary just prior to Senate passage last year to accommodate 
the bipartisan concerns of the committee staff.
    There are many more examples of the significant 
collaborative process, and the bill is better as a result. I'm 
really grateful to everyone who has reached out to us and 
worked with us.
    I want to stress how long my colleagues and I have been 
working on this issue, and how much of it has been in the 
public spotlight. In June 2001, I took a trip through the area 
with Congressman Larsen, some local elected officials, and some 
residents. Since that time, this issue has received significant 
coverage in local papers. It has been the subject of editorials 
and letters to the editor, and we've also held many public 
meetings. Again, all of this attention has helped, we find, in 
improving the legislation, when those with specific concerns 
and ideas have come to us.
    Mr. Chairman, I have a few letters from groups and 
individuals that I would like to submit for the record and the 
committee's consideration. They are letters of support from the 
Back Country Horsemen of Washington, the Seaplane Pilots 
Association, the Washington Coalition of Citizens With 
Disabilities, John Leary of the Wild Washington Campaign, a 
group of 19 State, county, and local election officials from 
the Snohomish area, Snohomish County Councilman Kirke Sievers, 
and Snohomish County Executive Bob Drewel.
    Briefly, Mr. Chairman, I would like to comment on an 
apparent misunderstanding of the 1964 Wilderness Act. Some 
people make the claim that any lands once touched or currently 
marked by human touch should not be included in designated 
areas. This purity theory has been debunked for decades, 
starting with congressional members who contributed to the 
creation and passage of the original act. My own State's great 
Senator, Scoop Jackson, once noted that this ``false so-called 
purity theory threatens the strength and broad application of 
the Wilderness Act.'' Furthermore, there are many examples of 
designated wilderness areas that include roads and culverts, 
houses and other structures. The recent 2000 Virginia 
Wilderness Act, passed in July, includes lands harvested as 
recently as 1945. The legislative history of the 1964 
Wilderness Act and subsequent designations clearly demonstrates 
the intended inclusion in wilderness of lands that have signs 
of human impact.
    Now I would like to mention just a few benefits of the Wild 
Sky Wilderness Area. First, this wilderness area will protect 
wildlife and promote clean water by preserving the landscapes 
that host many native plants and animals. The wilderness is 
especially critical to threatened species of salmon, steelhead, 
and trout, which are found in the North Fork Skykomish and 
Skykomish Rivers and the many creeks that feed into them.
    At a time when we are asking so much of our private 
landowners in our work to recover wild fish runs, I've always 
believed that the Federal Government must do everything 
possible on its own land to achieve those goals.
    Secondly, this wilderness designation will enhance and 
protect recreational opportunities for our growing region. More 
people and more families are turning to outdoor recreation on 
our public lands. The bill protects the area for today's users, 
and also seeks to open up new areas for climbers, hikers, 
hunters, and anglers.
    Specifically, the bill directs the Forest Service to work 
with the public to develop new trails in and around the 
wilderness to expand public access to this remarkable 
landscape. That leads me to the third benefit of this bill. 
Wilderness will contribute to the local economy. Even during 
the bad economy of the last several years, the outdoor industry 
retail sales have actually increased. That means more people 
are getting out more often into our wildlands and the gateway 
communities that serve them. People looking for easy and quick 
access to nature in its purest form will see the Wild Sky as a 
destination. The recreational economy appears to have grown 
even in difficult times, and I hope this bill will help improve 
the economies of these gateway communities.
    Another driving purpose behind the bill is the inclusion of 
low elevation lands in Washington State wilderness. Lowland 
areas in some of our current wilderness in the Cascades make up 
only around 6 percent of the designated lands. This proposal is 
made up of around 30 percent lowland areas, and brings in 
important salmon areas into our wilderness system. These lands 
are a central component of the proposal.
    Mr. Chairman, I would like to acknowledge all of the 
witnesses who have come a long way here from Washington State 
to provide testimony today. Ed Husmann is a long-time member of 
the community and is representing the Snohomish County Farm 
Bureau. John Postema is another member of the Snohomish County 
Farm Bureau and is a local business owner, Mike Town has spent 
years in the Wild Sky area and knows as much about the lands 
involved as anyone that I've met. Mark Heckert, president of 
the Washington Wildlife Federation, represents the large 
numbers of hunters and fishermen who support this legislation.
    Again, Mr. Chairman, your kind words last June and the time 
the subcommittee and its staff has expended on the legislation 
is all very much appreciated. I stand ready to work with you 
and the committee on addressing any legitimate outstanding 
issues such as you've mentioned, because I believe the Wild Sky 
Wilderness Act is significant for the State and local 
communities, and I hope it will be moved out of this committee 
very soon.
    Thank you very much, Mr. Chairman.
    Senator Craig. Senator Murray, thank you very much for that 
testimony, and I agree with you. I don't see that we have any 
great difficulties here. You've put some letters in the record. 
We have received a couple of letters, one from a State 
legislator and one from the Snohomish County Council expressing 
some concerns. I'll give you copies of those. I'm sure you'll 
want to address those with those folks as we move forward on 
this.
    With that, we've been joined by one of my colleagues on the 
committee and the other Senator from the State of Washington 
who has worked closely on this legislation, as has already been 
recognized. Let me recognize Senator Cantwell for any comments 
on Wild Sky that you would like to make.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and it is a 
pleasure to be here this morning with my colleague, Senator 
Murray, who has worked diligently on this legislation. I would 
like to recognize the hard work that my colleague has done on 
this very important piece of legislation for the State of 
Washington, and I applaud her for crafting this legislation in 
a bipartisan effort, and working with many people, over 100 
Washington businesses and organizations and local elected 
officials of both parties who have endorsed this legislation.
    You mentioned several things that have been submitted for 
the record. I want to make sure that we include in that a 
letter of 19 local elected officials from Snohomish County, 
including several mayors and city councilmen and State 
representatives, a letter from the county executive, Bob 
Drewel, an endorsement from the Seaplane Pilots Association, a 
letter of support from the Washington Coalition of Citizens 
with Disabilities--I apologize if Senator Murray had listed all 
of these--and various sporting good businesses and coalitions. 
Unfortunately, the mayor of Index couldn't join us today, but 
he has been a huge proponent of this proposal.
    Senator Craig. Without objection, those will be part of the 
record.
    Senator Cantwell. Thank you, Mr. Chairman. Last year we 
were successful in getting this legislation through the Senate, 
and I hope that we can successfully move this in an earlier 
period of time so that we can resolve any differences with the 
House and give to Washington State and to the whole country an 
added resource that we very much would like to see in the Wild 
Sky Wilderness Act.
    Thank you, Mr. Chairman.
    Senator Craig. Well, thank you very much for that 
testimony, and I thank both of you for your efforts and your 
hard work on this legislation. I appreciate it.
    Now let me call our first panel before the committee, Mark 
Rey, the Under Secretary for Natural Resources and the 
Environment, U.S. Department of Agriculture, and Jim Hughes, 
Deputy Director, Bureau of Land Management, Department of the 
Interior.
    Senator Cantwell. Mr. Chairman, if I could, I understand 
that Congressman Larsen gave us some testimony, and if I could 
submit that for the record as well.
    Senator Craig. Oh, certainly, without objection.
    [The prepared statement of Representative Larsen follows:]

      Prepared Statement of Hon. Rick Larsen, U.S. Representative 
                            From Washington

    I would like to thank the Subcommittee on Forests and Public Lands 
for convening today's hearing on this important legislation for the 
State of Washington. I would like to also thank Senators Murray and 
Cantwell for their tireless work on behalf of this balanced wilderness 
bill.
    When Senator Murray and I began the process of crafting the first 
Wilderness bill in Washington state in nearly 20 years, our aim was to 
create an area that would enhance both the environment and the economy. 
The protection of over 106,000 acres, including 80,000 acres of old 
growth and mature second growth forest and 25 miles of salmon and 
steelhead spawning streams, is necessary to continue the diversity and 
environmental health of this area.
    In addition, Wilderness designation for the Wild Sky area will 
provide a protected area for a wide variety of activities, including 
day and overnight use, hunting, fishing, camping, hiking, climbing, 
horse packing, kayaking, swimming, rafting, and berry picking. 
Enhancing these activities will create jobs for a new economy for local 
rural towns. Outdoor recreation gear shops, hotels, restaurants, tour 
guides, retail stores, and other businesses in local communities will 
flourish. Wild Sky will benefit not only the environment but also the 
economy of the Pacific Northwest.
    Additionally, the process Senator Murray and I have followed in 
creating this legislation has been open and inclusive. We have met with 
a wide variety of interest groups and constituents to craft a balanced 
bill that would be acceptable to as many people as possible. In 
addition to the several public meetings, we have worked to address the 
concerns of timber companies, farmers, snowmobilers, tribes, local 
elected officials, local businesses, seaplane pilots, outdoor clubs, 
and any other parties who have an interest in this bipartisan bill. In 
order to introduce a balanced bill, we needed a balanced group of 
supporters. I believe we have put together the strongest endorsement 
list possible--one that can stand up to any list for other proposed 
Wilderness bills in the country.
    Lastly, I am very pleased this bill will move forward in protecting 
private landowners downstream from the Wild Sky area. One of the most 
challenging issues facing farmers today is ensuring that both farming 
and salmon survive in Snohomish County and in Washington state. By 
protecting the North Fork Skykomish River--one of the best remaining 
strongholds of wild anadromous and freshwater fish in the Puget Sound 
basin-Wild Sky reduces the pressure on private land-owners, including 
farmers, brought on by measures to protect Puget Sound salmon runs in 
the lower Skykomish Valley. We proposed this legislation in an effort 
to use public lands for salmon protection, ensuring that the federal 
government is doing its part to protect salmon and lessening the burden 
on private landowners.
    Wild Sky is an important bill for the Pacific Northwest, and I am 
happy to see the Senate moving forward today. The bill came very close 
to becoming law last year, and I encourage my Congressional colleagues 
to support this balanced and bipartisan bill.

    Senator Craig. Gentlemen, welcome before the committee. 
You're obviously no stranger to this committee, neither of you, 
and so with that, let me start with you first, Mark, our Under 
Secretary of Agriculture, for your testimony. Please proceed.

        STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL 
    RESOURCES AND THE ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Chairman Craig, Senator Cantwell, thank you for 
the opportunity to appear before you here today. I'm here to 
provide the administration's comments on S. 391, the Wild Sky 
Wilderness Act of 2003, and S. 1003, the Outfitter Hunting 
Camps on the Salmon River.
    S. 391 would create approximately 106,000 acres of 
additional wilderness on the Mt. Baker-Snoqualmie National 
Forest in the State of Washington. The Department does not 
oppose the designation of the Wild Sky Wilderness as a 
component of the National Wilderness Preservation System. We 
recognize and commend the Washington delegation for its 
collaborative approach and local involvement that contributed 
to bipartisan support for the bill. We would like to work with 
the committee to improve some of the provisions of S. 391, but 
we like, when we can, to defer, on a State-specific bill, to 
the views of the delegation, particularly when those views are 
expressed in a bipartisan fashion.
    S. 1003 would amend the Wild and Scenic Rivers Act to 
clarify the intent of Congress with respect to the continued 
use of three long-established commercial outfitter hunting 
camps on the Salmon River. The administration does not object 
to S. 1003. Again, we'd like to work with the committee to 
address some issues related to the continuance of the permits 
for the camps.
    With that, I'd like to submit my entire statement for the 
record, and would be available to respond to any of your 
questions. Thank you.
    [The prepared statement of Mr. Rey follows:]

           Prepared Statement of Mark Rey, Under Secretary, 
      Natural Resources and Environment, Department of Agriculture

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today. I am Mark Rey, Natural 
Resources and Environment Under Secretary for the United States 
Department of Agriculture. I am here today to provide the 
Administration's comments on S. 391--Wild Sky Wilderness Act of 2003 
and S. 1003--Outfitter Hunting Camps on the Salmon River.
    S. 391 The Wild Sky Wilderness Act of 2003 S. 391 would designate 
approximately 106,000 acres of additional wilderness on the Mt. Baker-
Snoqualmie National Forest in the State of Washington. It directs the 
Secretary to assure adequate access to private in-holdings within the 
Wild Sky Wilderness and establish a trail plan for hiking and 
equestrian trails within and adjacent to the wilderness. The bill 
authorizes the use of helicopter access to construct and maintain a 
joint Forest Service and Snohomish County repeater site to provide 
improved communication for safety, health, and emergency services.
    S. 391 also requires the Secretary to exchange specified lands with 
the Chelan County Public Utility District if the District offers to the 
Secretary approximately 371.8 acres within the Mt. Baker-Snoqualmie 
National Forest, in exchange for a permanent easement, including 
helicopter access, consistent with such levels as used as of the date 
of this bill's enactment, to maintain an existing snotel site on 1.82 
acres on the Wenatchee National Forest. The snotel site is currently 
used to monitor the snow pack for calculating expected runoff into 
hydroelectric projects. If, after the exchange occurs, Chelan County 
notifies the Secretary that they no longer need to maintain the snotel 
site, the easement will be extinguished and all rights conveyed by this 
exchange would revert to the United States.
    The Department does not oppose the designation of the Wild Sky 
Wilderness as a component of the National Wilderness Preservation 
System. We recognize and commend the delegation for its collaborative 
approach and local involvement that contribute to bipartisan support 
for this bill. However, the Department would like to work with the 
Committee to improve S. 391.
    While the vast majority of the lands described in S. 391 are 
appropriate for wilderness designation, the Department has significant 
concerns with approximately 16,000 acres. These acres would not be 
considered suitable for wilderness designation under the provisions of 
the 1964 Wilderness Act or under existing Forest Service regulations 
and planning direction. The Department believes that the current 
allocation of these lands under the Mt. Baker-Snoqualmie Forest Plan 
continues to be the most suitable designation for these acres.
    The lands that we believe are appropriate for designation under the 
Wilderness Act, approximately 90,000 acres, consist of all of the Eagle 
Rock Roadless Area and portions of Glacier Peak A, B, K, and L. These 
areas retain their undeveloped character and are largely without 
permanent improvements or human habitation. Limiting the wilderness 
designation to these lands would address many of the Department's 
concerns.
    The areas we propose for exclusion from wilderness designation 
include low elevation forests that have been utilized for timber 
harvest and mining over the last 80 years, still showing visible 
evidence of road building, logging and mining activities. The areas 
also include approximately 27 miles of existing roads, some of which 
are all weather, drivable, and graveled. Several of the roads receive 
significant visitor use associated with recreation opportunities. The 
Rapid River Road is such a travel way and we recommend excluding it, in 
its entirety, from wilderness designation. The types of recreation 
experiences enjoyed by users along the Rapid River Road corridor 
include driving for pleasure, nature photography, fishing, picnicking 
and dispersed camping at a number of pull-off sites along the road. In 
the winter snowmobiles use this road as a part of the snowmobile trail 
system, traveling to its end point.
    Another concern lies with roads, both outside and adjacent to the 
proposed wilderness boundary that have narrow corridors subject to 
landslide and river bank erosion. This situation poses significant 
public access and resource management issues, as the proximity of the 
proposed boundary could result in constraints related to necessary 
repairs and road reconstruction work. We would like to work with the 
Committee on more appropriate boundaries.
    Further, we propose the exclusion of most of the approximately 
2,400 acres of private patented mining claims and private timberlands. 
A boundary adjustment in the Silver Creek drainage would remove most of 
the private lands from the proposed Wilderness.
    Finally, the approach to naming these disconnected areas of land 
collectively as the Wild Sky Wilderness may cause public confusion, 
particularly since some of the areas proposed for designation are 
immediately adjacent to the existing Henry M. Jackson Wilderness. In 
order to minimize administrative costs and reduce public confusion, the 
Department suggests designating only Eagle Rock Roadless Area as Wild 
Sky Wilderness. The Glacier Peak Roadless Areas A, B, K, and L should 
become additions to the adjacent Henry M. Jackson Wilderness.
    The Department supports the administrative provisions in the bill, 
particularly provisions for a repeater site to provide improved 
communications for safety and health purposes. The Department also 
supports the provisions for land exchange in the Glacier Peak 
Wilderness and provisions for management of the existing snotel site in 
that wilderness.

          S. 1003--OUTFITTER HUNTING CAMPS ON THE SALMON RIVER

    S. 1003 would amend the Wild and Scenic Rivers Act to clarify the 
intent of Congress with respect to the continued use of three long-
established commercial outfitter hunting camps on the Salmon River.
    S. 1003 would direct the continued authorization of the use and 
occupancy of lands and maintenance or replacement facilities and 
structures for commercial recreation services at Stub Creek, Artic 
Creek, and Smith Gulch. The Forest Service's special use permits for 
the camps would be subject to revocation only for noncompliance. If 
revoked, S. 1003 would require the Forest Service to re-offer the 
permits through a competitive process.
    The hunting camps in question are located on the wild section of 
the Salmon Wild and Scenic River in the Frank Church-River of No Return 
Wilderness managed by the Salmon and Challis National Forests. The 
camps were in existence prior to the passage of the Central Idaho 
Wilderness Act of 1980, which designated the river segment as a 
component of the Wild and Scenic River system. One of the camps was 
relocated to Smith Gulch in 1988.
    The camps operate under special use permits administered by the 
Forest Service and they provide unique, traditional services and 
experiences to the public in a setting that cannot be duplicated. 
Historically, the Forest Service had taken the position that the 
camps--and the associated permanent facilities that are at issue are 
consistent with agency policy and the law. In 1995 the Forest Service 
reauthorized the special use permits for the camps through 2010.
    In 2000, however, a federal court found the permanent facilities to 
be in violation of the Wild and Scenic Rivers Act and ordered the 
Forest Service to have them removed. When the court ordered the Forest 
Service to remove these facilities, it also directed the agency to 
consider the needs of the camp owners in setting a timetable for 
removal. In January 2003, the Supervisor of the Salmon-Challis National 
Forest signed a Record of Decision (ROD) that continued use of the 
camps with temporary facilities and set a schedule for removal of all 
permanent facilities at the three camps by December 31, 2005.
    Mr. Chairman, in the context of these three camps the Department 
supports efforts to clarify congressional intent regarding permanent 
facilities within this designated river corridor. The Department would 
like to work with the Committee on amendments to the measure that would 
provide the Secretary maximum flexibility to make appropriate 
determinations regarding permit duration and other terms and conditions 
under which the use and occupancy of national forest system lands are 
authorized so that high quality, traditional, services that 1) meet the 
public needs, 2) adhere to the legal requirements related to special 
use authorizations on national forest system lands, and 3) are 
consistent with the public expectations for river corridors listed 
under the Wild and Scenic Rivers Act will be provided.
    This concludes my statement. I would be happy to answer your 
questions.

    Senator Craig. Thank you, Mark. Now let me turn to Deputy 
Director Hughes. Jim.

   STATEMENT OF JIM HUGHES, DEPUTY DIRECTOR, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Hughes. Thank you, Mr. Chairman. I want to thank you 
for this opportunity to present the Department of the 
Interior's position on three bills, S. 714, authorizing a land 
conveyance in Douglas County, Oregon, H.R. 417, concerning 
lands in Cibola National Wildlife Refuge in California, and S. 
924, authorizing a land exchange in Alaska.
    The Department supports both H.R. 417 and S. 924 as 
introduced, though we have some suggestions for some minor 
technical amendments to S. 924. We also support the goals of S. 
714, and would like to work with the committee on certain 
changes to the bill.
    First, with reference to S. 714, this would authorize the 
conveyance of a 68-acre parcel of public domain land in Douglas 
County, Oregon to the county in order to improve access to the 
Oregon Dunes National Recreation Area. The parcel is currently 
under the administration of the BLM's Coos Bay District, 
although management is difficult because the land is isolated 
from other BLM-managed lands. The parcel was identified as 
suitable for disposal in the District's 1995 resource 
management plan. The Department supports the goals of S. 714, 
and would like to work with the subcommittee on changes to the 
bill.
    Consistent with longstanding practice, we believe the 
Government should receive fair market value for the land being 
transferred out of public ownership. The land to be conveyed 
under S. 714 is located just south of where the Umpqua River 
empties into the Pacific Ocean near Winchester Bay. It's 
bordered on the south by the Umpqua Lighthouse State Park and 
private land, and the Umpqua Lighthouse State Park is located 
less than a mile from the Salmon Harbor on Winchester Bay. The 
lighthouse and adjacent museum are operated and maintained by 
the Douglas County Parks Department and the U.S. Coast Guard.
    With regards to H.R. 417, this would revoke a public land 
order, a portion of a public land order, 3442, which was issued 
in 1964, which erroneously included approximately 140 acres in 
Imperial County, California, in the Cibola National Wildlife 
Refuge, and it would return those lands to the management 
jurisdiction of the BLM, where they've actually been for the 
last 40 years.
    The Department supports H.R. 417. Prior to the 
establishment of the Cibola National Wildlife Refuge in 1964, 
the 140 acres erroneously included in the land order were 
administered by the Bureau of Land Management. In 1962, the 
Bureau issued a permit for a public recreation concession on 
the lands commonly known as Walter's Camp, which consists of a 
recreational vehicle park, a small marina, and a store.
    BLM estimates that Walter's Camp receives 11,000 visitors a 
year. In 1980, the current concessionaire obtained a 20-year 
permit which has been extended continuously to date. In 
contrast to the multiple uses of BLM-managed lands including 
recreation, wildlife refuges may be used only for the purposes 
which are compatible with the purpose for which the refuge was 
created. Recreation such as offered by Walter's Camp concession 
is not compatible with the purposes for which the refuge was 
created.
    Furthermore, I'm told by the Fish & Wildlife Service that 
the 140 acres that are to be conveyed back to the BLM do not 
possess wildlife refuge qualities. The 140 acres, including the 
land on which the concession is operated, were included in the 
refuge by error and should have remained instead under the 
multiple use management of the BLM. It is in the public 
interest to correct this error and return the 140 acres to the 
public land status to be managed by the BLM in allowing 
recreation.
    And finally, S. 924 would direct a land exchange between 
the Department of the Interior and the Newtok Native 
Corporation in Alaska. The Department supports the bill, which 
will address the community's special hardship case. The 
Department has worked cooperatively with Newtok's 
representatives and the committee over the last year to achieve 
consensus on the legislation. We have provided suggestions for 
some additional minor technical amendments that are detailed in 
the written testimony we have submitted to the committee.
    The present village site has experienced severe erosion 
along the banks of the Ninglick River, and it is expected that 
the land under the homes, schools, and businesses of the 
village will erode within 7 years. The bill would provide a new 
site for the Native village on lands, approximately 11,000 
acres, within the Yukon Delta National Wildlife Refuge on 
Nelson Island that are adjacent to other village-owned lands on 
the island.
    In exchange for the lands that will be granted to the 
village under the bill, Newtok will give up approximately 
11,000 acres of land referred to as the Aknerkochik parcel and 
relinquish ANCSA selection rights to approximately 996 acres on 
Baird Inlet Island. The parcel includes important wildlife 
habitat which will be restored to unencumbered refuge status. 
Baird Inlet Island, meanwhile, is the summer home to 4,500 
pairs of Pacific brant, and with the relinquishment of the 
village's selection to this parcel, the U.S. Fish & Wildlife 
Service will be able to retain administrative jurisdiction over 
all the island, thus assuring the ongoing protection of this 
important colony.
    The Department is satisfied that S. 924, with the suggested 
clarifying technical amendments, will safeguard both the fish 
and wildlife resources of the Yukon Delta National Wildlife 
Refuge and Newtok's future as a viable community.
    Mr. Chairman, this concludes my testimony. I'd be pleased 
to answer any questions.
    [The prepared statements of Mr. Hughes follow:]

          Prepared Statements of Jim Hughes, Deputy Director, 
         Bureau of Land Management, Department of the Interior

                                 S. 714

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present the position of the Department of the Interior 
on S. 714. This bill would provide for the conveyance of a 68-acre 
parcel of public domain land in Douglas County, Oregon, to the county 
in order to improve management of and recreational access to the Oregon 
Dunes National Recreation Area.
    The Department of the Interior supports the goals of S. 714, but 
would like to work with the Subcommittee on certain changes to the 
bill.
    Currently, the Bureau of Land Management's (BLM) Coos Bay District 
administers this land, which is located just south of where the Umpqua 
River empties into the Pacific Ocean, near Winchester Bay, in Douglas 
County, Oregon. The land is bordered on the west by public lands 
withdrawn for the U.S. Army Corps of Engineers and on the south, by the 
Umpqua Lighthouse State Park and various private lands. The Umpqua 
Lighthouse State Park is located less than a mile from the Salmon 
Harbor on Winchester Bay, and the lighthouse and adjacent museum are 
operated and maintained by the Douglas County Parks Department and the 
U.S. Coast Guard. There is no other BLM-managed land in the vicinity.
    The 68.8-acre tract to be conveyed under S. 714 is isolated and 
difficult for the BLM to manage. It was identified in the Coos Bay 
District's 1995 Resource Management Plan as suitable for disposal.
    Off-highway vehicle riders use this parcel for access to the Oregon 
Dunes National Recreation Area because it is one of the few free access 
points to the Area. Recreational access across this tract to the Oregon 
Dunes National Recreation Area can be managed more appropriately by 
Douglas County.
    However, consistent with longstanding practice, we believe that the 
government should receive market value for the land being transferred 
out of public ownership. We would also like the opportunity to work 
with the Subcommittee to address technical issues including: 
clarifications to the reversionary clause, acknowledgment of existing 
rights-of-way, and corrections to the map referred to section 1(a).

                                H.R. 417

    Mr. Chairman and members of the Subcommittee, I appreciate the 
opportunity to testify today in support of H.R. 417, which will revoke 
a small portion of Public Land Order 3442, dated August 21, 1964. This 
Public Land Order withdrew approximately 16,600 acres of public domain 
lands along the Colorado River in California and Arizona for the Cibola 
NWR. The withdrawal erroneously included a small area of approximately 
140 acres in Imperial County at the southern boundary of the California 
portion of the refuge. A similar bill, H.R. 3937, was passed by the 
House last year, but was not acted upon by the Senate.
    Prior to 1964, this property fell under the jurisdiction of the 
Bureau of Land Management (BLM) and, beginning in 1962, the BLM issued 
a permit for a public recreation concession on the lands now in 
question. Because neither the Fish and Wildlife Service nor the BLM 
recognized the mistake in legal descriptions on the ground, the BLM 
continued to renew the original permit and the recreational concession 
use has continued, unbroken, to the present time. The current lease 
expires on July 13, 2003. The concession and location are commonly know 
as ``Walter's Camp,'' which consists of a recreational vehicle park, a 
small marina, and a store, and the BLM estimates that Walter's Camp 
receives 11,000 visitors per year.
    The National Wildlife Refuge System Administration Act of 1966, as 
amended, (Act) requires that all uses of refuge lands be compatible 
with the purpose for which the refuge was established. Section 4(a) of 
the Act and section 204(j) of the Federal Land Policy and Management 
Act both prohibit the Secretary of the Interior from revoking 
withdrawals of land within NWRs. For this reason, Congressional action 
is required to remove these lands from the Refuge System.
    Since the inclusion of these lands in the Public Land Order was 
certainly a mistake, due to the prior existence of the concession, we 
believe the most equitable solution is removal of the lands from the 
refuge. There are no listed species inhabiting the 140 acres and the 
area in question is, at best, marginal wildlife habitat. Removal of the 
140 acres of land from the refuge would free-up the area necessary for 
the continuation of the recreational concession, while still affording 
more than adequate protection for the nearest significant wildlife 
habitat feature, Three Fingers Lake.
    We believe that withdrawal of these lands will benefit all parties 
involved--the concessionaire, the Service, the BLM and, ultimately, the 
public. For this reason, we support the bill and urge prompt action on 
enactment of H.R. 417.

                                 S. 924

    Mr. Chairman and members of the subcommittee, I want to thank you 
for the opportunity to appear before you today to present the views of 
the Department of the Interior on S. 924, which would direct a land 
exchange between the Department of the Interior and Newtok Native 
Corporation. The purpose of this exchange is to provide a new site for 
the Native Village of Newtok, Alaska, on lands within the Yukon Delta 
National Wildlife Refuge on Nelson Island. The present village site is 
experiencing severe erosion along the banks of the Ninglick River. The 
average annual erosion rate is 90 feet per year, and it is expected 
that the land under the homes, schools, and businesses of Newtok will 
erode within seven years.
    We support the desire of the residents of Newtok to relocate their 
village from its present site across the Ninglick River to an upland 
area on the Yukon Delta National Wildlife Refuge that is adjacent to 
other Newtok Village owned lands on Nelson Island.
    The new bill, S. 924, represents the results of discussions had 
last year on S. 2016 in the 107th Congress. The Department had several 
concerns last year regarding the earlier version of the bill, including 
insufficient acres to support the future needs of the community, a 
complex appraisal process, and ambiguities regarding the effect of the 
exchange on Newtock's ANCSA entitlement and the United States' ability 
to protect valid existing rights and enforce treaty obligations. Since 
that time, we have worked cooperatively with Newtok representatives and 
the Committee to achieve consensus on a bill that will allow for the 
relocation and re-establishment of the Village to more suitable terrain 
and still protect the fish and wildlife resources and supporting 
habitat within the National Wildlife Refuge System. We support S. 924. 
We do, however, on further examination of the bill, have suggestions 
for several minor technical clarifications to the bill, discussed 
below.

             LANDS TO BE ACQUIRED BY THE FEDERAL GOVERNMENT

    Under the terms of the exchange as proposed in S. 924, Newtok will 
give up approximately 11,105 acres of land referred to as the 
Aknerkochik parcel and relinquish selection rights to approximately 996 
acres on Baird Inlet Island. The Aknerkochik parcel lies about 14 miles 
northwest of the current community of Newtok and includes important 
wildlife habitat which will be restored to unencumbered refuge status. 
Baird Inlet Island lies between the current village of Newtok and the 
site proposed for relocation of the village. This island is the summer 
home to 4,500 pairs of Pacific brant which nest and brood their young 
there. The Baird Inlet Island brant population accounts for about one 
quarter of the entire Pacific brant population within the Yukon Delta 
National Wildlife Refuge. With the relinquishment of Newtok's 
selections, the U.S. Fish and Wildlife Service will be able to retain 
administrative jurisdiction over all of Baird Inlet Island thus 
assuring the ongoing protection of this important colony.

                     LANDS TO BE CONVEYED TO NEWTOK

    In exchange for these lands and selection rights, Newtok Native 
Corporation will receive title to approximately 10,943 acres of surface 
and subsurface estate on the northern shore of Nelson Island adjacent 
to lands already owned by the corporation. This proposal does not 
increase Newtok Native Corporation's ANCSA entitlement. The corporation 
will remain charged for lands which had previously been conveyed to it 
and will also be charged for the selections it relinquishes. Following 
survey of the lands on Nelson Island conveyed to Newtok under this 
proposal, the Bureau of Land Management will adjust Newtok's 
entitlement so that the corporation will be ultimately be charged 1.1 
acres for each acre to be conveyed under this bill. The additional 
charge of one tenth of an acre is to compensate the government for 
conveyance of the subsurface estate to Newtok Native Corporation, an 
additional benefit not extended to village corporations under the 
original ANCSA.
    Approximately 70 acres within the area to be conveyed to Newtok 
Native Corporation fall within the boundaries of the former Clarence 
Rhode National Wildlife Range. For that reason, these 70 acres would 
normally remain subject to statutory and regulatory restrictions 
imposed by Section 22(g) of ANCSA. Because such restrictions could 
limit Newtok's ability to develop these lands for their intended 
purpose, the Department agrees that the lands conveyed to Newtok should 
be free from restrictions imposed by Section 22(g) of ANCSA. The 
Department also agrees that it is appropriate for the conveyance to 
Newtok to be free from the standard 14(c) reconveyance requirements of 
ANCSA intended to benefit residents and communities occupying land as 
of 1971 and that the lands conveyed to Newtok shall no longer be 
considered part of the Yukon Delta National Wildlife Refuge.
    When a village corporation such as Newtok Native Corporation 
exchanges selection rights prior to receiving title under ANCSA, there 
can be ambiguity as to the effect on the Regional Corporation whose 
right to equivalent subsurface acreage is derived from conveyance of 
the surface estate. The bill includes a provision that assures that 
Calista Corporation will not lose subsurface acreage as a result of 
this exchange.
    Because detailed site plans and surveys for the new village have 
not yet been completed, the bill gives the Secretary of the Interior 
the flexibility to adjust the exchange to meet the intended purposes of 
the bill should Newtok determine at a later date that a larger site is 
needed for the relocated community.

                     SUGGESTED TECHNICAL AMENDMENTS

    The Department suggests five small technical amendments. 1) In 
section 4(b), add the word ``Delta'' to the name Yukon National 
Wildlife Refuge so it reads ``Yukon Delta National Wildlife Refuge,'' 
the correct name. 2) In section 4(d), after ``subsistence resources 
on'', delete ``those public lands'' and add ``those Newtok lands.'' 
This will be clearer and avoid ambiguity. 3) In section 4(e), second 
sentence, change ``This additional entitlement'' to read ``This 
equivalent entitlement.'' This is a more accurate description of the 
entitlement. Also in section 4(e), third sentence, change ``this 
additional entitlement'' to ``this equivalent entitlement.'' 4) 
Further, in section 4(e), at the end, after ``acreage'' add the phrase 
``from lands within the region but outside any conservation system 
unit.'' This will help clarify the areas from which lands may and may 
not be selected. Finally, in section 4(f), strike the word ``original'' 
before ``exchange'' and add the words ``herein authorized'' after 
``exchange,'' to clarify the exchange referenced. There is really no 
``original'' exchange. We have attached a copy of the bill showing the 
suggested changes.
    I appreciate the opportunity to comment on S. 924. The Department 
is satisfied that S. 924, with the suggested clarifying technical 
amendments, will safeguard both the fish and wildlife resources of the 
Yukon Delta National Wildlife Refuge and Newtok's future as a viable 
community.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions.

    Senator Craig. Jim, thank you very much. I appreciate both 
of you being here, and your testimony. I have several questions 
for both of you.
    First of all, Under Secretary Rey, before we dive into the 
bill that you've testified on, or the bills, I want to know if 
you've seen a report that was released yesterday by the 
National Forest Protection Alliance of the 10 most endangered 
forests. I got it this morning and have been thumbing through 
it, and I note that the top three are forests that were 
devastated by fire over the last 3 years. I don't believe that 
was the intent of this group to publicize that, but to 
publicize the human activity that has gone on on those lands.
    You are responsible for overseeing these forests. Would you 
care to comment on the report? It just so happens that one of 
them is on the breaks of the Bitterroots between Idaho and 
Montana. 300,000 acres were lost there in 2000. I think that's 
20 percent of that forest, and on the Apache Sitgreaves last 
year, the Rodeo Chediski fire. That's almost 1/2 million acres. 
I find it an interesting--I'll just be blunt, an interesting 
ignoring of the reality of our current state of forest health.
    Mr. Rey. Well, I've had the opportunity to glance at the 
report, which I think was jointly issued by the National Forest 
Protection Alliance and Greenpeace, and I guess I agree with 
their listing of the top three most endangered forests, because 
all three of them have burned up in the last 3 years. The third 
one was the Black Hills, where Congress passed legislation to 
in part get these folks to start helping, but what is striking 
about the report is that it doesn't mention the catastrophic 
fire situation that we currently face. We have 193 million 
acres of federally owned forest and rangelands that are 
endangered and are at risk.
    I just came this morning from a briefing by our long-term 
climatological and fire behavior modelers, and what they tell 
me is that as a result of a multidecadal climatic trend that 
began in the mid-1970's we have significantly more vegetation 
on our Federal lands, and that that will continue to get worse 
for the foreseeable future. So there are endangered national 
forests, there's no question about that, although there is 
considerable question about the dangers that are recounted, the 
alleged dangers that are recounted in this report.
    Senator Craig. Well, thank you. I haven't read all of it 
yet. I'll spend time reading it. Interesting report.
    Let's turn to the legislation at hand and S. 391, that 
you've testified on. Last year, the Forest Service testified 
that it would not oppose this wilderness. If this bill is 
passed, are we establishing any new wilderness standards?
    Mr. Rey. Not particularly. I think Congress has the ability 
and has executed the discretion in the past to include areas 
that, as far as our administrative procedures, the 
administrative criteria we use to review wilderness proposals 
wouldn't qualify for wilderness. That's not a new issue that's 
raised by this bill.
    Senator Craig. While I try to look at wilderness bills that 
are as pristine as possible as it relates to the designation, 
in my conversation with Senator Murray this morning and in 
testimony I expressed some concerns about some existing bridge 
structures, and culverts that are there and, if they were to 
breach or clog, how we might handle those? I think you heard 
that testimony
    Mr. Rey. I did.
    Senator Craig. Comment on that.
    Mr. Rey. Under our existing procedures, if a culvert should 
fail and we're confronted with an emergency situation, we do 
have the authority to use mechanized equipment. However, if you 
want us to go in and deal with the problem before there's an 
emergency situation, then it would be helpful if the report 
language accompanying the bill made it clear that you wanted us 
to do that and allowed us to use the equipment necessary to get 
that job done.
    Senator Craig. Well, I'll obviously work with both of my 
colleagues here to see if we can resolve that. That may be a 
way to approach it. Obviously, the potential of less damage 
occurring, if you can go in proactively and remove these 
structures prior to, and for any change of road or road 
obliteration. Are there resources to be able to do that?
    Mr. Rey. Our best estimate right now to do the road work 
that would need to be done in the area is roughly $6 million. 
We would look at it in the context of our other priorities, 
absent some additional funding.
    Senator Craig. I guess we're not using the timer. Let me 
turn to my colleague, Senator Cantwell, if she has any 
questions of these gentlemen.
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Rey, I wanted to go back to your testimony in which you 
indicate that the Department doesn't oppose this legislation. 
Does that mean it supports it?
    Mr. Rey. It means that the legislation, if passed by the 
Congress, will be signed by the President.
    Senator Cantwell. And does that mean that if people ask if 
you have questions or concerns, that you'll say you don't 
oppose the legislation and would like to see it passed?
    I want to make sure that we don't go through the same 
process at the eleventh hour that occurred last year, I don't 
want people to quietly or secretly try to raise objections 
about the bill and then not have it pass. We want to answer 
whatever we need to get answered.
    Mr. Rey. You have our full statement, our full list of 
concerns. Some of them you may not elect to address. We know we 
don't always get what we want, but if this bill passes the 
Congress, it will be signed by the President.
    Senator Cantwell. Does that mean you're neutral?
    [Laughter.]
    Mr. Rey. Let's go to a major concern. There are about 
16,000 acres of the land affected by the bill that we think 
would be better designated as back country rather than 
wilderness, but as I said to Senator Craig, you know, we're not 
purists either. Congress has in the past periodically included 
areas in wilderness bills that didn't meet the statutory 
standard in the 1964 act, so there's nothing new there. This is 
a good bill. We commend you and the Washington delegation for 
the bipartisan nature in which you put it together, and if it 
passes, we'll be pleased to sign it.
    Senator Cantwell. Well, thank you for that last statement. 
I want to focus in on that, the purity issue, because we've 
heard it before and I think you're right. I think you've 
characterized the situation in the past, and that is that 
sometimes this issue has been brought up, and our former 
colleague, a longstanding member and at one point in time 
chairman of this committee, Scoop Jackson, once said, ``a 
serious and fundamental misrepresentation of the Wilderness Act 
has recently gained some credence, thus creating a danger to 
the objective of securing a truly National Wilderness 
Preservation System.'' It is my hope to correct this false, so-
called purity theory which threatens the strength and broad 
application of the Wilderness Act.
    I believe the Forest Service has many times approved or, as 
you said, had the administration sign an act, one being in 
2000, the Virginia Wilderness Act, which in my understanding 
had had some areas and incursions in that that were a similar 
issue and we went ahead and proposed those, so I guess what 
you're saying about this purity argument is that you're not 
gong to go out of your way to lobby against this legislation 
based on that. You've made your testimony and you'll see how 
Congress deals with it, recognizing that Congress has passed 
other bills with similar inclusions.
    Mr. Rey. Recognizing that, and also recognizing, as I said 
in my prepared statement, that in a State-specific bill where 
the delegation has come together, particularly in a bipartisan 
fashion to effect an outcome, we generally tend to try to defer 
to that, unless there's some larger issue that causes us 
concern, and this would be a case where there is not a larger 
issue that's going to cause us concern.
    Senator Cantwell. Thank you, and then the other issue that 
Senator Craig brought up in his testimony as it related to 
culverts, do you think report language would get us in the more 
proactive stage on that and would satisfy that particular 
issue?
    Mr. Rey. Yes. If you want to make it possible for us to do 
the work quicker and cheaper, then it would be good to put some 
report language indicating that that's your desire and that we 
should use whatever equipment is necessary for that purpose.
    Senator Cantwell. And those are really your two primary 
concerns?
    Mr. Rey. There's a naming question that's in the testimony 
as to whether part of it wouldn't be better added to the 
existing Scoop Jackson Wilderness, but that's a technical 
detail.
    Senator Cantwell. Thank you. That addresses my concerns, 
Mr. Chairman.
    Senator Craig. Well, thank you very much. Just for the 
record, Senator, when we look at eastern wilderness, there is 
an Eastern Wilderness Act that allows some greater flexibility. 
I think Virginia Wilderness came in under that, smaller parcel, 
more flexibilities. When I was in the House in the mid-eighties 
we were looking at the Mark Twain, and their members of the 
House had included an existing power line and a few other 
things that were, in my rather pristine view of wilderness, 
uncharacteristic. We changed that bill and moved some of that 
out.
    You are right, though, and I think Secretary Rey has spoken 
to that. We've offered flexibility in the past. We're not going 
to sit here and argue pristine, especially if those structures 
that are in there, once the decision has been made, can 
effectively be taken out and/or modified to fit the character 
of the act and/or the language of the legislation.
    Senator Cantwell. Well, listening to my predecessor's 
comments, Senator Jackson, that this debate has gone on for 
sometime, and obviously it is something that the Wilderness Act 
really doesn't speak to, basically has what it takes to provide 
wilderness area, and so we want to make sure that we continue 
to move ahead on these designations.
    Senator Craig. Thank you.
    Secretary Rey, I've got one other question of you before I 
turn to Mr. Hughes. You mention in your testimony that one camp 
was relocated to--and I'm talking about S. 1003--to Smith Gulch 
in 1988. I believe that relocation took place to move the camp 
off the river to ensure that it was screened from the view of 
those on the river. Is that a correct analysis?
    Mr. Rey. That was one of the reasons that it was moved. The 
other was that there was an opportunity for a better septic 
system in the new location, and the move also allowed us to 
increase recreation opportunities, because we were able to then 
convert the former location into a group campsite for rafters.
    Senator Craig. In talking with outfitters that facilitate 
and utilize these camps as it relates to a broader use of the 
river by older Americans and disabled recreationalists, they 
believe these camps are critical for that purpose. Do you 
believe that to be the case?
    Mr. Rey. I think our use data indicates that the camps are 
popular with older, or people with disabilities, because of the 
conveniences that the camps provide, but they also are used by 
younger and able-bodied people as well.
    Senator Craig. You said you support the effort to clarify 
the situation. Is that correct for the record?
    Mr. Rey. That is correct. This will be helpful in 
clarifying the congressional intent. It will also address 
issues that are being raised in pending litigation.
    Senator Craig. Okay, thank you.
    Jim, S. 714, Douglas County, Oregon. You testified in favor 
of this proposal after enactment. How quickly can the 
Department implement this conveyance?
    Mr. Hughes. If we resolve some of our differences, probably 
3 to 6 months, Mr. Chairman. We will have to do a Cadastral 
survey, cultural clearances and consultations with tribes, NEPA 
compliance analysis, and then a Federal Register notice, and 
then a notice of realty action, so we think somewhere 3 to 6 
months, and some of that action can be done concurrently, all 
right.
    Senator Craig. In S. 924, the Newtok land exchange, I 
believe that last year the Department supported the legislation 
but recommended a number of technical changes. I know that both 
staff worked very hard last fall to accommodate the 
Department's concerns prior to the markup last fall. I see that 
this year you mentioned the need for some minor corrections. 
Can I have your assurance that you will have these changes to 
our staff by close of business on Friday so that we can get 
them incorporated?
    Mr. Hughes. Absolutely, Senator. I think we have included 
it in our written statement.
    Senator Craig. And on H.R. 417, the Cibola National 
Wildlife Refuge, it would seem to me that this boundary 
adjustment would have been made a long time ago. I was looking 
at the maps here a few minutes ago. We will work to expedite 
this legislation through our process. To help us, can you 
assure us that your agency will work on this proposal with as 
much speed as we can generate here?
    Mr. Hughes. Absolutely. I'll take that message back today, 
sir.
    Senator Craig. Well, thank you both very much for your time 
before the committee and your testimony today on these issues. 
We appreciate it.
    Let me now call our second panel to the table, Mike Town, 
Friends of Big Sky--oh, excuse me, wrong State, Montana, there 
is a difference, isn't there?--Wild Sky, Ed Husmann, Washington 
Farm Bureau, Mark Heckert, president, Washington Wildlife 
Federation, and John Postema, local businessman from Snohomish. 
Gentlemen, please.
    Well, again, thank you all for being with us this morning. 
Mr. Town, let's start with you, Mike Town, Friends of Wild Sky. 
Yes, pull the mike as close as is comfortable and proceed, 
please.

        STATEMENT OF MIKE TOWN, FRIENDS OF THE WILD SKY

    Mr. Town. Chairman Craig, Senator Wyden, I suppose when he 
gets here, and other members of the subcommittee, I'd like to 
thank you for giving me this opportunity to testify today on 
behalf of the proposed Wild Sky Wilderness Act. I'd also like 
to thank Senator Murray, Senator Cantwell, and Congressman 
Larsen for sponsoring this important legislation, and I'd like 
to ask that my full statement be included in the committee 
record.
    Senator Craig. Without objection, your full statement will 
be.
    Mr. Town. Thank you, Senator.
    My name is Mike Town, and I'm testifying today on behalf of 
the Friends of the Wild Sky, an association of local residents 
and concerned citizens who support permanent protection for the 
Wild Skykomish country. My background includes an undergraduate 
degree in terrestrial ecosystems analysis and work experience 
in silvaculture with the U.S. Forest Service. My wife and I are 
both currently science teachers. We first moved into the 
beautiful Skykomish Valley in 1988. Currently, we're in the 
process of building a new home in the shadows of the Wild Sky 
country.
    I'm testifying today based on my extensive knowledge of the 
Wild Skykomish country. As an avid outdoorsman, I've spent the 
last 15 years exploring the beautiful Skykomish area. Within 
the boundaries of the Wild Sky Wilderness are lush, old growth 
forests, high peaks over 6,000 feet tall, breathtaking 
waterfalls, 1,000-foot cliffs, pristine rivers, and secluded 
alpine lakes. The proposal protects over 25 miles of the 
Skykomish River, which provides habitat for endangered species, 
world class whitewater, and renowned fishing.
    Other watersheds in the proposal contribute to clean and 
safe drinking water for the city of Everett, and the forested 
slopes reduce the potential for downstream flooding. Recreation 
abounds in the Wild Sky, as back-country skiers, anglers, 
hunters, hikers, horseback riders, and campers flock to this 
spectacular area. This steady flow of visitors is crucial to 
the economic stability of the small towns in the Skykomish 
Valley.
    To prepare for today's hearing, I went out and investigated 
on the ground issues raised by the Forest Service's testimony 
last year. When the Forest Service raised some concerns about 
inclusion of certain areas within the wilderness, these 
concerns were without merit and appropriately rejected last 
year by the committee on a bipartisan vote and later by the 
full Senate. While some areas within the Wild Sky Wilderness 
proposal have been affected by logging activity, the Forest 
Service failed to mention that these areas are already 
recovering naturally from the railroad logging that occurred 
during the 1920's. These stands, left to grow back on their 
own, have now almost returned to their former glory. Other than 
the occasional stump, these forests appear quite natural to 
almost all visitors as they assume the characteristics of true 
ancient forests.
    The Forest Service also did not inform the committee that 
these previously impacted areas are crucial to protect stream 
habitat to help ensure survival of salmon, steelhead, and bull 
trout. Last year, the Forest Service testified that 
approximately 35 miles of existing roads would be impacted. 
This overstates the effect of the proposed wilderness by not 
taking into account roads that have already been permanently 
decommissioned by the Forest Service, or roads closed by the 
agency, or roads closed by acts of nature that prevent access. 
In reality, the Wild Sky Wilderness would impact only about 2 
miles of roads that are currently driveable by passenger 
vehicles.
    In recent weeks, a few colleagues and I have field-checked 
most of the roads and the culverts in the wilderness. In short, 
we found most of the culverts do not appear to have been 
maintained for many years. Many of the small culverts which 
need maintenance can be maintained by hand labor. Numerous 
culverts are fully functional and will not need very much 
maintenance in the future. None of the culverts in the Wild Sky 
block the passage of salmon.
    Mr. Chairman, local support for the Wild Sky is strong in 
the valley, and includes endorsements by many local officials, 
businesses, and nearly 1,000 valley residents who signed a 
petition asking for the creation of the Wild Sky Wilderness. 
Importantly, I'd like to add that this area serves as a living 
laboratory for students of my wife and I, who enjoy the beauty 
of the Wild Sky as they learn lessons about geology, history, 
culture, ecology, and botany.
    One of my favorite memories is introducing my students to a 
spawning site of wild salmon, one of the few places left in the 
Cascade Mountains where salmon are so numerous you can walk 
across the river on their backs. This river's headwaters is in 
the Wild Sky, which still allows for one of the greatest 
spectacles of nature. Watching this display of nature with my 
students, I'm reminded that wilderness is not just about the 
present but, rather, about the preservation of the ancient 
attributes of nature.
    I cherish the hope that my teenage students will have the 
ability to share this experience with their grandchildren. 
Permanently protecting the Wild Sky country lets that happen. 
It's a gift to the ages, and a powerful legacy of this 
Congress. I urge the members of the committee to support 
passage of the Wild Sky Wilderness bill. Thank you.
    [The prepared statement of Mr. Town follows:]

        Prepared Statement of Mike Town, Friends of the Wild Sky

    Chairman Craig, Senator Wyden, and other Members of this 
Subcommittee, I would like to thank you for giving me this opportunity 
to testify today on behalf of the proposed Wild Sky Wilderness bill. 
I'd also like to thank Senator Murray, Senator Cantwell and Congressman 
Larsen for co-sponsoring this important legislation.
    My name is Mike Town and I am testifying today on behalf of the 
Friends of the Wild Sky, an association of local residents and 
concerned citizens who support permanent protection for the Wild 
Skykomish Country. My background includes an undergraduate degree in 
Terrestrial Ecosystems Analysis and work experience in silvaculture 
with the USDA Forest Service.
    Currently, I am a high school science teacher. My wife, who is also 
a science teacher, and I first moved into the beautiful Skykomish 
valley in 1988 and currently we are in the process of building a new 
home in the shadows of the Wild Sky country.
    I am also testifying today based on my extensive and personal 
experience and knowledge of the Wild Skykomish Country. As an avid 
outdoorsman I have spent the last 15 years exploring the beautiful 
Skykomish area. Each year I hike, ski, and snowshoe more than 200 miles 
to the forests, high country meadows, secluded lakes and numerous 
mountain streams in the proposed Wild Sky Wilderness. My wife and I 
have written a newspaper column on the wonders of the Wild Sky and 
other parts of the region for our local newspaper, The Monroe Monitor. 
Each summer I teach college courses on mining, ecology, and history 
within the boundaries of this wilderness proposal.
    I would like to take the entire Committee to see this special 
place, but the best I can do today is to try to describe in words why 
the Wild Skykomish Country is a perfect candidate for designation to 
our National Wilderness Preservation System.
    Within the boundaries of the proposed Wild Sky Wilderness are lush 
old growth forests, high peaks over 6000 feet tall, breathtaking 
waterfalls, 1000-foot cliffs, pristine rivers and secluded alpine 
lakes. The proposal protects over 25 miles of the Skykomish River, 
which provides habitat for endangered species, world-class white water 
and renowned fishing. Other watersheds in the proposal contribute to 
clean and safe drinking water for the City of Everett and the forested 
slopes reduce the potential for downstream flooding. Recreation abounds 
in the Wild Sky as backcountry skiers; anglers, hunters, hikers, 
horseback riders and campers flock to this spectacular area. This 
steady flow of visitors is critical to the economic stability of small 
towns in the Skykomish valley.
    Since the Members of the Committee can't go there, I'd like to 
describe this special place--moving west to east.

Ragged Ridge
    The wild country directly north of Goldbar and Index is an area of 
high lakes and ridges. From Arsenic Meadows to Northstar Mountain, one 
can wander through some of the loneliest terrain in the Cascades. 
Extensive middle elevation forests, mostly western hemlock and silver 
fir, cover the hillsides, with scenic parklands of mountain hemlock 
above. This is an area without established trails - this is wilderness 
in the truest sense, a great big blank spot on the map. It's a place 
where just about no one ever goes, or, in more scientific terms, ``core 
security habitat,'' for many kinds of wildlife.

Lower North Fork Skykomish Valley
    The lower fifteen or so miles of the North Fork valley contain 
beautiful ancient forests with several trees over eight feet in 
diameter. Some of this area was railroad logged in the 1920's and 
'30's. During this time only the highest value trees were taken, and 
much of the biological legacy survived. Most importantly, these areas 
were never replanted, and a diverse, naturally regenerated forest has 
grown back. There are many miles of these forests along the North Fork 
road, and from high vantage points in the Wild Sky they form a 
continuous green blanket over the entire lower valley.

West Cady Ridge
    As one move further up the North Fork Skykomish, the land begins to 
change. Rather than the sharp peaks, and fearsome brush and cliffs of 
Eagle Rock, the terrain opens up bit and the mountains grow gentler. 
Long ridges are topped by extensive flower meadows provide extensive 
bear habitat and important wildlife corridors to other areas in the 
Cascades. This is a friendly, inviting country, slightly drier than 
areas further west. There are a number of popular trails, such as West 
Cady ridge and Scorpion Mountain. Certain other areas lend themselves 
well to off trail wandering through open forests and meadows.

Eagle Rock Roadless Area
    This country inside the Jack's Pass road loop is east and south of 
the lower North Fork, west of the Beckler River valley and north of 
Highway 2. The Eagle Rock area contains some of the most rugged 
mountain terrain in the Skykomish area, with sharp, jagged Gunn, 
Merchant and Baring peaks prominently visible from Highway 2. Only one 
formal trail enters the area, to scenic and popular Eagle Lake at the 
end of Paradise Meadow.
    This is a place of many diverse attractions. On its southern edge, 
some of the most impressive old growth forest in the Cascades grows on 
low, south facing slopes just north of the village of Grotto. A large 
area of Alaska cedar forest is found near Eagle Lake, and further 
north, the valleys of upper Trout and Howard creeks support extensive 
virgin forest. Seldom visited lakes like Sunset and Boulder lie at the 
heads of most valleys, offering outstanding fishing. Botanically 
significant areas like Paradise Meadow display rare orchids, and 
carnivorous sundews as well as a bouquet of flowers in the early 
summer. The central and northern reaches of the Eagle Rock area are 
little visited, and mysterious. Summits such as Conglomerate Point and 
Spire Mountain see only a few visitors in any year while other places 
like Bear Mountain and upper Bear Creek valley may go a decade or more 
without seeing any humans.
    As you can see the Wild Sky country is a land of contradictions. It 
is rimmed by powerful mountains, cut by turbulent streams, punctuated 
with biologically diverse forest and meadows and filled with habitats 
for a wide range of common and rare species. It's pure waters provide 
adventure for white water rafters, habitat for fish, drinking water for 
Snohomish County, and flood control for downstream residents. Its 
recreational benefits are endless and its ecological significance so 
valuable that this area demands permanent protection.
    Unfortunately, the Wild Sky area was excluded from consideration in 
the 1984 Washington Wilderness legislation and left hanging at the end 
of the 107th Congress. However, almost 20 years after the creation of 
the last wilderness in Washington State, Congress can revisit the Wild 
Sky and give the protection this unique and beautiful area deserves.
    I have had a chance to review the testimony submitted last year by 
the Forest Service concerning the Wild Sky Wilderness legislation. It's 
worth noting that both the Committee and the full Senate rejected the 
agency's proposals to exclude lands from the new Wilderness. For the 
past year, I have had a chance to investigate on the ground the issues 
raised by the Forest Service. Here's what I've seen:
    The Forest Service correctly points out that there are some areas 
within the Wild Sky Wilderness proposal that have been affected by 
logging activity. These areas are mostly at lower elevations, and most 
are already recovering naturally from the railroad logging that 
occurred around the 1920's.
    For example along the North Fork of the Skykomish there are forest 
stands, which were logged about 80 years ago. These stands, left to 
grow back on their own rather than being reforested with a monoculture 
of Douglas fir, have now almost returned to their former glory. Now 
they feature species diversity, multi-layer canopies and an abundance 
of ecologically important reproductive niches. These forests are in 
direct contrast to the second growth forest started from reforested 
trees, which are so abundant throughout the portions of the Cascades, 
which have been previously logged. Other than the occasional stump, 
these forests appear quite natural to almost all visitors as they 
assume the characteristics of true ancient forest.
    Another example of past logging is seen in the area of lower West 
Cady Creek, a tributary stream of the North Fork Skykomish River. This 
valley was partially logged, but extensive areas of old growth forest 
remain. Ten years ago the most significant logging road in this valley 
was permanently decommissioned and the logged areas have stabilized the 
soils and began to contribute significant ecological values. This 
vibrant lowland valley needs to be included in the Wild Sky Wilderness 
to protect the remaining old growth and mature second-growth forests, 
water quality and important wildlife corridors. It also provides a 
logical, and manageable Wilderness boundary without a non-Wilderness 
finger intruding deeply into the Wilderness.
    It is important to include these previously impacted areas in the 
Wilderness in order to protect stream habitat to help ensure the 
survival of salmon, steelhead and Bull trout. It is also important for 
these low elevation forests to be better represented in Washington's 
Wilderness Areas, to fully reflect this especially important type of 
ecosystem and wild landscape, which promotes biodiversity and is absent 
in so many other wilderness areas in the state.
    In testimony last year the Forest Service stated: ``approximately 
35 miles of existing roads, some of which are all weather, drivable and 
graveled.'' Actually, the Wild Sky Wilderness would impact 
approximately 2 miles of roads that are currently passable by passenger 
vehicles. The agency overstates the effect of the proposed Wilderness 
by not taking into account roads that have already been decommissioned 
i.e., non-drivable and permanently closed by the Forest Service and 
other roads that are currently gated or otherwise closed by the agency 
to prevent access. Other stretches of roads are closed by landslides, 
washouts, overgrown vegetation or closed because of other random acts 
of nature.
    The Forest Service's testimony also stated that the Rapid River 
road receives high levels of visitor use for recreation purposes, and 
so should be excluded. It's important to clarify that the Wild Sky 
Wilderness proposal would only impact approximately one mile of the 
upper section of this road. This section, which passes through towering 
stands of ancient forest, actually gets very limited visitation because 
it is rough, accesses few dispersed recreation sites and most drivers 
stop at the Meadow Creek trailhead which is located outside of the 
wilderness boundary. In fact, recently I spent 4 hours along this 
section on Saturday of Memorial Day weekend--a beautiful sunny day, and 
did not see a single vehicle on the upper section of this road. In any 
case, it is important to close the upper portion of Rapid River Road 
for a number or reasons: the closed road can be converted into a 
barrier-free trail that is wheel-chair accessible; closure will protect 
significant ancient forest and important riparian areas; and it will 
leave this low elevation area, which is open almost all year, 
accessible by a short hike.
    It should be noted that the bridge on the upper Rapid River road is 
not in the proposal. This issue was raised last year due to an 
inadvertent mapping error and has since been resolved. Similarly, the 
bill this year excludes the ancient log-stringer bridges on the old 
Silver Creek road. The proposal does include an old cement bridge 
located in the West Cady Ridge region, but it is located over 3 miles 
up a decommissioned road. It is important to state that the West Cady 
Bridge does not invalidate the Wilderness character of this area.
    The Forest Service asserted that roads outside and adjacent to the 
proposal have narrow corridors subject to landslide, and the boundaries 
are too close. While there may be locations where roads proceed through 
areas with narrow corridors, the boundaries have already been set to 
meet that concern in these areas. However, the , mile buffer suggested 
by the Forest Service would have forced Space Needle-sized buffers for 
every road bordering the proposal. The current buffer as determined by 
the Senate last year and applied generally along the North Fork and 
Rapid River Road should be more than adequate.
    While it is true that there is some visible evidence of past mining 
activity, it is not as significant as the Forest Service contends. 
Large areas of the Cascades have experienced the regions mining 
history, but no major mine site ever existed in the Wild Sky proposal. 
Mining in this area was mostly limited to small claims that were worked 
sporadically for short periods up until the 1940's. Today the visible 
evidence of mining activity is limited to an occasional mine portal, 
some old road disturbances and rare dilapidated miner's shacks, and 
most of these are actually on private lands which are surrounded by 
National Forest land.
    I want to briefly comment on the question of dealing with culverts 
on decommissioned roads. In recent weeks a few Friends of the Wild Sky 
colleagues and myself have field checked a most of the roads and 
culverts included in the proposed Wilderness. In short, we found:

  <bullet> Most of the culverts appear to not have been maintained for 
        many years;
  <bullet> Many of the small culverts which need maintenance can be 
        maintained by hand labor;
  <bullet> Numerous culverts are fully functional and will not need 
        very much maintenance in the future;
  <bullet> None of the culverts in the Wild Sky block the passage of 
        salmon.

    Finally, two issues raised last year by the Forest Service--the 
Evergreen Mountain Lookout and floatplane use on Lake Isabel are 
expressly addressed by the current version of the bill.
    Local support for the Wild Sky is strong in the valley and includes 
endorsement by many local officials, businesses and nearly 1000 valley 
residents who signed a petition asking for the creation of the Wild Sky 
Wilderness. The Monroe City Council unanimously passed a resolution in 
the support of Wild Sky and the Mayor of Index, the closest town to the 
proposal, testified before this committee last year in support of 
wilderness designation. Later this month the Friends of the Wild Sky 
will be sponsoring the first annual Wild Sky Wilderness Festival in 
Index, which has received an incredible positive response and support 
from a large number of local business in the Skykomish Valley who have 
donated a variety of goods and services to the festival.
    Clearly, people in Snohomish County and eastern King County care 
about the quality of life they get from the Wild Sky country whether it 
be in the form of accessible wilderness oriented recreation, pure 
drinking water or the knowledge that the ancient forest and salmon will 
continue to provide solitude, serenity and enjoyment which is 
guaranteed with Federal Wilderness protection.
    Finally I would like to add that as science teachers this area 
serves as a living laboratory for our students who enjoy the beauty of 
the Wild Sky while also learning lessons about geology, history, 
culture, ecology and botany. My favorite memory is introducing my 
students to a wild salmon spawning site, which is one of the few places 
left in the Cascades where spawning salmon are so numerous that you 
could walk across the river on their backs. This river's headwaters is 
in the Wild Sky and it is the wilderness character of the forests along 
its banks, which still allow for one of the greatest spectacles in 
nature.
    When I am watching this display of nature with my students it often 
dawns on me that wilderness is not just about the present, but rather 
is about the preservation of the ancient attributes of nature. I 
cherish the belief that with federal protection my teenage students 
will have the ability to share the experience of spawning wild salmon 
with their grand children. Permanently protecting the Wild Sky country 
lets this happen. It is a gift to the ages and a powerful legacy of 
this Congress.
    In closing, I want to commend Senator Murray for bringing disparate 
interests together from timber companies, backcountry horsemen and 
environmentalists to residents and elected officials from local 
communities--to support this legislation. Washingtonians are committed 
to Wilderness and preserving our State's natural heritage, and Senator 
Murray as well Congressman Larsen deserve thanks for continuing that 
tradition alive. I urge the members of the Committee to support passage 
of the Wild Sky Wilderness bill.

    Senator Craig. Mike, thank you very much. Let's turn now to 
Mark Heckert, president, Washington Wildlife Federation. Mark.

       STATEMENT OF MARK HECKERT, PRESIDENT, WASHINGTON 
                WILDLIFE FEDERATION, OLYMPIA, WA

    Mr. Heckert. Good morning, Mr. Chairman, Senators Murray 
and Cantwell. I appreciate the opportunity to be here. I'm Mark 
Heckert, president of the Washington Wildlife Federation, a 
citizen of the great State of Washington, and a proud husband 
and dad. I'm honored to be able to present my testimony to the 
subcommittee regarding the Wild Sky Wilderness Act of 2003.
    The Washington Wildlife Federation is a grassroots 
conservation organization comprised of hunters, fishers, and 
conservation educators from many areas of the State who all 
share an abiding love and concern for our wild places and the 
bounty of our State. The Washington Wildlife Federation is an 
affiliate of the National Wildlife Federation, the Nation's 
largest conservation organization. The Washington Wildlife 
Federation is currently implementing, as a partner with the 
Washington Department of Fish and Wildlife, a program called 
``Go Play Outside'' to engage and educate the youth of 
Washington in outdoor recreation activities such as fishing and 
hunting while instilling a respect for our natural resources. 
We hope through these activities to bring our younger 
generations to an awareness of the natural world, an awareness 
which may be missed in the rapidly urbanizing Puget Sound 
region.
    I'm a fisheries and wildlife biologist and owner of a 
natural resource consulting firm located in Puyallup. I have 
been, among other things, executive director of the Willapa 
Alliance of South Bend, and a forest biologist for the Puyallup 
Tribe, as well as a commercial fishermen. I'm a hunter and 
fisherman and have throughout my life sought and enjoyed the 
solitude of wild places.
    The Washington Wildlife Federation strongly supports the 
Wild Sky Wilderness Act because, among other things, it will 
protect over 106,000 acres of roadless national forest, the 
forestland designated as wilderness. It will protect 
approximately 80,000 acres of old growth and mature second 
growth forest, with roughly 14,000 acres of rare, low elevation 
old growth. It will directly protect over 25 miles of salmon 
and steelhead spawning stream, and sustain continuing health 
for many more miles of downstream spawning habitat, like 
protecting critical forested watersheds.
    The north fork of Skykomish River and its tributaries are 
home to one of the best remaining strongholds of anadromous and 
freshwater fish in the Puget Sound region. It will permanently 
close approximately 13 miles of old, failing logging roads 
which are damaging watersheds, only 2 miles of which are 
currently passable by motor vehicles. Eliminating these old 
roads will help protect and restore critical fish-spawning 
habitat.
    This will preserve special places in the Wild Sky region 
such as the Upper Fork Rapid River, Trout Creek, and the Upper 
North Fork Skykomish. It will protect existing opportunities 
for primitive recreation, summer and winter, and fishing and 
hunting opportunities. It will provide support for the new 
economy for local rural towns and communities to take advantage 
of the abundant recreational opportunities of these areas. It 
will protect important habitat for a wide range of wildlife, 
including popular game species and endangered or sensitive 
species such as the northern spotted owl, marbled murrelet, 
bald eagle, mountain goat, pine marten, pileated woodpecker, 
cougar, wolverine, lynx, and grizzly bear.
    Soon, I will give this gift of wild places to my children. 
Last summer, my boys got to go on their first sighting-in trip 
to check the accuracy of our hunting rifles in the area that 
will be the Wild Sky Wilderness. We will hunt and camp in the 
proposed wilderness area this fall, and I will have that time 
in the wondrous place to let my children experience the 
irreplaceable beauty of wild places. After this area receives 
its wilderness status, we will be able to continue hunting, 
fishing, and camping in this very same area.
    Our trip will be possible because of our country's great 
history of valuing wild places and protecting these places by 
creating wilderness areas. This is especially valued in 
Washington State, where we have a distinguished history of land 
conversation and resource preservation on our public lands. I 
want to see this history continued, and a new chapter of 
preservation written on our landscape by the establishment of 
the Wild Sky Wilderness.
    It's been 20 years since wilderness was added to Washington 
State. Since that time, our population has almost doubled, and 
it's getting harder and harder to find places for outdoor 
recreation. It seems that everywhere nowadays is private, 
logged, or crowded. The addition of new wilderness to our 
public lands will broaden our outdoor opportunities and allow 
us to come back to the same places year after year without 
having to worry whether they've been logged.
    I'm in strong support of the creation of the Wild Sky 
Wilderness. This is our legacy to our children, their children, 
and the untold generations that will follow. The Wild Sky 
Wilderness will tell them of our commitment to the land, to 
them, and to the things of the world that have value that 
transcends the price of their pieces.
    I appreciate the opportunity for being able to comment this 
morning.
    Senator Craig. Thank you very much for your testimony, 
Mark. Now let us turn to John Postema, a local businessman from 
Snohomish.
    John, welcome to the committee.

  STATEMENT OF JOHN POSTEMA, LOCAL BUSINESSMAN, SNOHOMISH, WA

    Mr. Postema. Thank you, Senator. Good morning. My name is 
John Postema, and I represent myself, my company in the 
horticulture industry and many nurserymen in the area which is 
going to be affected by the Wild Sky. I have submitted my 
written testimony.
    Senator Craig. It will become a part of our record, thank 
you.
    Mr. Postema. I want to preface my oral comments here with 
the fact that we like wilderness, and I personally like the 
wilderness as well because 20 years ago I spent with my family 
and kids gathering moss, and moss-gathering is one part of the 
forest product-gathering industry, and I remember, because our 
nursery was really small, we collected 2,000 bags of moss and 
we sold it for $6 apiece. Well, my kids all hated doing this, 
but it did help us to gather money for our nursery.
    I also have included, and I would ask to be included some 
signatures, about 300 signatures of some good people the rural 
county gave me, including 60 companies, names of companies who 
are actually opposing the Wild Sky as it is being written.*
---------------------------------------------------------------------------
    * The signatures have been retained in subcommittee files.
---------------------------------------------------------------------------
    To summarize, and I'm not going into all the details I went 
into in my written testimony, but the people, the rural people 
in Snohomish County feel they have been sold a bill of goods, 
and I'm not sure if the Senators and Congress has been done the 
same, because it is a great Wild Sky, but this has been to us 
locally a great wild deception. There has to be, and I hate to 
use the word deceitful, there has to be in a process which was 
not open, it was not public, and hardly anybody knows anything 
about it, contrary to what you have heard.
    To us, it is not a matter of less or more, we should do 
this or should do that. This is a black and white issue. The 
process has not been followed, and that's why last year there 
was--you didn't hear anything from the rural people out there. 
What you have led to believe that this is a wonderful thing 
that is supported by many, many people and, contrary, I'll tell 
you that this is not good for the salmon and the environment as 
it is written. It is not good for the timber industry. It is 
not good for the forest-gathering products, as I described the 
moss, the Christmas trees, the firewood, cones, seeding. There 
is a big business for that.
    It is not good for the recreation, contrary to what you've 
heard. It is not supported by the local people. It is supported 
by other people from Seattle, and as you've heard now many 
times, it isn't as wild as it appears to be.
    And just elaborating on the salmon environment, when I made 
that claim, I spent 4 years on the Snohomish County Groundwater 
Committee concerned about salmon, the environment, and the 
water supply in the Snohomish River. The Snohomish River does 
not have any more water in it to supply for either farmers, 
nurserymen, or fish, and in order to--the committee, after 4 
years meeting, they decided that we had to manage the water 
different. We had to store, and we also had to control the 
devastating floods which occur when storms get into the--in the 
wintertime, they will cause landslides, and this is causing the 
habitat destruction of salmon.
    So this Wild Sky effort is contrary to what we can do, 
because it will lock up that area where there is potential for 
water storage and for water control. The lack of fire control 
would, as you know, just heard, there are many steep slopes. On 
steep slopes, where it's very hard to combat fire when it 
starts, we would--if we cannot control and go in there, this 
will cause landslides and again it will affect the habitat of 
fish and the environment generally.
    As far as the timber is concerned, and maybe, you probably 
know more, but we did find out that in the early seventies 
there was about 300 million board feet being sold and 
harvested. In the 1990's, it was about 80 to 100 million board 
feet, but 3 years ago there was nothing. It was zero, and that 
affects the local communities.
    Now, under the Clinton forest plan we were promised to have 
some cutting going on, and again, Wild Sky will deprive some of 
that to the local people in Snohomish County.
    As far as recreation is concerned, the U.S. Forest Service 
study shows that only 7 percent of the people who would 
normally visit the national forest will only visit the 
wilderness, and how we then can make the deduction that this 
will increase the recreation. I have submitted to you a 
calculation that this would cost us up to 600 or more jobs just 
in the recreational area.
    There is no local support. We have made that point. You 
have a letter from the Snohomish County Council which makes the 
same argument, and the reason you have different answers is 
that the proponents, they have a lot of people from Seattle 
which have been either--and they're very interested in it, but 
it's not the local people. We have not had any public hearing 
as we know it in Snohomish County. I was a planning 
commissioner for 2 years about 10 years ago, and we have it set 
up that a public hearing is something that's publicized, and 
everybody knows about it, et cetera.
    And then the last thing, it is not wild, and you have 
already heard testimony.
    In closing, I would urge you to reexamine the premises and 
the promises of Wild Sky, and I would urge you to read the 
facts of the Forest Service studies and letters, and by passing 
this bill out of committee, as it is written, you would do 
great injustice to the rural people of Snohomish County, so I 
urge you to look at the facts that this proposal also goes 
beyond the 1964 Wilderness Act, and eventually I ask you not to 
destroy hundreds of jobs in the rural Snohomish County.
    Thank you.
    [The prepared statement of Mr. Postema follows:]

  Prepared Statement of John Postema, Local Businessman, Snohomish, WA

    Honorable Members of the Committee, my name is John Postema and I 
have lived in Snohomish County, Washington, for the last 30 years. My 
wife Maryke and I, own a large garden center and retail nursery called 
Flower World. We are using almost 100 acres to grow plants trees and 
shrubs for the general public. Over 300,000 customers visit our nursery 
every year and we employ 150 people at peak times.
    About ten years ago, I was a Snohomish County Planning Commissioner 
and I also represented the Washington State Nursery Association for 
four years on the Snohomish County Groundwater committee. The following 
comments represent my views and interest, as well as my company's 
interest, and the interests of the horticultural and nursery industry, 
concerning the Wild Sky Wilderness Act being proposed by our Senator 
Murray and Congressman Larsen.
    For the last forty years, I have worked in the horticultural 
industry growing plants and trees for a better environment. I am not 
here to tell you that we should not have additional Wilderness areas. 
In fact, I voted and supported Representative Rick Larsen in his last 
election. What I am here to tell you, is that if Congress is to 
designate additional Wilderness in the County in which I live and work, 
it should be done the right way. In the case of Wild Sky, I wish to 
bring two important issues to your attention as a result of my 
discussions with many people in local communities of Snohomish County.
    In the first place there are two procedural problems with the Wild 
Sky proposal:

          1. wild sky is not supported by the local community

    Contrary to what proponents have told you, hardly anyone in 
Snohomish County knows anything about Wild Sky. We have contacted all 
of the cities around the Wild Sky area and none is supportive of the 
idea, mainly because they do not know anything about it. Aside from two 
informational meetings, there have been no public meetings, no 
hearings, no studies, and no input from the general public. Even though 
the City of Index organized a town hall meeting, and the Mayor supports 
the proposal, the rest of the City Council does not support Wild Sky.
    In my view this proposal is strictly a political move to please the 
Seattle-based environmental organizations.
    For example taking a look at the list of elected officials who are 
supporting Wild Sky according to the Wild Washington Campaign 
organization. All of these people are from different counties other 
than mine with the one exception previously noted. It should be pointed 
out that none of the elected officials in the area impacted by this 
proposal is on that list. Behind the scenes, it seems that outside 
interests have been making decisions for the people who will be 
affected by the Wild Sky proposal.
Elected Official Endorsements of Wild Washington's Local Efforts
State Representatives

          Fred Jarrett (R), District 41
          Aaron Reardon (D), District 38

Mayors

          Mark Asmundson, Mayor, City of Bellingham
          Bill Baarsma (D), Mayor, City of Tacoma
          Cary Bozeman (D), Mayor, City of Bremerton
          Kem Hunter, Mayor, Town of Index
          Greg Nickels, Mayor, City of Seattle

County Council Members

          Laurie Caskey-Schreiber, Whatcom County Council
          Seth Fleetwood, Whatcom County Council
          David Irons (R), King County Council
          Kathy Lambert (R), King County Council
          Rob McKenna (R), King County Council
          Dan McShane, Whatcom County Council
          Sharon Roy, Whatcom County Council

County Commissioners

          Rhea Y. Miller, San Juan County Commissioner
          John Roskelley (D), Spokane County Commissioner
          Steve Tharinger (D), Clallam County Commissioner
          Richard Wojt (D), Jefferson County Commissioner

    Of course, there are people in Snohomish County supporting Wild 
Sky, but by and large the local community does not know about it. If 
the Snohomish County Council is not supporting Wild Sky, the question 
has to rise why are we doing this?
    The list of organizations supporting Wild Sky is almost exclusively 
environmental groups. The Washington Wilderness Coalition has stated 
that their goal is to designate an additional 3 million acres of 
Federal lands in Washington State as Wilderness.

Organizational Endorsements of Wild Washington's Local Efforts

          1000 Friends of Washington
          Alpine Lakes Protection Society
          Association of Bainbridge Communities
          The Backpacking Club
          Betts Meadows Wetland Preserve
          Biodiversity Northwest
          Black Hills Audubon Society
          Bridgeport Way Community Association
          Cascade Chapter--Sierra Club
          The Cascadians Clear Creek Council
          Crystal Conservation Coalition
          Earth Ministry
          Eastern Environmental
          Federation of Western Outdoor Clubs
          Friends of the Loomis Forest
          Friends of Miller Peninsula State Park
          Friends of the Wild Sky
          Frosty Hollow Ecological Restoration
          Gifford Pinchot Task Force
          Gonzaga Environmental Organization
          Issaquah Alps Trails Club
          Kettle Range Conservation Group
          The Lands Council
          Leavenworth Adopt-A-Forest
          Lighthawk
          Monte Cristo Preservation Association
          The Mountaineers
          Mt. Baker Wilderness Association
          National Outdoor Leadership School (NOLS)--PNW
          Native Forest Network
          The Nature Conservancy--Washington Chapter
          North Cascades Conservation Council
          Northwest Ecosystem Alliance
          Olympic Park Associates
          Pacific Biodiversity Institute
          Pend Oreille Environmental Team
          PCC Farmland Fund
          Pilchuck Audubon Society
          Republicans for Environmental Protection
          Seattle Audubon Society
          Snohomish Group--Sierra Club
          Spokane Audubon Society
          Spokane Canoe and Kayak
          Spokane Mountaineers
          Tatoosh Group--Sierra Club
          Trout Unlimited--Washington Council
          Tulalip Tribe of Washington
          Upper Columbia River Group--Sierra Club
          Washington Association of Churches
          Washington Coalition of Citizens with disAbilities
          Washington Environmental Council
          Washington Trails Association
          Washington Wilderness Coalition
          Washington Wildlife Federation
          WashPIRG
          Whidbey Audubon Society
          Whidbey Environmental Action Network
          The Wilderness Land Trust
          The Wilderness Society
          Wild Steelhead Coalition
         2. portions of wild sky are not ``untrammeled by man''
    In testimony before this Committee last year, Ms. Abigail Kimbell, 
Associate Deputy Chief, National Forest System, testified that the 
agency had significant concerns with about 36,000 acres of land inside 
the Wild Sky proposal. This hearing revealed the second procedural 
problem: the fact that many of the areas inside Wild Sky are not 
suitable for Wilderness designation. This point was also noted last 
year by the House of Representatives Resource Committee Chairman who 
said: ``there are members of this committee that have strong concerns 
about this bill as it stands now. The bill includes lands that do not 
have wilderness character and do not meet the intent of the Wilderness 
Act of 1964.''
    The fact that non suitable lands may be designated as wilderness, 
which really are not ``wilderness'', should drive Congress to examine 
the far reaching consequences for the people of Snohomish County by 
conducting appropriate environmental and economic impact studies. When 
one looks at the map of Wild Sky it becomes obvious that this is not a 
large contiguous landmass, but really an artificial Wilderness creation 
of almost five pieces, dissected by rivers, roads and non-wilderness 
areas. It is this proliferation of so called wilderness pieces, that 
are causing the problems of the impact of unintended consequences. The 
Mt. Baker-Snoqualmie Forest Plan only identified 33,000 acres of the 
Wild Sky area as being suitable for wilderness. The consequences of 
declaring 70,000 acres of lowlands as eligible for Wilderness 
designation is far too complicated to contemplate without the benefit 
of extensive studies. Interestingly enough, it is precisely this type 
of procedure that is being followed in the current effort to create 
additional Wilderness as part of the I-90 Wilderness Study effort 
directed by Congress.
    The Wild Sky area as proposed is not ``untrammeled'' by man, and 
going forward with this proposal would set a dangerous precedent for 
future designations.
         SERIOUS NEGATIVE ECONOMIC IMPACTS ON LOCAL COMMUNITIES

Loss of 600 Jobs Possible in the Recreational Sector
    The U.S. Forest Service-Study, dated September 2001, evaluated the 
differences in spending habits of visitors to the Mt. Baker-Snoqualmie 
National Forest. Regarding visitors to Wilderness areas, the study 
clearly shows a potential negative financial impact on retail sales 
(see calculations below). Thirty million dollars less in sales in the 
recreational industry translates into a job loss of 600 employment 
opportunities. Proponents have forwarded misleading information of 
increased revenues for local communities based on nothing more than 
their opinions. The U.S. Forest Service Study speaks for itself.
    The 2001 Forest Service Study shows the following data:
    Visits outside existing Wilderness areas total 10.4 million. (page 
8) Visits to Wilderness areas total 700,000, which is less than 7 
percent of the total visits to the General Forest. Average total 
expenditure per year for outdoor recreation by the Mt. Baker-Snoqualmie 
Forest visitor is $1,656.74 of which $60.02 is spent within 50 miles of 
the Mt. Baker-Snoqualmie Forest on each visit. In comparison the 
Wilderness visitor spent $1,836.05 for outdoor recreation per year, and 
spends $27.54 within 50 miles of the Wilderness. Note that these 
figures do not include the expenditures for gas and oil which are $8.93 
for the regular Forest visitor and a controversial $148.56 for the 
Wilderness area visitor. It is very unlikely that a wilderness area 
visitor would drive around a wilderness area and use almost $150.00 in 
gas and oil per visit. (page 14 and 19). (Note: Wild Sky is being 
heralded as being only one hour drive from Seattle).
Potential Economic Impact on Tourism Income on Local Communities
    35 percent of the 2 million acres of Mt. Baker-Snoqualmie Forest is 
already Wilderness (13 different wildernesses totaling over 700,000 
acres). By adding another 100,000 acres of Wild Sky Wilderness (14%) we 
are adding approximately 100,000 wilderness visitors (14% of 700,000 
visits), who could spend $27.54 within 50 miles of the forest. That 
adds up to $2,754,000 to the local economy. However, by doing so, we 
have to subtract 100,000 acres from the 1,300,000 acres of national 
forest, which translates into approximately 8% reduction. It also 
diminishes the local expenditures by 800,000 less visitors (8% of 10 
million), which could have spent 800,000 x $60,00 = $48 million dollar 
less. The total impact is $48,000,000 less tourism dollars for the 
local communities, minus the increase of Wilderness visitors 
expenditures ($2,754,00) to the local community. Even if we add the 
controversial gas and oil expenditures per person of $148,56, we will 
still have a negative economic impact of over 30 million dollars.

Conclusion: A Potential Negative Impact of 30 Million Dollars to the 
Local Businesses

           ADDITIONAL JOB LOSSES DUE TO LOSS OF TIMBER SALES

    The Mt. Baker-Snoqualmie National forest covers almost 2 million 
acres, of which over 721,000 acres (35%) are already designated as 
Wilderness. Under the Clinton Northwest Forest Plan only 53,000 acres 
(2.5% of total) of land on the Forest were to have been allocated to 
``matrix'' and be made available for future commercial timber harvest 
under multiple-use management. The Forest Service estimates that 
approximately 11% of these matrix lands are located within the current 
Wild Sky proposal. If these lands become Wilderness, the agency now 
estimates future timber sale output will be reduced another 13% with 
attendant losses in employment and associated drop in ``25% payments'' 
to my county for schools and roads.
    Additional losses of timber sales are adding insult to injury to 
the local forest products industry and timber dependent communities. 
The Mt. Baker-Snoqualmie timber sales information shows that in the 
early 1970's the timber sales were fluctuating between 300 to 350 MMBF 
per year enough to support 5 sawmills. In 1990 this was down to 108 
MMBF. In 2001 it was zero and in 2002 it was only 0.2 MMBF; barely 
enough to support one single sawmill shift.

            WIPING OUT THE FOREST PRODUCT GATHERING INDUSTRY

    Experts estimate that the business of gathering salal, 
huckleberries, mosses, pine cones, evergreen boughs, bark, wild 
grasses, onions, roots and herbs is a 500 million dollar business in 
the Pacific North West. Federal agencies estimate that there are at 
least 10,000 legal harvesters active in the region's forest. Twice as 
many may be working without a permit. Harvesters took more than 10,500 
tons of pine, cedar and fir boughs in 2001. It is not known how much of 
this comes from the potential Wild Sky areas, but it is a fact that the 
Nursery and Landscape industry buys a lot of forest grown live Vine 
Maples, Alpine Fir, Douglas Fir, Mountain Hemlock and Aspen (up to 12 
feet in size) in the Spring and for Christmas trees in the Fall. 
Firewood collection and seed gathering are other sources of employment.
    Sources of information: Non Timber Forest Products, http://
www.ifcae.org/ntfp/ U.S Forest Service, http://www.fs.fed.us/ Oregon 
Department of Forestry, http://www.odf.state.or.us/ Washington 
Department of natural resources, http://www.wa.gov/dnr/ Simpson 
Resource C, http://www.simpson.com/
    On page 16 of the Mt. Baker- Snoqualmie National Visitors 
Monitoring report you will find that there are as many fishermen as 
there are forest product gathering people in these forests. This 
illustrates the potential magnitude of impact of denying the use of 
forest product gathering to the communities. Since we are talking about 
substantial revenues, it would be very imprudent to ignore these data 
without further studies.

            FUTURE IMPACT ON WATER SUPPLY AND WATER STORAGE

    Wild Sky would severely limit Snohomish County from managing its 
water resources. Currently the Snohomish River is short on water during 
the summer and no additional water can be made available to agriculture 
unless more storage is provided. These were the conclusions from the 
Snohomish County Groundwater Committee. Topographical maps show 
potential storage areas in the Wild Sky area or in areas immediately 
adjacent to it.
    The law will only allow such a water project if the President of 
the United States permits such a project and only if he finds that such 
use ``will better serve the interest of the United States and the 
people thereof than will its denial''.
    We believe that there are potential sites for water control, which 
have to be examined. The current ESA protection of listed fish species 
in Snohomish County is focussing on habitat improvement. Low stream 
flows are a major concern as well as the unmitigated impact of erosion 
caused by floods to salmon populations. It is becoming quite clear that 
better management of the water systems is a key component to the 
survival of these endangered species. This wilderness proposal goes the 
other way. It is highly debatable if Old Growth Trees add or mitigate 
the high flow of rivers. The most damaging floods in Snohomish County 
have always been associated with the fast melting of snow in the lower 
elevations. Interestingly though, the biggest flood in Snohomish County 
occurred before 1900, when no logging had taken place in the Snohomish 
river watershed! The point being that Congress should not let Wild Sky 
proceed without first addressing these important water issues, 
especially since this area is located in lower elevations, unlike other 
wilderness areas in Washington.

                              OTHER ISSUES

    The following issues are of concern to the growing communities of 
people who are opposing ``Wild Sky":

Issue 1.  HUNTING
    Claim that hunting becomes a problem, when no roads are allowed.
    Discussion: Hunting is not allowed in national park wilderness 
areas, but it is allowed in non-park wilderness areas. For practical 
reasons it becomes awfully hard to hunt larger animals away from roads.

Issue 2.  MINING
    Claim: ``That for all practical purposes there will be no mining . 
. . within such an area''.
    Discussion: We looked up the Wild Sky bill and the 1964 Wilderness 
Act. The Act stipulates that mining claims after September 1964 and 
January 1984 are subject to all kinds of restrictions and that all such 
claims are subject to restrictions prescribed by the Secretary of 
Agriculture. These restrictions are based on the concept to ``protect 
the Wilderness character of the land''. In reality, there will be no 
mining anymore, if there are no roads for access.

Issue 3.  SEAPLANES
    Claim: Seaplanes may not be allowed on Lake Isabel.
    Discussion: The Wild Sky proposal, as introduced, states under 
section 4(d): ``FLOAT PLANE ACCESS as provided by section 4(d)(1) of 
the Wilderness Act (16 U.S.C.) 1133 (d)(1), the use of float planes on 
Lake Isabel, where such use has already become established, shall be 
permitted to continue subject to such reasonable restrictions as the 
Secretary of Agriculture determines desirable''.
    However, the phrase ``reasonable restrictions'' is not being used 
in 1133(d)(1). It states ``may be permitted to continue subject to such 
restrictions as the Secretary of Agriculture deems desirable''. The 
implications of that sentence are that the secretary is not bound by 
``reasonable'' consideration, but by other considerations which are 
spelled out by the Wilderness Act i.e.: ``shall be devoted to the 
public purpose of recreational, scenic, scientific, educational, 
conservation, and historical use.''
    This unfortunate language does not at all secure access for 
existing floatplane use, as future flights would be subject to the 
changing winds of political appointees. In addition, this language 
could be subject to future court challenges.

Issue 4.  DEFINITION OF WILDERNESS
    Claim: A lot of areas in the proposed Wild Sky do not meet the 
definition of Wilderness. Other people claim that Wilderness is ``in 
the eye of the beholder'', and that Congress can do whatever it wants 
to do.
    Discussion: America is still a land bound by law. Law binds its 
people. If Congress wishes to change the definition of Wilderness, it 
should explicitly do so by amending the Wilderness Act of 1964 rather 
than creating a defacto change as clearly the Wild Sky supporters want 
to happen. The Wilderness Act of 1964 as passed by Congress explicitly 
states that the definition of Wilderness is land ``retaining its 
primeval character and influence, without permanent improvements'' and 
which: `` generally appears to have been affected primarily by the 
forces of nature, with the imprint of man's work substantially 
unnoticeable''. The argument, that other wildernesses do not comply 
with these requirements either, is not a viable argument principally 
because there are different standards between wilderness areas (the 
East settled earlier than the West). Two wrongs do not make it right.
    Furthermore, the Forest Service testified that 36,000 acres 
probably should not be included, as well as another 13,000 acres which 
was identified under the North West Forest Plan, for commercial timber. 
The Mt. Baker-Snoqualmie Forest Plan had identified only 33,000 acres 
of land as being suitable for wilderness inside Wild Sky. And then 
there is the small issue of at least 7 bridges, 2 dams and at least 30 
miles of inventoried roads (many with high risk culverts) right in the 
middle of the Wild Sky proposal.

Issue 5.  STRATEGY OF DECEPTION OF INCLUDING NON WILDERNESS AREAS
    We object to the continuing strategy of declaring multiple use 
public lands off limits for a privileged few, when they are not really 
wilderness areas. Other people think that is not a real problem, 
because it has been done before.
    Discussion: Special interest groups are making an effort all over 
the Pacific Northwest to use that strategy. Look at the I-90 
Wilderness, the Kettle Range in Eastern Washington, the Dark Divide, 
the South Quinault Ridge on the Olympic Peninsula and the Pratt River 
near North Bend. As pointed out before, just because it has been done 
before does not justify Wild Sky.

Issue 6.  CLOSING OF 30 MILES OF ROADS
    Claim: Thirty miles of roads that either are in good or bad shape 
prove the point that this is not a wilderness and that the cost and 
impact of decommissioning such roads should necessitate appropriate 
environmental analysis.
    Discussion: The argument that only a disputable 8.6 miles of roads 
are driveable does not take away the fact that many roads have 
honeycombed the rest of the area for different purposes. We do not 
think that you can make the case that this area is ``untrammeled by 
man'', a requirement for wilderness designation. We have had reports 
from landowners in the area about landslides caused by the 
decommissioning of roads. Furthermore, studies have shown that 
decommissioning of roads is more expensive than constructing them. In a 
June 2002 letter to Congresswoman Dunn, the Mt. Baker-Snoqualmie Forest 
Supervisor estimated that the cost of converting only 12 miles of road 
to wilderness-suitable trails was $6.5 million. Therefore, an 
environmental impact study is absolutely necessary. It is amazing to me 
that all of a sudden the environmental groups do not see the need and 
wisdom of such a basic concept.

Issue 7.  ACCESS FOR DISABLED AMERICANS
    Claim: The concept of limited access to Wilderness areas flies in 
the face of the American Disability Act.
    Discussion: Logic indicates that the wilderness concept denies 
practical access to disabled people. If somebody can explain how non-
motorized wheel chairs will be able to access wilderness trails, we may 
change our view. There is no doubt in my mind that the great majority 
of Americans with disabilities value wilderness areas, but when it 
comes to access; it does not make sense. Forest Service data clearly 
shows that most wilderness users are young, and that the profile of 
wilderness users does not at all match the diversity of the American 
public including our local communities.

Issue 8.  FIRE CONTROL
    We question the impact of a different fire control policy in a 
Wilderness area than in non-wilderness areas. Others claim that man 
made fires are less of a problem in wilderness areas and therefor 
Wilderness is better.
    Discussion: With the experience of the last couple of years in 
mind, it is safe to say that fuel build up in the Forest is one of the 
biggest causes for large fires. Forest researchers now know that 
catastrophic 'stand replacement' fires occur on about a 300 year cycle 
in Washington's western Cascade range. The claim of the benefits of 
wilderness unfortunately does not extend to naturally caused fires, 
which are by far more occurring. Without getting into an argument of 
fighting fires or not, the problem exists that large areas of Wild Sky 
already have been managed by man and therefore the entire eco-system 
has changed. It is our opinion that more likely than not the ``hands 
off'' fire policy in wilderness areas will result in unacceptable 
losses in a Wild Sky wilderness and resulting negative impacts on water 
quality and wildlife. The whole Wild Sky proposal consists out of 
almost 5 separated sections, intersected by rivers, public and private 
land. The reason for this completely artificial segmentation lies in 
the very reason that Wild Sky is only a partial wilderness. Ignoring 
these facts will result in catastrophically fire losses to surrounding 
lands. Therefor these issues have to be addressed.

Issue 9.  DISEASE CONTROL
    We claim that this issue could have a substantial impact on 
surrounding areas including private and state lands. Therefore, this 
has to be taken in consideration. Others claim that a proposed 
wilderness area like ``Wild Sky'' can take care of most disease 
problems in a better way than a managed forest, and that it does not 
make a difference because commercial forest are treated the same way.
    Discussion: First off, one of the main difference with commercial 
forest is the fact that disease and fire fighting is not subject to 
``conditions, the Secretary deems desirable''. In addition the problem 
with Wild Sky is the fact that it is separated in 5 pieces. Because of 
that, the impact of a different disease control in Wild Sky can cause 
insurmountable disease problems for managed areas adjacent to it. Many 
forest diseases are fungi diseases, which can spread through contact 
and other means. One of the newer ``Sudden Oak Death'' (SOD) fungus 
disease will also attack Douglas Firs, Rhododendrons and other nursery 
stock. A newly discovered non-native pathogen Phytophthora ramorum, 
discovered in Oregon has the Xmas tree industry as well the timber and 
nursery industry on edge. Any contaminated trees have to be destroyed 
by fire. Having the potential of untreated areas in a wilderness area, 
next to and among managed forest, is asking for trouble.

Issue 10.  TIMBER HARVEST
    We maintain that the economic impact of a no logging policy should 
be analyzed. Others claim that there are very little logging 
possibilities in the Wild Sky area anyway and that it would not make 
any difference in the supply of timber.
    Discussion: I am not an expert on the marketing of timber, but I do 
know that the American Forest Resource Council, which includes most of 
the local sawmills in Snohomish County, recently reported that their 
member companies want to have the matrix lands taken out of the ``Wild 
Sky'' proposal, so as to help try and achieve the timber targets, that 
were promised under the Clinton's Northwest Forest Plan. Presently, 
there is vastly more timber that dies each year in the Mt. Baker-
Snoqualmie National Forest than is being harvested.

Issue 11.  NEED OF AN OPEN AND PUBLIC PROCESS AND AN ENVIRONMENTAL 
        IMPACT STUDY
    We claim that ``Wild Sky'' has progressed out of sight, off the 
radar screen and does not have the backing of the local community. 
Furthermore an Economic and Environmental Impact Study is necessary. 
Others claim it is not necessary since it is more advantageous to have 
a wilderness there.
    Discussion: After contacting the cities of Skykomish, Index, 
GoldBar, Sultan, Monroe, Snohomish, Darrington and Arlington, we found 
that hardly anyone knows anything about this plan. None of above cities 
organized a formal public meeting with the exception of a town hall 
meeting in Index. None of the city councils, including the Index 
council, support the Wild Sky proposal. The Snohomish County Council is 
not in favor of this plan and questions the authority of the rezoning 
of over 100,000 acres in Snohomish County without the knowledge of the 
council.
    It is even more amazing that the Snohomish County Council has not 
been involved, when Representative Rick Larsen was a Snohomish County 
Councilman before he became a member of the House. Since Rick Larsen's 
own party has been in control of the County until January 2002, there 
should have been no reason not to ask the support of the Snohomish 
County Council. The only reason for this lack of support can be found 
in the fact that this ``Wild Sky'' proposal is either unsound or is 
unknown. In either case the solution is an open, honest and public 
process based on information from environmental and economic impact 
studies.
    There is no reason why there should not be a formal EIS as is being 
used in the I-90 Alpine Lake Wilderness area.
    I think it should be realized that such a far-reaching proposal has 
an impact much larger than the town of Index. This proposal takes away 
the rights from all Snohomish County citizens. Therefor they all should 
have a chance to know more about it.
    After reviewing this discussion, there are four big issues:

          1. Why are the People of Snohomish County not entitled to an 
        open and public process? If ``Wild Sky'' is such a good thing 
        for Snohomish County, why is it not done the correct way?
          2. ``Wild Sky'' is not as wild as it appears. We are changing 
        the law by doing so, with a lot of unintended consequences?
          3. How many jobs will Snohomish County lose? How much will it 
        cost and who is going to pay for it? The people are entitled to 
        scientific, rational answers on all questions. No opinions!
          4. And finally the question has to be answered: ``Why are we 
        doing this and who will benefit ?''

    Until such actions have been taken, the Wild Sky wilderness 
proposal should not go forward.

    Senator Craig. Mr. Postema, thank you very much. Now let me 
turn to Ed Husmann from the Washington Farm Bureau.
    Welcome, Ed.

 STATEMENT OF ED HUSMANN, MEMBER, SNOHOMISH COUNTY WASHINGTON 
                          FARM BUREAU

    Mr. Husmann. Good morning, Mr. Chairman, members of the 
subcommittee and ladies and gentlemen. Thank you for the 
opportunity to appear before you today. I'm Ed Husmann. I've 
lived in the Sultan, Washington area for about the past 25 
years. Sultan is located a few miles west of the Wild Sky area. 
I'm here today on behalf of myself and the Snohomish County 
Farm Bureau and a great many others whose letters and 
signatures I have brought with me today.
    With the committee's permission, I would like to enter into 
the record these petitions and letters.*
---------------------------------------------------------------------------
    * The referenced material has been retained in subcommittee files.
---------------------------------------------------------------------------
    Senator Craig. They will become a part of the committee 
record.
    Mr. Husmann. Thank you, and my testimony, of course.
    I have with me--and included in these letters, I should 
point out that some are from elected officials, specifically 
State Senator Val Stevens, State Representative Dan 
Kristiansen, State Representative Kirk Pearson. These are the 
State officials that, this is their area, Wild Sky is contained 
in their legislative districts.
    I feel that it is important for you to know that I and my 
family, including my grandchildren, some of whom of which are 
adults already, and I really don't want that to go in the 
record maybe, but we've hiked, back-packed, mountain-biked, 
swam both lake and rivers, mountain biked, 4-wheel-driven, 
that's my grandson, and just driven this area over these years.
    I am and have been a member of REI for 30 years. My wife 
and I are members of the Mountaineers, the Washington Trails 
Association--this coming Saturday is National Trails Day, and 
my wife and I will be up on the Heather Lake Trail doing trail 
maintenance in support of WTA. However, I'm opposed to this 
Wild Sky issue, and that's why I'm here today.
    S. 391, the Wild Sky Wilderness Act of 2003, does not 
increase the recreational opportunities for the people of my 
State. This proposal severely limits the type of activities 
enjoyed in this area at this time. In fact, it is my belief 
that if this passed into law, it will actually make the 
freedoms we currently enjoy in this area a criminal act. I 
believe that the letters and petitions that I have submitted 
here today clearly demonstrate that an open public process in 
regard to the Wild Sky issue was not conducted. Even our own 
Snohomish County Council states that they were not consulted.
    This is a controversial issue. Many people and elected 
officials state that they have been left out of the process. To 
the best of my knowledge, no one has ever done an economic 
study or reviewed the potential impact of the Wild Sky proposal 
on our county. Our Snohomish County Council clearly views S. 
391 as a serious adverse impact to Snohomish County.
    It appears that many of the promises to the people 
contained in this proposal cannot be kept, as noted by Mr. 
Phipps' letter, the Forest Supervisor. The cost, as outlined in 
Mr. Phipps' letter for trail-building and converting into 16 
roads is enormous, given the cost of removal and probably 
restoration of 90 or more culverts, make this proposal sheer 
financial lunacy.
    This area does not comply, by definition or intent, to 
wilderness as stipulated in the 1964 Wilderness Act. This area 
is not suitable or desirable for wilderness designation. 
Support for Wild Sky has been greatly, if not deceptively 
overstated, and it's fraught with technical, legal, and safety 
discrepancies.
    I find the 1964 Wilderness Act statement of policy in 
section 2, that the wilderness are established for use and 
enjoyment of the American people, people are the only species 
mentioned in that section. To maintain, enhance ecosystems, 
habitat, fish-spawning areas are not mentioned and not part of 
the purpose of that 1964 act. In fact, as stated in that act, 
quote, man himself is a visitor who does not remain. To me, 
this means that man, by law, is not to remain and tinker with 
the natural character of this area.
    There are no threats to the recreational use in this area 
at this time. In all that I've seen and heard of the Wild Sky, 
there are no compelling, in fact, no reasons at all to proceed 
with the Wild Sky Wilderness Act.
    Again, thank you for allowing me to speak my peace not only 
for me, but those who have entrusted me to bring this message 
to you. Thank you.
    [The prepared statement of Mr. Husmann follows:]

         Prepared Statement of Ed Husmann, Local Businessman, 
                    Snohomish Washington Farm Bureau

    Good morning, Mr. Chairman, members, Ladies and Gentlemen. My name 
is Ed Husmann and I live in Sultan Washington, which is located a few 
miles west of the proposed Wild Sky area. I am here today on behalf of 
myself, the Snohomish County Farm Bureau and a great many others whose 
letters and signatures I have brought with me today. These individuals, 
and groups, have asked me to present to this committee with your 
consent, their letters and petitions, to be entered into the record in 
regard to and in opposition of S. 391, the Wild Sky Wilderness Act of 
2003. I would also like to enter into the record other documents that I 
have brought with me in support of the Snohomish County Farm bureau's 
our opposing position on this legislation.
    I believe that it is relevant for you to know that I have lived 
next to ``Wild Sky'' for about 25 years and I know the area well. 
Furthermore, my wife, children, grand children, and myself have all 
participated in both motorized and non-motorized recreational 
activities in the proposed ``Wild Sky'' area over these years. I have 
day hiked, backpacked, off road motorcycled and mountain biked this 
area. I have backpacked into Lake Isabel and my children and I have 
flown into Isabel for a picnic on a floatplane. We enjoy these diverse 
activities and do not want to change any recreational opportunities 
afforded us, or for that matter, anyone, in this area. We only hope 
that the people using this, or any area, just use common sense, are 
polite, and considerate of both the land and the others in the area. 
Unfortunately, these qualities cannot be legislated.
    I would also like to point out that the list of organizations in 
support of the ``Wild Sky'' (enclosure #1) may not, necessarily reflect 
the views of its members or patrons. The list published on the Wild 
Washington Campaign website lists, among others, REI (Recreational 
Equipment Inc.), The Mountaineers and WTA (Washington Trails 
Association). I have been a member of REI for more than 30years and 
spent an enormous amount of money at their stores and through their 
catalogue. I can tell you that my wife would rather shop at REI than 
Nordstrom's and we really do not appreciate REI spending ``our'' 
dividends on lobbying ``Wild Sky'' into existence. We also belong to 
the Mountaineers and the WTA (Washington Trails Association). As you 
may know, June 7th is National Trails Day. On this day my wife and I 
will be working on the Heather Lake trail, located in Snohomish County 
as part of a WTA organized event.
    I read an article published in the Seattle Post-Intelligencer, Oct. 
3, 2002 (enclosure #2) about an area called Eagle Lake. This article is 
aimed at garnering support for the ``Wild Sky'' proposal. What is 
missing in this article is a discussion of the two routes of getting 
there. People who know of this area understand the meaning of ``the 
hard way'' and ``the easy way.'' You had better be in good shape and 
not trying to bring the family traveling the hard route. I'm an 
experienced Dad, and I now understand that my pack is considerably 
heavier when my children are along. The hard route will, undoubtedly, 
survive the future Wilderness designation. The easy route, which I 
take, is located by driving in on a logging road to a trail that is 
much easier but still enough of a hike to make you appreciate the lake 
upon arrival.
    This route will most likely not survive the Wild Sky process. 
Practically speaking, passing Wild Sky means I will no longer be able 
to take my grand children, or they take me, to Eagle Lake. Further in 
the article, one of the hikers lamented, ``one of the great tragedies 
of the world is that this is not (designated) wilderness.'' 
Unfortunately, wisdom comes late in life and youthful vigor too early. 
Where he was, at that time standing, was wilderness, it was years ago 
for long forgotten hikers and will be there for future outdoors types. 
There is no current threat to alter this, it is not broken, and I am 
convinced that tinkering with it insures that it will be. One 
additional note, one of the individuals quoted in this article is very 
much not in support of this proposal, in fact, he created and has 
circulated a petition (enclosure 3) in opposition to the ``Wild Sky'' 
proposal and I believe that you will also find that the Trailblazers, 
referred to in this article, have not endorsed the ``Wild Sky'' 
proposal.
    In terms of this proposed Act itself, I still do not know--why Wild 
Sky? This area is not wilderness to start with, in fact, far from it. 
``Wilderness'' is concisely defined in the 1964 Act and unless repealed 
will remain the law for administering and adopting new Wilderness 
areas. Although it appears that much of the 1964 Act language is used 
in this proposal, the objective of this legislation seems to proceed in 
an entirely new direction. While the 1964 Act preserves areas of 
wilderness, this legislation is actually aimed at creating wilderness 
where one does not currently exist. If the point is to provide access 
to scenic points, or build trails, or save the trees, it does not take 
designating it a wilderness area to do so.
    The Federal government already manages this land; it takes Federal 
permission to cut a tree. If this is the concern, then issue a 
bulletin--Do Not Cut the Tree! But, using a wilderness designation to 
protect trees, fish habitat, spawning areas to ensure the health of 
salmon or steelhead is not appropriate, and may actually go against the 
law. The 1964 Wilderness Act was enacted for people, not fish or bears 
or goats or trees or heather, it was enacted to preserve a spot of 
wilderness for the enjoyment of present and future generations of 
people, the only species mentioned in Sec. 2. (Wilderness System 
Established Statement of Policy). It also states very clearly in, the 
Wilderness Act (16 U.S.C. 1121) that these wilderness areas ``shall be 
administered for the use and enjoyment of the American people in such 
manner as will leave them unimpaired for future use and enjoyment as 
wilderness.''
    I believe that last year this committee heard the testimony of 
Abigail Kimbell, Associate Deputy Chief, National Forest System; July 
30 (enclosure #4). Although her testimony is not in opposition, she 
clearly identifies many serious problems with the ``Wild Sky'' 
proposal. In brief she points out that about 1/3 of this proposed area 
is unsuitable for Wilderness Designation. Being more specific, the 
local Forest supervisor stated in a letter to Congresswoman Dunn 
(enclosure #4) that ``including these areas would be a change in the 
standard used by Congress in considering wilderness suitability.'' I 
think it is fair to say that staffs of the originators of these bills 
have not fully engaged groups that are opposed or have legitimate 
concerns about the public process or lack thereof. This supports my 
observation in that no one in this valley seems to know any thing about 
this proposal, or its location and, we are into the second year for 
this issue. Most of ``Wild Sky'' was not formally studied for its 
wilderness potential. Lands proposed for Wilderness must include formal 
public involvement. The ``Wild Sky'' area is not threatened . . . why 
Wilderness then? Proponents of ``Wild Sky'' have failed to show a 
demonstrated need for Wilderness. As also noted on the Wild Washington 
Campaign website (www.wildwashington.org) as recently as last year, 
``the publicly stated goal of the Wild Washington Campaign is to 
designate an additional 3 million acres of Wilderness in Washington 
State'', begs the question, is this proposal a capricious, un-
thoughtful attempt to fulfill the goals of a vocal minority? Again--Why 
Wild Sky?
    The cost of this project has not been discussed to my knowledge. As 
Mr. Phipps points out (enclosure #5) in question 2, the forest service 
has not built new trails in this area because of the rugged terrain. He 
further states that if designated wilderness ``it is likely that the 
Forest would adopt the position that no new trails should be built 
inside the Wild sky.'' In the Wild Sky proposal there is a lot of talk 
of a trail system, but no mention of where the money is to come from. 
Mr. Phipps puts the cost of trails in this area at $100,000 per mile. 
This is serious money when considering the construction of a whole 
system of trails. He puts the cost of converting the 12 miles of road 
to trail at $6.5 million, another serious consideration that has not 
been discussed. I understand that there may be more than 90 culverts to 
be removed and fish passage restored. What kind of dollar figure do we 
have for this? There are many costs to this proposal that simply have 
not been addressed. This is pure fiscal irresponsibility at its' 
finest.
    Accordingly, Representative Larsen has encouraged an open, public 
process where all interested parties can offer input, ask questions, 
and have their concerns addressed (enclosure #6). As best we can count, 
there have been 3 public meetings. I do not know what occurred in 
Seattle but I have talked to individuals who attended the meetings in 
Monroe and Index. I'm told that the Monroe meeting were tables with 
handouts, not a forum for discussion and debate. At the Index meeting, 
apparently many people were not allowed or able to get into the 
building to offer their opinions (enclosure #7).
    Representative Larsen states (enclosure #6) that there is a 50:1 
ratio in favor of wilderness protection. One assumes quite naturally 
that he is talking about ``Wild Sky.'' In one day of gathering 
signatures in Index it appears that it may be 50:1 against ``Wild 
Sky.'' Of course he did not say 50:1 for Wild Sky did he, the ole lead 
them to assume trick. He further states that he has received positive 
feedback from local elected officials, local business leaders and local 
recreation groups. Notice that he does not state that this positive 
feedback concerns ``Wild Sky'' specifically.
    I guess if you want the real story you will have to read carefully. 
Maybe ask for a few thousand of those ``thousands of letters on the 
proposed Wild Skykomish Wilderness area.'' Note that no actual claim is 
made that these letters support Wild Sky, but the implication is there. 
The letters and petitions that I have brought with me today speak for 
themselves. I drew up the ``just say NO Wild Sky'' petition just last 
Thursday. I gave them to four people, one gas station and our local 
bakery to see if anyone would sign. That's about two days with very 
little effort out here in the sticks. This cry for ``Wild Sky'' looks 
like a hoax from here.
    The ``Wild Sky'' proposal received a big NO from the Snohomish 
County Farm Bureau as well as the Washington State Farm Bureau Board of 
Directors (enclosure #8). Actually the vote was unanimous and I believe 
all of the Washington State county farm bureaus have passed resolutions 
rejecting ``Wild Sky.'' The 2003 policies of the American Farm Bureau 
Federation (enclosure #9) oppose expansion of wilderness areas, they 
also call for legislation that would allow local County governments to 
ratify or reject any proposed wilderness area. It is evident that the 
farming community resists designation changes to wilderness at all 
levels. In addition, the Snohomish County Council has stated (Enclosure 
#11) that this bill S. 391 ``posses' serious adverse impacts on 
Snohomish County, Washington.
    I'm not sure why the Federal government wants to litigate with the 
people who have mineral resource claims that will be affected by this 
proposal. Wild Sky is inconsistent with mining operations and the 
necessary access. Ms. Webster notified the House committee last year 
(enclosure #10) that there was a potential conflict, and it appears 
that she and her attorney are prepared to litigate the issue. There are 
other claims that have this same potential. The litigation over these 
claims is unnecessary and unwarranted. The cost to the taxpayers to try 
these cases is certainly avoidable.
    In summary, this area is just not suitable or desirable for 
Wilderness designation. Support for this proposal has been greatly 
overstated and is fraught with technical and legal problems. The letter 
from the Finley's is very disturbing, and points directly to serious 
concerns relating to way support for ``Wild Sky'' has been carried out. 
Many people, including our local elected officials, are completely 
ignorant of the proposal, its implications, even its location. It 
appears that a large number of those who are knowledgeable, reject 
``Wild Sky.'' No one seems to believe that this will be good for the 
local economy; in any case, there are no studies to support this 
statement either way.
    The Forest Service is certainly not keen on the idea and clearly 
states that the purported new trail system, one of the key promises by 
the proponents, will very likely not happen. The Farmers and Cattleman, 
who are traditional stewards of the land, do not support ``Wild Sky.'' 
Certainly there is now serious doubt as to the support for ``Wild Sky'' 
by the people in the town of Index itself, who supposedly, 
overwhelmingly, support this issue. There are issues of potential 
litigation, right of way problems, private property issues and safety 
issues. In all that I have seen and heard of ``Wild Sky'' there are no 
compelling reasons, in fact no reason at all, to proceed with this 
legislation. The Wild Sky Wilderness Act of 2003, S. 391 will make 
freedoms we currently enjoy in this area a criminal act. Please, just 
say NO to ``Wild Sky.''

    Senator Craig. Well, Ed, thank you very much. To all of 
you, thank you for your testimony. I have several questions I 
want to ask, and I'm sure Senator Cantwell has, too, but we do 
thank you for taking the time to be here this morning.
    Mike, you've heard from two other--well, one other person 
who lives in the area and another person who expresses his 
concern about the proposal and the way it was developed. To 
your knowledge, were there any hearings or public meetings in 
Snohomish County dealing with this issue that you attended?
    Mr. Town. Yes, sir, there was, and I actually attended both 
of them. In July 2001, a town meeting was held in the city of 
Index, which is about a mile outside of the proposed area, and 
then later that summer--I can't remember the exact date, but 
Senator Murray and Congressman Larsen hosted a public meeting 
in Monroe, which is the largest city down-valley from the 
proposal, and then there was a public meeting in September that 
was in Seattle, also held by Senator Murray and Congressman 
Larsen.
    The Energy and Natural Resources Committee of course had a 
hearing on June 30, 2002, and that was also, of course, 
addressing this issue.
    Senator Craig. Was testimony taken at those meetings that 
were in--in other words, was the input of local citizens taken 
at that time by testimony?
    Mr. Town. I don't think there was any written testimony if 
that's what you're asking, Senator Craig, no. There was more of 
an informal way of how people were allowed to speak about their 
concerns on the issue.
    Senator Craig. Senator Murray, Senator Cantwell and myself 
discussed in part the language of the 1964 act, or the intent 
and the definition of wilderness, and you've heard that 
expressed in general ways, and some specific ways here this 
morning. I understand there is a fair amount of this, I don't 
know what the total acreage is, land that would qualify because 
of past roads as a national recreation area. Some would argue 
that it might fit better as a national recreation area than 
under wilderness designation. Have you ever looked at that, or 
reacted to that proposal?
    Mr. Town. In the early days of the Wild Sky proposal there 
were discussions about including NRA status for certain areas 
in the proposal. Specifically, they were more about areas that 
were used by snowmobilers and other motorized people. These 
included areas like, for example, Windy Ridge, and areas south 
of Highway 2. Those areas were deleted from the new proposal of 
the bill, predominantly because of the use by those user 
groups, so the discussion on national recreation status for 
those areas has not continued as far as I know.
    In terms of some of the roads that are in the Wild Sky that 
are going to be within the proposal, I'm not aware of any 
particular discussion of including those areas as an NRA. 
They're pretty dispersed. They're all over the place. I think 
there would be some issues with drawing logical boundaries in 
terms of that.
    Senator Craig. I know one of the discussions we're 
currently having is that in certain areas, certainly wilderness 
designation fits. There are other areas where we're looking at 
the potential of a new designation of back country recreation 
that would have certain limitations to it, would not be a 
national recreation area, might better fit certain categories.
    Mr. Heck----
    Mr. Heckert. Heckert.
    Senator Craig. Heckert, thank you. I'm getting the emphasis 
wrong. The Forest Service letter to Representative Dunn last 
summer speaks to 2,500 acres of private land that will be 
landlocked within the wilderness if this legislation passes. 
Our current laws guarantee that such landowners have the right 
to reasonable access. Would you oppose including language in 
the bill that would require rights of way to establish and 
include vehicle access?
    Mr. Heckert. Throughout the wilderness area, or just to 
specific----
    Senator Craig. No, to the designated--to the private land, 
the fee land that is within.
    Mr. Heckert. I've never considered that situation. We'd 
certainly look at it. I'm not prepared to say yes or no right 
now based on the generality of the proposal, but it's certainly 
something we'd consider.
    Senator Craig. Okay, because it is our understanding that 
there is a parcel of 2,500 acres--oh, several parcels, an 
accumulative, a total private acreage of about 2,500 within the 
boundary, the proposed boundary at this time.
    Given the testimony you've heard today, have you ever 
considered, or would you consider national recreation status or 
back country recreation designation for any of this land that's 
under consideration within the proposed boundaries of the 
legislation now?
    Mr. Heckert. I don't know the specifics of the designation 
of back country recreation, but I do know that----
    Senator Craig. It's yet to be defined.
    [Laughter.]
    Senator Craig. It is a current discussion that many of us 
have. It would be more restrictive, but it would not deny the 
use of some motorized recreational vehicles. It would obviously 
be less restrictive than wilderness, but that's about as far as 
I can go, because it's a conceptual thing now that many people 
who look at wilderness consideration--but there are certain 
lands that are recreated on now by motorized vehicles, but yet 
it would be desirable that they not be logged or in any other 
way utilized--have considered that. That's why I'm asking you 
the question.
    Mr. Heckert. We haven't discussed that, but we have 
discussed that we are very comfortable with the wilderness 
designation, so we're not entering into this as a fall-back 
position. It's something, we've looked at the wilderness 
designation, the restrictions on wilderness utilization, and we 
are entirely comfortable with those, so that's the best way I 
could answer that, I guess.
    Senator Craig. Thank you. I appreciate that. That's not an 
off-the-wall question, but obviously one that probably isn't 
under active consideration in Snohomish County, at least as it 
relates to that kind of a new designation.
    Mr. Postema, in your testimony you point out that most of 
the support for this bill comes from the Seattle metro area, 
but that there's little local support. Further, you suggest 
that the local people have not spoken out because they didn't 
know about the proposal. Now, it is my perception that this 
story was heavily reported last year after our first hearing 
and then again in the fall. How is it that with all of the 
reporting this has not become, or you're not aware of the issue 
per se, or the development of the proposal?
    Mr. Postema. As Mr. Town said, no public hearing--public 
meeting is a different thing than public hearing, where people 
have got input. The newspapers he is referring to are Seattle 
newspapers, mainly. Later on some reports have surfaced in the 
Everett newspaper, but I discussed and asked the same question 
in June of 2002 of Congressman Rick Larsen, and he said, well, 
everything was done properly, and it was basically a done deal, 
and since we have some of our nurserymen out in the Sultan area 
and in the Monroe area, they didn't report any problems. They 
had never heard about it.
    So this whole thing went under the radar, and this was my 
question to Congressman Larsen, did this thing under the radar, 
and he says no, absolutely not, and we hear this all the time, 
and I'm not the only one who tells you this. The Snohomish 
County Council, which is in the middle of this--I was a 
planning commissioner 10 years ago, and any piece of land as 
big as 1 acre had to go through a public hearing process when 
it is being rezoned, and so therefore we're used to thinking in 
terms of a public hearing where everybody has input, and as Mr. 
Town said, there is no public input from this whole proposal, 
so therefore it didn't have the exposure that people said, and 
maybe it did in Seattle in the environmental community. It sure 
did not in the rural areas.
    Senator Craig. Last year, Kim Hunter, mayor of Index, 
Washington, gave testimony in favor of the proposal, yet you 
mentioned, you included the town of Index in a list of towns 
you contacted and claimed that hardly anyone knows about the 
plan. Has something changed, or has the mayor changed in his 
position, or her--I guess that's a gentleman.
    Mr. Postema. The impression has been created by Mayor Kim 
Hunter that the town of Index and the city was all in favor. 
His letters are on the letterhead from the city. He has been 
censured for that by the city council. The city council of 
Index does not support the Wild Sky, and I have some employees 
in Sultan, and they live there, and they know everybody, and 
they don't know anything about it, and so you've got a 
situation where there's a presentation to the outside which 
does not reflect what's happening on the local scene.
    Senator Craig. Lastly, both Senators--one Senator remains 
here this morning. Both Senators were here in support of it, 
representatives from Washington State are supporting of it. 
Have you worked with their offices, or contacted their offices 
on this issue?
    Mr. Postema. Yes, we have, and we have talked to Rick 
Larsen's office. We have submitted our testimony and our 
concerns about that, and we intend to keep working with these 
offices.
    Senator Craig. I have some questions of you, Ed, but my 
time is up, and let me turn to Senator Cantwell for questions.
    Senator Cantwell. Thank you, Mr. Chairman, and thank you to 
the distinguished panel here who has traveled all of this way 
to be part of this hearing. I have a couple of different 
questions on a variety of issues, and so I'll probably direct 
them to individuals, but others feel free to jump in and 
comment on them as well.
    The first issue, on this issue of hearings and input, isn't 
it correct that there was a Wild Sky workshop hearing in Monroe 
on September 6 and, later in July, Index meetings that were 
part of this, and that there is a document of record, written 
testimony that were accumulated at those meetings?
    Mr. Town. Yes, Senator, it's true that there were meetings, 
I believe, on both those days, and as far as the input, yes, 
people were allowed to write some input in the Monroe meeting, 
and I'm sure Senator Murray's office has some records in terms 
of that.
    Senator Cantwell. I don't want to create a voluminous 
record, but I think we ought to get some indication of what 
those written testimony, the volume of that written testimony 
and what it looks like so that we can understand how the 
community has participated in the issue, so perhaps, Mr. 
Chairman, that's something we can follow up on.
    Mr. Husmann. I wonder if I could also answer, or at least 
add to the question.
    Senator Cantwell. Yes, jump in there when you can.
    Mr. Husmann. It's somewhat interesting in that I've talked 
to several people. The Monroe meeting, as I understand it, and 
I was not there, from those who I've talked to, was more of a 
display of tables and information.
    I don't believe, other than the fact that some of the 
people that signed up received from Congressman Larsen a letter 
and a form to comment and return to him--and that was the 
Monroe meeting. The town of Index, as the letter indicates 
that--it's in the enclosures that I've submitted with my 
testimony--was kind of interesting, because we all thought that 
Index was fully supporting this issue, up until only last week, 
and a friend of mine who has a son who's lived up there for 25 
years, has a bed and breakfast, and I asked them and they were 
not in favor, and I said, well, what about the rest of the 
people around here, and I had a petition that I drew up just 
several days ago, and that's what I submitted here, and it was 
very easy to get--I don't know, there must be 100 signatures 
there or something, and a lot of signatures are from Index.
    But this couple went out to their neighbors, reluctantly, 
because they thought everybody supported Wild Sky, and they, as 
testified in their letter, it took them like, 2 hours before 
they found one person who supported Wild Sky in the city, in 
the town and the area of Index. I thought that was very 
interesting, to say the least.
    Also contained in some of that testimony from those people 
that live in Index was that apparently they could not get into 
that meeting that we're discussing at Index. Some claim they 
couldn't get in, some claim they had to leave because it was 
too hot, but in any case, apparently there were a number of 
people who were not able to voice their objection, even though 
they wanted to at that meeting.
    So I don't--you know, this is not something I've 
investigated, or you know, we don't--but there is a huge amount 
of controversy out here now. I think we need to go look around 
and ask around and see what we really have here.
    Senator Cantwell. I'm sure that we will do that, and I know 
that I have a resolution here that's by the city of Monroe, and 
their support, and so we'll get all the resolutions and figure 
out----
    Mr. Husmann. Again, that one from Monroe was just a few 
weeks ago, and why is Monroe suddenly going, council going and 
supporting Wild Sky? Why didn't they do this 2 years ago? These 
kinds of things I don't understand.
    Mr. Town. Senator, if I may add something.
    Senator Cantwell. Yes.
    Mr. Town. The Wild Sky proposal has been in the media a lot 
in the last 2 years. I can recall easily just from memory that 
there were at least six articles that were in the Monroe 
Monitor on the Wild Sky. The Everett Herald, which really is 
the newspaper of local interests in Wild Sky county, has also 
done numerous, numerous articles and commentaries and 
editorials on the Wild Sky, and I'm not sure, but I believe it 
also announced that a public hearing of course was going to be 
in there.
    The Mountaineers Magazine, which of course is a magazine of 
a recreational user group, has also devoted articles in regards 
to the Wild Sky, and certainly the Seattle Times and the 
Seattle PI, which are also read in the valley, have done 
articles in regards to the PI. Local radio stations have 
discussed the Wild Sky as well, and one other thing is, we did 
gather 1,000, almost 1,000 signatures from the valley, all 
valley residents that signed a petition in support of the Wild 
Sky.
    Senator Cantwell. I guess that's the thing that we need to 
make available, is that I think that these forums, whether they 
provided hours and hours of stand-up testimony, my 
understanding is that they provided a conduit of outreach and 
follow-up testimony that has been made available, but we should 
get access to all of that and all of the resolutions and 
everything, and get a complete record.
    Did you want to add something, Mr. Heckert, because I want 
to ask Mr. Postema and Mr. Husmann.
    Mr. Heckert. Yes, very quickly, in the Washington Wildlife 
Federation we had followed this due to the activities of our 
members in that local region, so we're comfortable that the 
public process was visible and followed, and that's the way we 
got activated on it.
    Senator Cantwell. Thank you.
    Mr. Postema. Mrs. Cantwell?
    Senator Cantwell. Yes.
    Mr. Postema. We contacted all seven cities, Monroe, 
Snohomish, Marysville, Arlington, Darrington, et cetera, 
Sultan, Goldbar. We got two or three letters back and they 
said, we don't know anything about this and we will not have a 
hearing on it. We don't have any information. That has been the 
cities.
    I mean, the cities are right in the middle of it. If they 
would say, we have a hearing, and this I think is the proper 
way, then we have input, et cetera, but it hasn't been done, 
and the only thing, the resolution, which is not a public 
thing, there's just a council decided, a city council, to 
support it. I think that needs to be done, but we asked, and 
they don't have it.
    Senator Cantwell. Well, I appreciate your planning 
commission background, Mr. Postema, and I'm sure that these 
issues, as they overlay on various communities, we do want to 
have input from those various communities. My sense is, though, 
Mr. Town is probably right on this point, there's been a lot of 
publicity about it, and so whether a city council has taken 
action or not, I find it hard to believe that they would say 
they don't know much about it, given how much press there's 
been, but we'll figure it out, and we'll get some comments from 
them.
    But I wanted to ask you, if I could, and I don't want to 
indulge my colleague too much here, and I know I'm supposed to 
be at two other hearings at this moment as well, so I want to 
make sure we're cognizant of time, but I'm interested, Mr. 
Postema, you probably have lived in the area for quite some 
time, I'm assuming.
    Mr. Postema. Thirty years, yes.
    Senator Cantwell. The name sounds very familiar, so I'm 
assuming that you had. Were you supportive of the Henry M. 
Jackson Wilderness Area designation?
    Mr. Postema. Yes, I am.
    Senator Cantwell. And so that, were you active in that when 
that was created?
    Mr. Postema. No. I think I was too busy gathering moss in 
the area.
    Senator Cantwell. And why were you supportive of that 
designation, and what was--you know, if, in fact, you maybe 
weren't tracking it and the designation got made----
    Mr. Postema. Yes, I understand. Because basically, maybe 
one-third is truly wilderness, and the rest is really lowlands, 
and that has a tremendous impact on the rural communities, and 
the aspects I have talked about, and that's the difference. If 
this has an impact on jobs and the environment as we see it, 
and I think that has to be addressed, and that's the difference 
between all the wilderness area way up there, or what we're 
trying to do here. Anybody who is familiar with that area would 
know what I``m talking about.
    Senator Cantwell. Well, I'm familiar, but I'm sure that 
there are some lowland areas through the Henry M. Jackson area. 
I know in thinking about this from the perspective of my 
colleague from Idaho and some of the questions he asked about 
bridges and culverts, there is some access between the two 
areas, so I'm sure there are some lowland areas within the 
Henry M. Jackson Wilderness Area.
    Mr. Postema. One of the main differences, of course, is 
that we are very much more environmentally concerned about 
salmon and water. Water is a very big issue, as you well know 
in the Seattle area, because all of that water has to go 
through the Snoqualmie-Snohomish system, so there are concerns, 
and we're very much more knowledgeable about the things we're 
doing which will impact the environment, and I believe that 
makes a difference.
    Senator Cantwell. And a second question, Mr. Postema, 
before I ask Mr. Husmann, do you trust the Forest Service as it 
relates to their input on this?
    Mr. Postema. No. I have no contacts with the Forest Service 
except we have found the information on the Web site and we're 
taking it from there.
    Senator Cantwell. But does it matter to you that the Forest 
Service has been here this morning and they're not opposed to 
this legislation. Does that matter to you as someone who's been 
part of a local planning process, and hearing from various 
agencies that this Federal agency isn't opposed?
    Mr. Postema. No, I think they're very neutral on this 
subject. They're given the facts, and the facts are is that, 
according to their reports, we will lose a lot of jobs in the 
recreational areas, and so we're just leaving it as it is 
written.
    Senator Cantwell. Where are you saying that there is a 
report that we'll lose a lot of jobs?
    Mr. Postema. I submit it in the record. There's a study 
done by the national forest use in the Snoqualmie-Mt. Baker 
Forest, and it shows that only 7 percent of the people who 
visit, normally the national forest will visit the wilderness, 
and they have figures of how much they've spent in the local 
communities, and in that calculation, it's in my testimony and 
the details, it might be about an impact of $30 million on the 
local community.
    I'm not thinking this up. This is what your Forest Service 
has calculated, and we're just putting the things together.
    Senator Cantwell. Well, we'll take a look at that. I'm not 
aware of the U.S. Forest Service numbers on that, or that 
they're making that claim of losing jobs. In fact, we've 
enjoyed a great deal of economic growth because of those 
recreational areas in the past, and I hope that our State can 
continue to do that.
    I wanted to ask Mr. Husmann about the culverts, because it 
seemed to me that one of the main questions and concerns you 
did have that you mentioned in your testimony were the 
culverts. The testimony by Mark Rey this morning that those 
culverts could be managed both in a proactive way and in the 
case of emergency. What did you think of that testimony in the 
sense of relating some of your concerns about culvert 
management?
    Mr. Husmann. Well, I'm not sure if this is a deeper 
philosophical question. The Wilderness Act was created 
specifically to set aside areas of pristine, untouched by 
mankind--I mean, that's the way we, as people out here, read 
these things. That's the law, untrampled by man. We don't go in 
there with anything to tinker around.
    Now, when you start talking about creating a wilderness 
area and then going back in and working on culverts, I don't 
understand that. If you're suggesting a different designation 
of a recreational area, I think that's great, but I see some 
kind of conflict here, and maybe I'm not quite educated enough 
to understand this, but most of the people like myself, us 
people that are out there, we read this Wilderness Act and we 
say, well, we can't ride our mountain bike in here any more, 
and then we have people saying, yeah, it's wilderness, but 
we're going to let the snowmobiles here, we're going to let the 
mountain bikes there, or we're going to create a path for 
wheelchairs, or all mechanized transport. I don't know what 
we're talking about, and I don't know where those things are 
going to be. I don't see a real plan of all of that kind of 
stuff.
    And then I see Mr. Phipps saying it's $100,000 a mile for a 
trail. They don't have any money for that. They haven't built 
any new trails lately and they don't intend to, apparently, if 
this is designated wilderness, and so it's a problem, for me, 
anyway.
    Senator Cantwell. Well, I would love it if there was still 
some pristine areas to preserve that didn't have culverts. I 
think that we are in a different day and age here, and logging 
has been something that we've approved in our national forests, 
and it's occurred, and yes we've seen the challenge----
    Mr. Husmann. Not in wilderness areas, though.
    Senator Cantwell. I'm saying prior--I mean, we could go 
back 30 or 40, or maybe it will take us even 100 years to get 
to some of these areas that you are now saying that we could be 
able to say are pristine and not be preserved.
    The issue is, we want to do a better job on these areas and 
on their management resources, and unfortunately some of them 
do have culverts and our obligations on clean water and on 
salmon recovery are very real, and so unfortunately I think 
that's going to be a fact of life in a lot of areas of our 
national forests, and we're going to have to come up with a 
plan, and I applaud my colleagues who have, prior to me coming 
to Congress, dealt with this and dealt with the appropriations 
side of it, because it is a very tough issue for us in the 
Northwest.
    So I guess what I'm saying is that that culvert issue, I 
was comforted by Mr. Rey's comments this morning that he felt 
that that issue could be dealt with in a proactive way.
    Mr. Husmann. I agree with--you know, we do want to preserve 
our areas maybe, but I come back to this wilderness 
designation. I can't understand, or justify in my own mind how 
you can use that 1964 wilderness designation and then do these 
things as you so feel needed to do under the wilderness 
designation. I think Senator Craig there has asked a question 
that is very interesting. I don't know what that designation 
means, but it certainly doesn't mean wilderness, and I think 
that's great.
    Senator Cantwell. Mr. Heckert or Mr. Town, did you want to 
make a comment on that?
    Mr. Heckert. Yes. I think it's a dangerous precedent to be 
treading on, the fact that if an area was once ever had a human 
impact on it that it can never again retain a pristine, natural 
condition. I don't know philosophically, but I do know that 
ecologically that's not correct.
    Mr. Town. I'd also like to add, Senator Cantwell, that most 
of the Wild Sky Wilderness is high elevation, and there is some 
low elevation land which is along the north fork of the 
Skykomish River. The north fork is part of the Washington State 
Scenic River System, and at one time was recommended for 
National Wild and Scenic River designation as well.
    We're a little bit concerned about making sure that those 
low elevation lands are included in this wilderness proposal, 
and we brought a photograph here which might be difficult to 
see, but this is along the north fork, and it shows a place 
that was previously logged during the era of railroad logging 
about 80 years ago, and to most observers this area would seem 
to have whole forest benefits. Again, you might be able to find 
occasional stumps from some high-grade logging that occurred 
during those days, railroad logging, but when you look at the 
designations of ancient forests, multispecies, multilayer 
canopies, significant downfall, these railroad-logged areas are 
now acquiring those particular characteristics.
    It's been a shame that in the past that a lot of low 
elevation timber has never been put into wilderness areas. This 
area is in a significant riparian area with a significant fish 
run and its benefits in terms of retaining water from flood 
damage and its benefits to salmon are very significant, and 
that's why we would like to include these.
    As far as the purity argument goes, I think that's been 
addressed throughout what we've been talking about today, and 
so if man did trample in this area 80 years ago, I think that 
again the casual observer would not really notice it, and so 
therefore we would really like these low elevation areas 
included.
    Senator Cantwell. Well, I'm again struck by the fact that 
my predecessor, Scoop Jackson, had these same kind of debates 
and comments before the committee on other designations, so 
obviously this pristine debate has been going on for many 
years, and this is just the latest round of it.
    I would like, Mr. Chairman, just to add one more thing to 
the record from the Everett Herald, maybe shedding little bit 
of light on this debate and basically saying that some of these 
more recent calls and input into the process are coming late to 
the game, and that they would have been better to have on the 
front end of the process, but we will, if we can, enter that 
into the record.
    Senator Craig. Certainly.
    Senator Cantwell. And then also do a little more input and 
analysis for the committee about all that public comment that 
is out there, and whether we can somehow get that in the 
process, again without clogging all of the files and systems 
here with that, but get that information.
    Senator Craig. Some of it's part of the record, and some of 
it is simply filed here for purposes of reference, so it all 
becomes a part of the total record. We're happy to have that.
    Senator Cantwell. We can get some of that. But thank you, 
Mr. Chairman, and thanks for holding this hearing today.
    Senator Craig. Well, thank you, Senator. I think the 
discussion over what is wilderness is a respectable discussion 
and debate. My frustration over the years is that I believe we 
have attempted to stretch the Wilderness Act beyond what it was 
originally intended.
    That is not to say, and it is not for anybody to refer or 
to suggest that I don't recognize the need to give unique 
status or protection status to other properties of the public 
domain for the changes needed, water quality, fish habitat and 
all of those kinds of things, but my State values public lands 
for recreational purposes, as part of an economic base along 
with an environmental quality base, and we have a growing 
concern that wilderness is by definition restrictive, and I 
think most of us recognize that, as it relates to access, to 
unique styles of access, but be able to have some flexibility 
and still assure a protective status is something that many of 
us here are looking into here in Congress as the needs, as the 
understanding changes on the character of these lands.
    Mr. Husmann, I did not ask you any questions. I have a 
couple to ask you. I know we're talking about lowlands and 
highlands, and I think Mr. Town spoke to that, Mr. Heckert 
spoke to that, and while clearly lowlands have become a part of 
wilderness over the years, the higher country almost always was 
less accessible, some of it left more untouched early on, and 
it was true in my State, as it was true in others, that was the 
more pristine land. That was the land that got designated 
wilderness. Are there any parts of the Wild Sky Wilderness 
proposal that you could support for wilderness designation as 
you've looked at it?
    Mr. Husmann. Oh, I'm sure there are. I haven't gone to the 
map to map out how many acres, but certainly there must be 
areas that are very reasonable to designate, and in the 
traditional wild, wilderness sense, or, you know, with some 
other vehicle that you may be discussing.
    Senator Craig. Have you contacted your Representatives and 
Senators and requested that additional public meetings be held?
    Mr. Husmann. Yes, we have.
    Senator Craig. Did that come from the State Farm Bureau, 
or----
    Mr. Husmann. Now, I'm here on behalf--even though the State 
Farm Bureau also has a policy similar to, you know, more 
restrictive designations, and I did ask their permission to 
speak to that and enter into the record, but actually I'm from 
the Snohomish County Farm Bureau, a board member.
    Senator Craig. I see, from the Snohomish County----
    Mr. Husmann. Right.
    Senator Craig. Have the communities of interest requested 
those meetings, do you know?
    Mr. Husmann. As communities?
    Senator Craig. As communities.
    Mr. Husmann. I don't know. Mr. Postema referred to, you 
know, he had contacted, I think it was in the spring, sometime 
around March or April, when we started to see if really this 
was a supportive process right in my own town of Sultan, and I 
guess Mr. Town lives in Sultan, too. I guess we're neighbors.
    I called Laura Kaning, who is the town clerk, and said, do 
you know anything about Wild Sky, and she says, well, no, but 
we just got a map, and I said, well, can I have it, and she 
says, well, it came from you, and that's all they knew, and so 
I mean, you know, maybe we're just getting where certain people 
know some things and certain people don't.
    I know one of the workers down there the other day, she saw 
the petition, she's been in the city for longer than me, I 
think, and she had no idea, and she's an avid Seattle-to-
Portland biker and all of that sort of thing, and she had no 
idea, didn't know anything about Wild Sky, and she works for 
the city.
    You know, I don't know who knows what, but I do know that 
there's a lot of people out here who are beginning to question 
what's going on.
    Senator Craig. Well, I thank all of you gentlemen for your 
testimony. Wilderness designation is always a controversial 
issue. In most instances there are great passions, and there 
are reasons for that, on both sides of this issue. I've 
struggled with it over the years, as have a good many of my 
colleagues.
    I trust that we've had a thorough process here and, if not, 
I would hope that it would be more thorough as we come to a 
final piece of legislation, that appears to have finality to 
it. I know that the staff of the committee and the staff of the 
two Senators--this was mentioned earlier--have worked to build 
a compromise and to work to resolve issues that were brought up 
on behalf of the two Senators in the State of Washington.
    So let me also add to the record letters from--this deals 
with Senate legislation S. 1003--Bethine Church, Senator Jim 
McClure, Governor Cecil Andrus, Dennis Baird, Frank Elder, Norm 
Guth, and Bill Worf, as it relates to that legislation dealing 
with the hunting camps on the Salmon River. Those will become a 
part of the record, without--or, unanimously with no objection.
    With that, the committee will stand adjourned. Again, thank 
you all.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                    U.S. Department of Agriculture,
                                   Office of the Secretary,
                                     Washington, DC, June 26, 2003.
Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Dirksen Senate Office Building, Washington, DC.
    Dear Senator Bingaman: Enclosed are responses to the questions you 
submitted on S. 1003, following the hearing by the Subcommittee on 
Public Lands and Forests on June 4, 2003.
    Thank you for the opportunity to present additional information on 
the subject.
            Sincerely,
                                                  Mark Rey,
             Under Secretary for Natural Resources and Environment.
[Enclosure]
              Responses to Questions From Senator Bingaman
    As you know, S. 1003 would have the effect of overturning a Federal 
district court opinion, Wilderness Watch v. U.S. Forest Service, 143 F. 
Supp. 1186 (2000). I have reviewed the court's opinion in that case and 
would like to clarify a few issues.
    Question 1a. Section 9(b) of Public Law 96-312, the Central Idaho 
Wilderness Act of 1980, makes clear that the section of the Salmon 
River that lies within the Frank Church River of No Return Wilderness 
is to be managed under the Wild and Scenic Rivers Act and related 
regulations, rather than the more restrictive provisions of the 
Wilderness Act. Your written testimony states that ``[h]istorically, 
the Forest Service had taken the position that the camps--and the 
associated permanent facilities that are at issue--are consistent with 
agency policy and the law.''
    What is the formal agency policy and law with respect to permanent 
facilities within a river segment designated as ``wild'' under the Wild 
and Scenic Rivers Act?
    Answer. The Wild and Scenic Rivers Act (WSRA) defines wild river 
areas in Section 2(b) as, ``those rivers or sections of rivers that are 
free of impoundments and generally inaccessible except by trail, with 
watersheds or shorelines essentially primitive and waters unpolluted. 
These represent vestiges of primitive America.'' The WSRA also directs 
that each designated river be managed ``to protect and enhance the 
values which (sic) caused it to be included in said system . . .''
    The Departments of the Interior and Agriculture promulgated extant 
interagency guidance for the study of wild and scenic rivers and the 
management of designated rivers in 1982, National Wild and Scenic 
Rivers System; Final Revised Guidelines for Eligibility, Classification 
and Management of River Areas (Federal Register, Vol. 47, No. 173; 
September 7, 1982, pp. 39454-39461). Section III--Management interprets 
Section 10(a) of the WSRA as ``a nondegradation and enhancement policy 
for all designated river areas, regardless of classification'' and 
offers a number of ``management principles'' stemming from this section 
that managing agencies should implement ``to the fullest extent 
possible under their general statutory authorities.'' We quote the two 
management principles specific to facilities: It should be noted that 
the interagency guidance that follows was not meant to address the 
unique requirements and expectations of Public Law 96-312. Rather, they 
were developed to address a broad array of Wild and Scenic Rivers 
located in all parts of the country. The legislative record shows that 
Congress clearly intended to allow commercial uses such as outfitter 
and guides. The three private camps have been in existence and operated 
under special use permits for at least 20 years prior to the 
establishment of the Frank Church-River of No Return Wilderness through 
the Central Idaho Wilderness Act (CIWA). Both Senators McClure and 
Church used the jet boats and destination camps during their 
deliberations prior to the passage of the CIWA. This Act is often 
referred to as one of ``compromise,'' because of its many provisions 
for continuing established uses.
    Basic Facilities. The managing agency may provide basic facilities 
to absorb user impacts on the resource. Wild river areas will contain 
only the basic minimum facilities, in keeping with the ``essentially 
primitive'' nature of the area. If facilities such as toilets and 
refuse containers are necessary, they will generally be located at 
access points or at a sufficient distance from the river bank to 
minimize their intrusive impact. In scenic and recreational river 
areas, simple comfort and convenience facilities such as toilets, 
shelters, fireplaces, picnic tables and refuse containers are 
appropriate. These, when placed within the river area, will be 
judiciously located to protect the values of popular areas from the 
impacts of public use.
    Major Facilities. Major public use facilities such as developed 
campgrounds, major visitor centers and administrative headquarters 
will, where feasible, be located outside the river area. If such 
facilities are necessary to provide for public use and/or to protect 
the river resource, and location outside the river area is infeasible, 
such facilities may be located within the river area provided they do 
not have an adverse effect on the values for which the river area was 
designated.
    Question 1b. What was the formal agency policy at the time the 
Salmon River segment was designated in 1980?
    Answer. The Departments of the Interior and Agriculture adopted 
Guidelines for Evaluating Wild, Scenic and Recreational River Areas 
Proposed for Inclusion in the National Wild and Scenic Rivers System 
Under Section 2, Public Law 90-542 (Guidelines) in February, 1970. The 
Guidelines provide criteria to supplement Section 2 and apply to 
``classification, designation, and administration of river areas.'' 
They contrast wilderness and wild river areas by stating the latter may 
contain recreation facilities for the convenience of the user in 
keeping with the primitive setting.'' ``Essentially primitive'' is 
defined as ``shorelines . . . free of habitation and other substantial 
evidence of man's intrusion.''
    Question 2a. The court opinion references several Forest Service 
memos that raised concerns about the nature of the camps changing from 
temporary structures to permanent facilities that were more consistent 
with the Forest Service's definition of a resort, rather than an 
outfitter and guide camp. I would like to hear your view tin this 
issue.
    Are the facilities at the three camps the same structures that 
existed at the date of enactment of the Central Idaho Wilderness Act of 
1980?
    Answer. The Arctic Creek and Stub Creek camps are essentially the 
same. The Smith Gulch Camp has new structures and is in a different 
location than the original camp. The original camp was approximately 50 
years old and was directly on the river bank where it was highly 
visible and had no sanitary facilities. The replacement camp is set 
back from the river and is screened from view. The camp structures are 
designed and constructed to blend into the natural setting, has a 
sanitary septic system, and handles approximately the same number of 
persons at one time as the old facility.
    Question 2b. Have the relevant Forest Service permits issued since 
1980 authorized temporary or permanent facilities for the three lodges? 
Has there [been] a change in any of the permits issued since 1980 with 
respect to allowing permanent facilities when previously only temporary 
facilities had been allowed?
    Answer. In 1980, the Stub Creek camp operated under a Private Camp 
Permit, on which some structures were authorized as ``semi-permanent'' 
structures. The permit required all improvements to be removed when the 
permit holder no longer needed them. In 1993, when the Private Camp 
permit was re-issued with a two-year term, the clause requiring removal 
of improvements was removed. In 1996, the permit was re-issued with a 
15-year term, with removal of all improvements required.
    Between 1980 and 1996, the Arctic Creek camp operated under annual 
or two-year Outfitter/Guide permits that were inconsistent in their 
descriptions and directions on facilities. In 1996, a Private Camp 
permit was issued authorizing permanent structures as described in the 
1993 permit with a 15-year term until 2010.
    Unfortunately, many of the permits issued in the 1980s could not be 
located, including permits for the Squaw Creek camp. In 1988, the 
Forest Service issued a decision to move the location of the camp from 
Squaw Creek to Smith Gulch. In 1991, the camp operated under a Private 
Camp permit, with a five-year term, that described several structures. 
In 1996, a 15-year Private Camp permit describing buildings, two water 
systems and a sanitary system was issued.
    Private Camp permits allow for permanent facilities and are issued 
for a specified period of time. Normally, at the time of permit 
termination, the Forest Service Line Officer has the discretion to 
issue a new permit, with or without changes, or, with justification, 
not issue a new permit.
    Question 2c. If any of the structures have changed since enactment 
of the Central Idaho Wilderness Act, especially if the nature of the 
structures has changed from temporary to permanent facilities, why 
should that be treated as being protected under the Act?
    Answer. The only substantial physical changes were at Smith Gulch 
and they were the result of a 1988 Forest Service decision and intended 
to improve sanitation and the camp's visual impact on the river 
corridor. The camp serves the same function and capacity as prior to 
1980, but with lesser impacts to the environment.
    Question 3. The court's opinion states that ``[p]ermanent resort 
facilities were clearly not legal at that time'' (enactment of the 
Central Idaho Wilderness Act of 1980). In your opinion, is this an 
accurate statement of the law? If not, why is it inaccurate?
    Answer. The court indicated its disagreement with our position on 
this issue. Agency permitting actions throughout the 1980's and 1990's 
related to the camps also reflect the contemporaneous agency 
understanding that permanent facilities at the camps were not in 
violation of and are an established use recognized by the CIWA. That is 
not to say that facilities at the camps are like jet boat and aircraft 
uses, which cannot be diminished under the CIWA. Rather, we interpret 
the CIWA and its legislative history as providing for the continued 
authorization of the camps by the Forest Service. This view is also 
supported by the letter submitted for the record by former Interior 
Secretary Cecil Andrus, former Senator Jim McClure, and the widow of 
former Senator Frank Church.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                               Seaplane Pilots Association,
                                        Lakeland, FL, May 14, 2003.
Congressman Rick Larsen,
Longworth HOB, Washington, DC.
    Dear Congressman Larsen: Having reviewed House Bill 822, which 
proposes to create a new wilderness area in the Cascade Mountains, the 
Seaplane Pilots Association endorses the legislation as introduced.
    Considering the wide range of potential interpretations of what 
might be considered ``reasonable'' regulation of seaplanes on Lake 
Isabel, we would appreciate a brief description of what might 
constitute a ``reasonable'' restriction in the report language.
    Contemplating the sensitivities of a wilderness area, we believe 
reasonable restrictions could include prohibiting early morning 
takeoffs that might disturb recreational users, limiting the number of 
seaplane operations should the number of such operations climb to a 
level at which observable, measurable environmental harm is being done, 
and limiting the number of landings any one seaplane could make in a 
given day.
    We would hope to avoid ``reasonable'' regulations based on fear of 
the unfamiliar, personal prejudices, or false pretenses.
    We commend you for seeking input from the many and varied groups 
that utilize the area you are proposing to protect, and appreciate the 
opportunity to participate in the process.
            Sincerely,
                                              Michael Volk,
                                                         President.
                                 ______
                                 
                                           Boise, ID, May 22, 2003.
Mr. Doug Tims,
Northwest River Company, Boise, ID.
Re: A Bill Clarifying commercial Outfitter Hunting camps on the Salmon 
River

    Dear Doug, I have looked at the proposed legislation concerning the 
lodges at Stub Creek, Smith Gulch and Arctic Creek along the Main 
Salmon River in the FCRNR Wilderness.
    These lodges and camps were well known at the time the Act was 
written and debated, and any effort to have them removed as part of the 
deal would have raised great controversy, I'm sure. Indeed, Frank was 
committed to achieving a balance in the legislation that allowed many 
such facilities to remain in place. I question whether the law could 
have passed without this type of compromise.
    Frank certainly wanted to maintain a true wilderness but he was a 
realist about the situation. His effort always was mindful of keeping 
the River of No Return accessible for as many people as possible. 
Staying at the lodges is a great alternative for some families then and 
now. He understood the need to keep out inappropriate uses such as 
vehicles and roads, but he clearly advocated for the valid historic 
recreational uses in the 1980 bill for the River of No Return 
Wilderness.
    You have my permission to send this letter on to all relevant 
congressional representatives and committees.
            Very sincerely,
                                       Bethine (Mrs. Frank) Church.
                                 ______
                                 
                                          Moscow, ID, May 28, 2003.
Chairman Domenici,
Senate Committee on Energy and Natural Resources, Washington, DC.
    Dear Sir: I have read the text of S. 1003 and believe that its 
language is fully consistent with the original intent of congress when 
it passed the Central Idaho Wilderness Act.
    I participated as a conservationist in most aspects of the writing 
of the Central Idaho Wilderness Act, working closely with Senator Frank 
Church and his staff in that long process. I have also personally 
visited all three sites where outfitter camps operate on public lands 
along the Salmon River.
    In writing this legislation, Sen. Church intended to the maximum 
extent possible to insure that uses compatible with the natural values 
of the Salmon River that were in place before enactment would be able 
to continue at the same level after enactment of the Central Idaho 
Wilderness Act. Sen. Church had visited all three camps in existence at 
the time this legislation was being considered and repeatedly stated 
that it was his intention that the law would permit their continued 
existence under USPS permit. Based on my memory of these events, there 
can be no doubt about what Mr. Church intended the final legislation to 
do. Sen. Church was also a fine writer in general, and of legislation 
in particular, and consequently I can see no room for ambiguity in 
interpreting this legislation and Mr. Church's intent: these three 
camps were to stay.
    One of the three camps is now at a different location than at the 
time of enactment, but that move was made at the behest of the Forest 
Service and was designed to relocate the camp to a less visible and 
intrusive spot--a request generously agreed to by the lease holder.
            Sincerely,
                                                      Dennis Baird.
                                 ______
                                 
              State of Washington House of Representatives,
                                         Olympia, WA, May 30, 2003.
Honorable Members,
Energy & Natural Resources Committee, Dirksen Senate Building, 
        Washington, DC.
    Dear Distinguished Committee Members: I am writing to you today to 
express my concerns regarding the proposed Wild Sky Wilderness in the 
state of Washington. The area in question comprises approximately 
106,000 acres in the southwest portion of the Legislative District 
which I have the honor of representing.
    My primary concern is the likelihood of serious environmental 
degradation in the event. this Wilderness proposal is adopted. There 
are currently about forty miles of forest road with several bridges and 
numerous culverts within the boundaries. Under the proposed 
legislation, no consideration is given to the status of these roads. If 
left alone, lack of maintenance could cause culverts to be filled 
causing washouts creating negative environmental impacts.
    This brings us to my next concern, the issue of the inholders 
within the proposed Wild Sky. The Wild Sky legislation reiterates the 
Wilderness Act's statement of assuring ``adequate access.'' As you are 
no doubt aware, ``adequate access'' lacks a clear definition. I believe 
that the inholders need certainty in how their property will be 
affected.
    In conclusion, I would like to ask for your consideration of the 
potential environmental impacts of this change in classification and 
also the effects on the status of inholders.
    Thank you for your consideration.
            Sincerely,
                                              Kirk Pearson,
                                              State Representative.
                                 ______
                                 
                                           Boise, ID, May 30, 2003.
Senator Pete Domenici,
Chairman, Senate Energy and Natural Resources Committee, Dirksen Senate 
        Office Building, Washington, DC.
    Dear Mr. Chairman: Please accept this correspondence as my total 
support for S. 1003.
    As a result of my years as Governor of Idaho and as Secretary of 
the Department of the Interior, I am intimately familiar with the 
issues and location of the properties in question, properties that are 
now inside the outer boundary of the Frank Church River of No Return 
Wilderness Area. I have personally visited the locations in question 
and was involved in the decisions that permitted Norman Guth, owner of 
the Big Squaw Creek facility, to move that facility to a less intrusive 
location away from the river's edge. He agreed to move; the Forest 
Service was happy; and it appeared that we had enhanced the wilderness 
characteristics of the area, The new location of this facility is at 
Smith Gulch, which is much less obtrusive but permits ``existing uses'' 
to continue.
    In 1980, when we passed the legislation that finally created the 
River of No Return Wilderness Area, which is now the Frank Church River 
of No Return Wilderness Area, we thought the issue had been resolved to 
everyone's satisfaction. I might add that Norm Guth went to 
considerable expense in creating the new facility, and he did it simply 
because he is a good citizen, one whom I have known for more than 30 
years.
    The 1980 record of the committee hearing is, I think, quite clear 
as to what the intent was, and I hope that you and your committee will 
see fit to pass this proposed legislation to clarify the issue once and 
for all.
    With warm personal regards to you, I remain
            Sincerely,
                                                   Cecil D. Andrus.
                                 ______
                                 
                           Washington Wilderness Coalition,
                                         Seattle, WA, May 30, 2003.
Jeff Sax,
Council Member, Snobomish County Council, Everett, WA.
    Dear Councilman Sax: We are pleased to present you with a 
significant demonstration of support for the proposed Wild Sky 
Wilderness by your constituents. Enclosed are 780 petition signatures 
supporting the Wild Sky Wilderness Act, which would permanently protect 
106,000 acres of National Forest land as congressionally designated 
Wilderness.
    The petition signatures are exclusively from your constituents in 
District 5 who live in the Skykomish River Valley (including Monroe, 
Snohomish, Sultan, Gold Bar, Startup and Index) All signatures were 
gathered earlier this year in February.
    We hope that you will join the many other elected officials in 
Snohomish County that have already endorsed protecting the Wild Sky as 
Wilderness.
    Please feel free to contact me or one of my staff for more 
information an Wild Sky Wilderness.
            Sincerely,
                                                Jill Smith,
                                                Executive Director.
                                 ______
                                 
        Washington Coalition of Citizens With Disabilities,
                                         Seattle, WA, June 2, 2003.
Hon. Patty Murray,
U.S. Senate, Russell Senate Office Building, Washington, DC.
    Dear Senator Murray: I am writing to express Washington Coalition 
of Citizen's with disAbilities (WCCD) continued support for your 
proposal to protect the Wild Skykomish Country as a congressionally 
designated Wilderness--WCCD supports protecting Washington's remaining 
scenic roadless areas in our National Forests through Wilderness 
designation and other protective measures.
    WCCD's mission is to support people with disabilities, including 
those with the greatest needs for multiple, complex human and economic 
services, in becoming as independent as possible in accordance with 
their own choices and desires. We feel that National Forest roadless 
areas have more value to more people when they are left intact, rather 
than to be roaded and logged or turned over to motorized use. Saving 
our wild public forests as sources of clean water, wildlife habitat, 
scenic beauty and sustainable recreation gives the public more choices 
in how their land is used. Developing these last wild forests benefits 
only timber, mining, dirtbike and other off-road-vehicle interests.
    As you know, the Wilderness Act provides the most durable and 
comprehensive protection to wild, largely unspoiled federal land. It 
allows the land to forever retain it's wild character, prohibiting road 
construction, logging and other damaging activities while providing a 
glimpse of what our country looked like when Lewis and Clark first 
visited the Pacific Northwest.
    In regard to access for citizen's with disabilities, even though 
Wilderness designation prohibits general mechanized travel within in 
its boundaries, it allows full wheelchair use where possible.
    The Americans With Disabilities Act of 1990 reaffirmed that nothing 
in the Wilderness Act should be construed as prohibiting the use of a 
wheelchair in a wilderness area by individuals whose disability 
requires it. A 1992 report by the National Council on Disability found 
that ``[a] significant majority of persons with disabilities surveyed 
very much enjoy the [National Wilderness Preservation System] and 76 
percent do not believe that the restrictions on mechanized use stated 
in the Wilderness Act diminish their ability to enjoy wilderness. 
People with disabilities appear to visit the NWPS in the same ways and 
for the same reasons that people without disabilities do.''
    Under the Wild Skykomish Wilderness proposal, wheelchair users 
would still be able to enjoy the local scenery firsthand. Three barrier 
free trails, those that are more easily used by wheelchairs, lie within 
the general vicinity of the proposal, including the Troublesome Creek 
Trail which rests just within the boundaries (0.5 mi.) right alone the 
North Fork Sky Road. Though more suitable for the stronger wheelchair 
user because of steeper stretches and narrow trail width, it's a very 
scenic trail through old growth forests, along a rushing creek, with 
two large trail bridges across the creek. It offers several good 
viewpoints of huge trees, the creek, and the nearby mountains being 
proposed for Wilderness designation. Additional barrier-free trails are 
available throughout the Skykomish Ranger district.

              *      *      *      *      *      *      *

                                 ______
                                 
                                          Snohomish County,
                                       Snohomish, WA, June 2, 2003.
Hon. Larry Craig,
Chairman, Subcommittee on Public Lands and Forests, Senate Energy and 
        Natural Resources Committee, Washington DC.
    Dear Senator Craig: We are writing to express our deep concern 
regarding the Wild Sky Wilderness Act of 2003, which is before the 
senate in S. 391, and before the house in H.R. 822.
    We view this bill as posing serious adverse impacts to Snohomish 
County, Washington.
    This bill would lock up some 900,000 acres of present National 
Forest land in Snohomish County as part of the ``Wild Sky Wilderness.'' 
The proposal would prohibit grazing, commercial gathering of forest 
products, logging, mining, and other commercial uses of the subject 
land, and would cause a decrease in recreational tourism. This 
threatens a local economy already in the doldrums.
    All of this is happening without any effective public process, 
without any demonstration of need for more wilderness, and without any 
analysis of social, environmental, or economic impacts.
    Some specifics.
1. Tourism
    The bill's proponents promote it under the promise of 
``protecting'' the land for recreational use, and claim that the bill 
will boost tourism. This claim is highly deceptive. The bill's 
mechanism for ``protecting'' the land is to close over 30 miles of 
roads, remove a bridge, and prohibit all forms of motorized or 
mechanized travel; including emergency vehicles, snowmobiles and 
bicycles. Just how do we boost tourism by restricting access? The true 
effect of the bill will be to create a private preserve for the 
recreational elite and out of reach far the average Snahomish County 
family. This will ``protect'' the land from tourism, not for tourism.
    Indeed, the September 2001 report ``National Visitor Use Monitoring 
Results'' by the USDA Forest Service Region 6 (Mt. Baker-Snoqualmie 
National Forest) \1\ shows that Wilderness visits decline to 7 or 8 
percent of the regular National Forest Visits, and that the majority 
(70%) of Wilderness visitors are white males age 21-30 comparable to 
1:7.6 percent in regular National Forests.
---------------------------------------------------------------------------
    \1\ http://www.fs.fed.us/recreation/programs/nvum/reports/year1/
R6--MBS--final.htm.
---------------------------------------------------------------------------
    We cannot believe that federal policy would call far creating 
private playgrounds for the elite.
    The same Forest Service report also shows that the Wilderness 
visitor spends only $27.00 within 50 miles, in comparison with over 
$80.00 spent by the regular National Forest visitor (these figures do 
not include gas and oil expenditures). Why such a remarkable 
difference? Possibly because the elite visitor is responsible only for 
himself, whereas the National Forest visitor arrives with family in 
tow. But whatever the explanation, the clear fact is that ``Wild Sky'' 
threatens to damage, not boost, the local tourism industry.
2. Economic development
    The Snohomish County economy is presently sluggish. Economic 
development here is a necessity. As a county council, we are engaged in 
efforts to stimulate the local economy. Placing an additional vast 
tract of lowland natural resources off limits far timber, minerals, 
etc. is highly counter-productive to these efforts.
    In addition, Snohomish County would lose its future share of any 
federal timber harvest on the 100,000 acres, which in the past has 
brought over $950,000 per year in revenues to county government, and 
another $950,000 (+) to local schools.
3. Forest Fire
    Summer approaches, and with it comes the fire season. What will be 
the effect of Wild Sky's road and bridge closures on fire fighting? 
Obviously, it can only have a negative effect. Uprooting the forest 
transportation infrastructure would seriously hinder if not prohibit 
fighting forest fires, with a resultant threat to public safety and the 
water supply. In our state we have already experienced tremendous loss 
of property and life to forest fire, and we are very steeply concerned 
about the continuing threat of forest fire.
4. Public Process
    Wild Sky proponents claim broad and deep public support for the 
bill, We must question the veracity of that claim. We are unaware of 
any evidence of serious consultation of the people of Snohomish County 
on this proposal. Certainly none of us, members of the Snohomish County 
Council, have been in anyway consulted.
    Moreover, reviewing of a published list of ``Wild Sky'' supporters 
reveals a surprising scarcity of Snohomish County legislators, mayors, 
cities, local citizens and members of our County Council. Proponents 
appear to have done little to inform officials of the surrounding 
cities of the nature of this proposal and the economic impact on their 
communities.
    The Snohomish County Farm Bureau recently issued a press release 
that asked in park.

          ``What Is Wild Sky's impact on forest fire control, water 
        management and storage, and public access? What is the economic 
        impact of road closures and lost timber harvest? What is the 
        true cost and who pays for it?''

    These very legitimate and common-sense questions have been 
virtually ignored by the bill's proponents.
    But these questions, and others, need and deserve to be answered.
    Accordingly, we ask that you look very carefully at this bill in 
light of our concerns, and we ask that you forbear taking action until 
Snohomish County citizens have been consulted in the matter. We suggest 
this may be accomplished by convening a Congressional public hearing in 
Snohomish County.
            Respectfully yours,
                                   Gary Nelson,
                                   John Koster,
                                   Jeff Sax.
                                 ______
                                 
                   Washington Contract Loggers Association,
                                         Olympia, WA, June 3, 2003.
Hon. Larry Craig,
Chairman, Subcommittee on Public Lands and Forests, Senate Energy and 
        Natural Resources Committee, Dirksen Office Building, 
        Washington, DC.
    Dear Senator Craig: My name is George Kirkmire and I am Executive 
Assistant for the Washington Contract Loggers Association (WCLA). The 
WCLA is a statewide trade association representing over 800 
predominantly small, family owned businesses involved in the harvesting 
of timber located on both private and public lands. I am writing you to 
express a number of concerns that WCLA has with the `Wild Sky 
Wilderness Act of 2003' which is presently before the senate in the 
form of S. 391 and before the house in H.R. 822.
    First and foremost, the `Wild Sky Wilderness Act of 2003' would add 
approximately 106,000 acres to the Mt. Baker-Snoqualmie National 
Forest, which already has over 700,000 acres designated as wilderness 
out of a total of 2 million acres. Additionally, there is 600,000 acres 
of the forest, which is designated as `Late Successional Reserve' (LSR) 
as outlined under the Northwest Forest Plan. The LSR's, which might as 
well be considered as de facto wilderness areas due to severe resource 
management prohibitions, when combined with current acreage reserved 
for wilderness totals nearly 1.3 million acres!
    This indicates that 65% of the Mt. Baker-Snoqualmie National Forest 
is currently in an unmanageable state with regards to resource 
production or protection. If one adds the 106,000 acres of wilderness 
that the `Wild Sky Wilderness Act of 2003' proposes, the figure jumps 
up to 70%. Frankly, enough is enough.
    To add insult to injury, however, 16,000 acres of the proposal 
contains `Matrix' designated lands that, under the Northwest Forest 
Plan, does allow for limited timber production. Given that the Mt. 
Baker-Snoqualmie National Forest has only 45,000 acres within the 
`Matrix' designation available for timber management (60,000 acres less 
riparian reserves), or 2.5% of the forests' total acreage, WCLA is 
strongly opposed to any further withdrawals.
    The Mt. Baker-Snoqualmie National Forest currently has a difficult 
time putting up less than 10 mmbdft per year for sale within Western 
Washington, which is a far cry from the 250 mmbdft that it averaged 
during the '70's and '80's. Despite this, though, the forest still has 
over 631,000 acres of old growth inventoried.
    Another problem with `Wild Sky' is the fact that much of proposed 
acreage doesn't meet the traditional `untrammeled by man' definition of 
wilderness. There are over 40 miles of existing road and numerous 
bridges; at least one that cost $500,000.00 when it was originally 
built. Further, much of the area has an extensive mining and logging 
history that goes back nearly to the turn of the last century. To 
create a wilderness with these characteristics sets a precedent, 
especially here in the West, which might lead to anything being 
considered as wilderness as long as a circle is drawn around it and it 
is congressionally designated.
    Roads and bridges are hardly characteristics that one thinks about 
when wilderness is mentioned and, indeed would eventually have to be 
removed or `decommissioned' at some point in order to meet the true 
definition of wilderness. The Mt. Baker-Snoqualmie National Forest has 
a tremendous un-funded backlog of road maintenance projects that grows 
exponentially every year. Road decommissioning estimates in the 
proposed wilderness area have run into the millions of dollars and to 
believe that money for this would be made available over and above 
funding for more qualified projects is a `pipe dream'.
    From the beginning, we were under the impression that `Wild Sky' 
was going to be an open and collaborative process between affected and 
interested parties composed of primarily urban environmentalists, 
citizens of Snohomish County and natural resource users. There was 
supposed to be `open houses' and `community meetings' held within the 
area to inform the public as to the scope of the project and to allow 
the public, in turn, to comment. Unfortunately, none of these meetings 
have ever taking place. In fact, it was nearly two years after word 
leaked out about a possible new wilderness area that a map was even 
made available, and even then the boundaries were still uncertain.
    We blame much of the secrecy regarding `Wild Sky' on Senator 
Murray's aide and point person on `Wild Sky', Karen Waters. Ms. Waters 
is/was a member of the Board of Directors of the Washington. Wilderness 
Coalition, which groups stated purpose for existence is to create and 
advocate for more, in fact 3 million acres more, of wilderness area 
throughout Washington State. We believe that Ms. Waters' membership in 
such a group has affected immensely the fairness and objectivity of 
this particular proposal.
    Since `Wild Sky' is a proposal emanating primarily from the 
environmental community, only the environmental community has ever been 
consulted. To our knowledge, no one from the timber industry, including 
sawmill owners and logging company owners located within Snohomish 
County or near the proposed wilderness area, have ever been included in 
any decision regarding `Wild Sky'.
    In closing, Senator, it is WCLA's contention that there is already 
enough land classified as `wilderness' on the Mt. Baker-Snoqualmie 
National Forest. To lock up such a large percentage of the total land 
base into a single designation is bad idea, likely to lead to a natural 
disaster at some point in the future. People are under the misguided 
assumption that forests are a stagnant entity, likely to carry on quite 
well without any interference from or by than. The truth is that 
forests are dynamic and ever changing. One way or the other, these 
forests will be managed, naturally or otherwise. Lets hope that they 
are managed to the benefit of man and not to his detriment.
    Thank you for considering our comments on the `Wild Sky Wilderness 
Act of 2003'.
            Yours very truly,
                                        George C. Kirkmire,
                                               Executive Assistant.
                                 ______
                                 
                                                      June 3, 2003.
Senator Pete Domenici,
Chairman, Senate Energy and Natural Resources Committee, Dirksen Senate 
        Office Building, Washington, DC.
    Dear Mr. Chairman: I support the efforts of Senator Craig in S. 
1003 to clarify the intent of Congress with respect to the continued 
use of established commercial outfitter hunting camps on the Salmon 
River.
    In 1979, Senator Church and I heard extensive testimony from the 
citizens of Idaho and others concerning the establishment of the River 
of No Return Wilderness. At issue before the Congress were the Idaho 
and Salmon River Breaks Primitive Areas. These areas and the 
surrounding lands that were recommended for wilderness protection, make 
up a vast area of more than two million acres. The area is very 
challenging terrain cut by the Salmon River into canyons and river 
corridors with very difficult access.
    Idahoans had developed a number of historical methods of access 
prior to Congress addressing the future management of this vast area. 
It is very important to local citizens and outfitters to have a way to 
explore and enjoy Idaho's multitude of hunting, fishing and recreation 
opportunities. As we heard in the hearings before the Subcommittee on 
Parks, Recreation, and Renewable Resources there was significant 
support for designation of a large segment of central Idaho as 
wilderness, but equally important that the public be allowed continued 
access.
    To strike this balance we placed the following language at the 
beginning of the Central Idaho Wilderness Act:
    Sec. 2. (a) The Congress finds that--
    (1) certain wildlands in central Idaho lying within the watershed 
of the Salmon River--the famous ``River of No Return''--constitute the 
largest block of primitive and undeveloped land in the conterminous 
United States and are of immense national significance;
    (2) these wildlands and a segment of the Salmon River should be 
incorporated within the National Wilderness Preservation System and the 
Wild and Scenic River System in order to provide statutory protection 
for the lands and waters and the wilderness-dependent wildlife and the 
resident and anadromous fish which thrive within the undisturbed 
ecosystem; and
    (3) such protection can be provided without conflicting with 
established uses.
    Contained in the bill was a balance between management under the 
Wild and Scenic Rivers Act and the Wilderness Act. The congressional 
record includes extensive discussion of the reason for the dual 
designation. Under the Wilderness Act, existing uses such as airstrips, 
powerboat use and camps with permanent structures on the Main Salmon 
would not be allowed. We included specific language in the Act that 
directed the Forest Service to manage the Main Salmon corridor as Wild 
and Scenic in order to allow continued access via powerboats and the 
camps with permanent structures.
    Senator Church and I specifically questioned Assistant Secretary of 
Agriculture Rupert Cutler and Region Four representative Frank Elder 
about this balance. Their answers on the record and later in statements 
to the committee reports tie back directly to the ``such protection can 
be provided without conflicting with established uses'' language on the 
face of the bill.
    The committee report states ``While both the River of No Return 
Wilderness and the Gospel-Hump Wilderness overlap portions of the Wild 
and I Scenic River corridor, the Committee reiterates that only the 
rules and regulations promulgated pursuant to the 1968 Wild and Scenic 
Rivers Act will apply in the river corridor. Thus certain activities 
not generally permitted in wilderness areas, such as the hunting camps 
on the river, the use of motorized tools to gather firewood, and small 
hydroelectric generators can continue within the wild and scenic river 
corridor on the river.''
    At the hearings, I specifically asked Assistant Secretary of 
Agriculture Rupert Cutler about the dual designation. I asked, ``Did I 
understand your most recent proposal did not deal with the earlier 
questions with respect to the management of the river corridors--
particularly the Middle Fork and the main Salmon? Middle Fork is a Wild 
and Scenic River and it is your suggestion that it become wilderness 
and go into the more restrictive management of wilderness? But that the 
Salmon River itself would not become wilderness but would become part 
of the wild and scenic rivers?
    Mr. Cutler, ``That is correct, in order to continue the mode of 
transportation on the main Salmon River. The question of continued use 
of camps on the main stem also would be provided for by excluding the 
main stem corridor from the wilderness area.''
    Here and at several other places in testimony, the ``camps'' that 
were discussed are those at Smith Gulch, Arctic Creek and Stubb Creek 
as referenced in S. 1003.
    At present, these facilities are under Forest Service order to be 
removed in 2004. S. 1003 must be acted on promptly in order to provide 
for the continuation of this important historical access to the Salmon 
River by the public. It was clearly our intent in 1980 that this use, 
which is facilitated by the permanent structures at each site, shall 
continue for present and future generations.
            Sincerely,
                                                  James A. McClure.
                                 ______
                                 
Statement of William A. Worf, President, Wilderness Watch, Missoula, MT
    Mr. Chairman, and members of the Committee, I am providing this 
testimony on behalf of Wilderness Watch, a national citizen 
organization dedicated to the protection and proper stewardship of 
America's designated Wildernesses and Wild & Scenic Rivers. I have been 
assured by Committee staff that this statement will become part of the 
official hearing testimony. We appreciate that consideration. My 
statement includes several attachments, including a chronology of this 
issue and a personal affidavit that speaks to the history of these 
permits and resorts.*
---------------------------------------------------------------------------
    * The attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
    I am a co-founder of Wilderness Watch and currently serve as its 
president. I also bring a unique perspective to these deliberations as 
a former employee of the United States Forest Service, who has been 
involved for more than 30 years in the issue before the Committee. I 
served as a fulltime employee of the US Forest Service for nearly 32 
years. This included service on 4 national forests, in 2 regional 
offices and in the national headquarters in Washington, DC. During that 
time I served a number of roles and had a variety of duties, some of 
which involved administration of special use permits including 
outfitter and guide permits. I served in the National Headquarters from 
1964 through 1969 where my primary responsibility was providing 
national leadership for Forest Service implementation of the Wilderness 
Act and the Wild & Scenic Rivers Act. For 12 years (1969 through 1981) 
I served in the Northern Region headquarters as Director of Wilderness, 
Recreation and Lands. I was responsible for providing direction to 
national forests for administration of special land uses (including 
outfitters & guide permits), Primitive Areas, Wildernesses and Wild & 
Scenic Rivers. I was very closely involved in management of the Salmon 
River and the surrounding lands during those years. I provided staff 
leadership and advice to the Regional Forester and Chief as various 
proposals for Wilderness designation were considered by Congress. In 
that capacity I met with Senator Church while he was working on the 
Central Idaho Wilderness bill and had a number of conversations with 
members of his staff and many others as the legislation was developed.
    Mr. Chairman, Senate bill S. 1003 seeks to overturn a federal 
district court decision which correctly found that the Illegal 
construction and operation of 3 resort camps on the Wild and Scenic 
Salmon River violated, the Wild and Scenic Rivers Act and the Central 
Idaho Wilderness Act. S. 1003 will reverse many decades of 
administrative and congressional protection for the Salmon River 
country. It will grant special rights to 3 outfitters on the Salmon 
River that are not afforded to any other of the thousands of outfitters 
operating on our public lands' wildernesses and wild rivers. It will 
reward individuals who have flaunted our nation's laws and who 
routinely violated the terms of their special use permits. S. 1003 will 
condone the abysmal record of administration of this area by the Salmon 
National Forest, while serving as a slap in the face to other 
outfitters who have played by the rules and to those dedicated Forest 
Service employees who for decades administered those rules as they were 
intended. It will rob all Americans, young and old, able-bodied and 
disabled, of the opportunity to experience this wild river corridor in 
its most primitive and pristine condition.
    The fact of the matter is that the type of developments that S. 
1003 attempts to permit on the Wild Salmon River have been illegal for 
70 years. In the 1930's, the area affected by S. 1003 became part of 
the Salmon River Breaks and Idaho Primitive Areas. The regulations 
applicable to the Primitive Areas provided that ``there shall be no 
roads or other provision for motorized transportation, no commercial 
timber cutting and no occupancy under special use permits for hotels, 
stores, resorts, summer homes, organizational camps, hunting and 
fishing lodges or similar uses.'' These regulations governed this area 
until 1980, when the lands in question were designated as part of the 
River of No Return Wilderness and as part of the Wild and Scenic Salmon 
River. From the 1930s, up through the time of the Central Idaho 
Wilderness Act (CIWA) of 1980, and until today the only type of 
outfitter camps legally permitted on the Salmon River were those of a 
temporary nature. As U.S. federal judge Sidney R. Thomas stated in 
Wider Watch v. U.S. Forest Service, ``When the CIWA was enacted, 
permanent structures were prohibited in the Idaho and Salmon Breaks 
Primitive Area as a matter of law and regulation.''
    Despite this prohibition on permanent structures and lacking any 
authority to do so, several outfitters over the years constructed 
rustic lodges and cabins at their hunting camps. In 1970, mindful of 
the legal prohibitions against such developments, the U.S. Forest 
Service regional foresters for the northern and intermountain regions 
signed a letter ordering that all camps be modified to be temporary by 
December 31, 1971. I have attached to my statement a copy of an 
affidavit from former Regional Forester Verne Hamre that confirms this. 
Of the 8 outfitters who had constructed the illegal camps, 5 complied 
with the order and burned or removed the illegal structures. Three 
continued to flaunt the law and did not remove their illegal camps, and 
it is they or their successors who S. 1003 will reward. Those who 
complied were assured by Forest Service officials that all outfitters 
would be treated the same. S. 1003 makes a liar of the U.S. Government 
on this account. By the way, it wasn't until 1988, eight years after 
CIWA passed, that one of the three remaining camps (a ramshackle affair 
consisting of an old metal barge pulled up on shore with some wood 
frame add-on rooms) was removed, but theft was ``replaced'' three miles 
downstream by a modern lodge with several outlying cabins.
    As I mentioned earlier, I met with Senator Church during the 
legislative effort to pass the Central Idaho Wilderness Act and can 
assure you he knew that the rules then in place only allowed for 
temporary camps in primitive areas, wilderness areas and in wild river 
corridors. He was, in my opinion, a smart legislator who knew what he 
was doing. Where he wanted exceptions he was clear about it. He made a 
point of writing special provisions in CIWA to allow jetboat use to 
continue and to allow several airplane landing strips to remain, As one 
who worked to pass the Wild and Scenic Rivers Act, he knew that the 
standard for wild rivers is that the shorelines must remain essentially 
primitive and as vestiges of primitive America. Had he wanted permanent 
camps complete with lodges and cabins in a Wilderness or a Wild River 
corridor, he certainly would have said so in the law. That was not his 
intent and, as the courts have found, it was not the intent of 
Congress. S. 1003's attempt to allow for permanent resorts on the Wild 
Salmon River does not ``clarify'' the CIWA, it overturns it. Moreover, 
it sets an entirely new and dangerously low standard for managing wild 
rivers.
    It has been claimed that these resorts are essential for older 
people or people with disabilities to experience this area. That simply 
doesn't square with the fact that older people and those with 
disabilities visit wildernesses and wild river all over America without 
the use or need for accommodations of this sort. I, for one, am legally 
blind and approaching 80 years of age. I have visited this area many 
times, the last float trip was four years ago. And I didn't need the 
services of these lodges to experience the wilderness-indeed, they 
detracted from it. For those who want a more developed recreation 
opportunity they can be accommodated at the Forest Service-permitted 
Salmon River Resort adjacent to the Wilderness and just upstream Wild 
River corridor, or at any one of several private lodges further 
downstream on private lands. But their experience needn't be at the 
expense of the wild river. If S. 1003 passes, the losers will be the 
vast majority of visitors who are seeking a wild river experience, and 
the great number of Americans who take pleasure In simply knowing that 
wild places exist and will be preserved.
    Apart from the damage S. 1003 will do to the Wild Salmon River, it 
would be a terrible irony on at least two other counts. First, it would 
grant special rights to 3 individuals to operate resorts that were 
illegally built on public lands--rights that exceed those afforded to 
other outfitters who operate legitimately on public lands in the 
Wilderness and Wild Rivers systems. Those who have play by the rules 
are harmed when those who cheat are rewarded. Second, these are hardly 
model operations, They are some of the most dubious I have ever 
encountered. One of the outfits has had its permit placed in 
probationary status for being convicted for violations of State fish 
and game regulations. Another has been cited for ``continuous resource 
damage'' associated with a ``substantial spill from your generator'' 
and for being ``continually late on payment of fees, non-responsive 
regarding returning phone calls with requested information, and 
verbally abusive to Forest Service Officers at Corn Creek (the river 
launch site) and office personnel.'' I would be happy to provide the 
committee with documentation of these facts if any member chooses to 
better understand the types of operations and operators that S. 1003 
seeks to reward.
    It is also worth noting that two of three resorts had a change in 
ownership in recent years. Those resorts were acquired during the time 
that the legal status of the resorts was being challenged in federal 
court. Each of the outfitters' permits contain clauses that 
unequivocally state that should the resorts be found to be illegal they 
would have to be removed. The outfitters entered into their business 
deals with eyes wide open, no doubt the risky legal tenor of these 
resorts was reflected in the selling price.
    Mr. Chairman, the right thing to do is to shelve S. 1003 and let 
the Forest Service implement the law as it is written. In September 
2000, a federal judge ruled that the lodges on these three sites were 
illegally constructed and ordered the Forest Service to fashion a plan 
to remove them, being mindful of the concerns of the outfitter-
permittees. Following the court's direction and at the urging of the 
affected outfitters, the Forest Service granted the permittees until 
December 31, 2005 to comply with the law. That is more than 5 years-
time since the court decision, and more than double the amount of time 
afforded other outfitters who have had to remove illegal structures 
from the Salmon River. Moreover, the Forest Service has agreed to allow 
the outfitters to continue to operate at these same camps with 
temporary structures as allowed by law. Thus, they are not being put 
out of business, but instead will be allowed to operate and provide 
services to the public in a fashion that is consistent with the tenets 
of the Wild and Scenic Rivers Act and the Central Idaho Wilderness Act.
    Thank you for your consideration.
    Note: Attachments have been retained in subcommittee files.
    Attachment #1: Chronology of Salmon River protection and illegal 
resorts
    Attachment #2: Affidavit of William A. Worf
    Attachment #3: Affidavit of Vernon O. Hamre
                                 ______
                                 
         Statement of Terry Weiner, Conservation Coordinator, 
                Desert Protective Council, San Diego, CA

    On behalf of the Desert Protective Council (DPC), I want to thank 
you for your ongoing work as Chair of the Senate Subcommittee on Public 
Lands and Forests.
    The DPC is a 49 year old non-profit membership organization whose 
mission is to safeguard for wise and reverent use by this and 
succeeding generations those deserts of unique scenic, scientific, 
historical, and recreational value, and to educate children and adults 
to a better understanding of the deserts. One of our areas of focus is 
Imperial County, California.
    I write to you today to request that you table your scheduled June 
4, 2003 discussion of H.R. 417--The Cibolla National Wildlife Refuge 
Correction Act. The DPC has only very recently become aware of this 
proposal to withdraw 140 acres of public land from the Cibolla National 
Wildlife Refuge along the Colorado River in Imperial County California, 
on the basis that these acres, part of which are known as Walter's 
Camp,were erroneously included in the Refuge when Public Land Order 
3442 created the Cibolla National Wildlife Refuge in 1964. The DPC has 
also been made aware, through historical files at BLM Yuma, that 
although Public Land Order 3442 of 1964 may have erroneously included 
Walter's Camp, the area in question is at most 18 acres, not 140 acres 
as stated in H.R. 417. A 1982 map and legal description confirms that 
Walter's Camp consists of ``18 acres, more or less''. It is interesting 
to note that Walter's Camp originally began as trespass on public 
lands. One of our questions is: why, when the Wildlife Refuge was 
initially established, would the illegally permitted land be granted 
exclusion from the Refuge in the first place? More importantly, at what 
point did 18 acres expand to 140 acres? The Desert Protective Council 
respectfully requests that this question be answered before your 
committee proceeds further with a decision to remove 140 acres of 
wildlife habitat from protection. Despite testimony referred to in 
remarks made by Congressman Duncan Hunter in January 2003, the lands in 
question are good desert scrub habitat. Federally listed endangered 
species such as the Yuma Clapper Rail and the Southwest Willow 
Flycatcher nest in this area. The Lower Colorado River ecosystem is a 
threatened one. The entire stretch of this part of the river, on both 
the west and the east sides has been and continues to be a very popular 
recreation area. There are abundant for many kinds of recreation. Many 
boat ramps, campgrounds and dammed up lakes for camping, fishing, 
motorized boats and jet skis dot the River's edges. Good, healthy 
habitat for the desert plants and animals is becoming scarcer.
    The citizens of the U.S. are counting on you to protect the Cibolla 
Wildlife Refuge for us and for future generations. Please address DPC's 
questions and the questions of the local citizens of Imperial County 
before taking a vote in your committee related to this Wildlife Refuge 
alteration.
    I look forward to an opportunity to discuss other issues with you, 
related to the withdrawal of lands from the Wildlife Refuge and to the 
impacts of an expanded Walter's Camp on the future health of the desert 
and river habitat of the lower Colorado River.
                                 ______
                                 
   Statement of Larry Charles, Chairman of the Board and President, 
                 Newtok Native Corporation, Newtok, AK

    Mr. Chairman, members of the Subcommittee, I am Larry Charles, the 
President of Newtok Native Corporation, headquartered in Newtok, 
Alaska, where I live. We thank Senator Lisa Murkowski for introducing 
S. 924 that directs Newtok and the Fish and Wildlife Service to 
exchange land. We are grateful for her efforts to help save our village 
and our way of life. We thank the Senators on this committee for 
hearing our bill.

                               BACKGROUND

    Newtok is located in the Yukon-Kuskokwim Delta of western Alaska. 
The people of this region are Yupik and have lived along the Bering Sea 
coast for 2000 years. Living in the lands and waters of this great 
delta means that we live on land that shifts over time as the water 
currents change and deposit new soil. The present village has been 
occupied since 1949 after the villagers moved from another site that 
flooded.
    There are fewer than 300 residents of Newtok. The village is 
unincorporated and has no taxing authority. While some villagers are 
employed at the school, the clinic, by the Native corporation and as 
commercial fishermen, most villagers pursue a subsistence living. Fifty 
percent of the villagers live below the poverty level. Most villagers 
are shareholders in the Newtok Native Corporation. The Alaska Native 
Claims Settlement Act of 1971 authorized our corporation. Through that 
law, we have selected and have been conveyed lands in the vicinity of 
our village to provide good hunting areas for the villagers. 
Surrounding our village and all of our lands, the federal government 
owns the land and manages it as the Yukon Delta National Wildlife 
Refuge.
    This exchange legislation is necessary because our village will 
wash away within the next decade. Each year since the early 1950's, the 
shifting course of the nearby Ninglick River moves closer to the 
village. The erosion has been particularly rapid in the last decade. 
The changing course of the river also affects nearby delta wetlands and 
creeks causing subsidence in the village at this time. Houses are 
sinking. To save our village and our way of life, we must move Newtok 
to higher ground nearby and rebuild.
    We have employed engineers and soil scientists who tell us that the 
most appropriate site for a new village is across the river on Nelson 
Island. There the land is higher, there are gravel deposits for a road 
and an airstrip, and the river channel will allow boats and barges to 
tie up. However, the village site and nearby gravel sources are 
currently owned by the federal government and managed by the Fish and 
Wildlife Service.

                       HISTORY OF THE LEGISLATION

    In 2002, Senator Frank Murkowski was introduced S. 2016 directing 
an equal value land exchange with the Fish and Wildlife Service. This 
legislation was introduced after five years of unsuccessful 
negotiations between Newtok and the Fish and Wildlife Service on an 
administrative exchange. Under that bill as introduced, Newtok would 
receive a small amount of land at the new village site. In exchange, 
the Fish and Wildlife Service would receive lands of high wildlife and 
waterfowl value from Newtok in an area called Aknerkochik. The Fish and 
Wildlife Service originally wanted Newtok to take much more land and 
give up many more of its prime hunting lands. Following the Committee's 
hearing on that legislation, representatives of the Department of the 
Interior met with the professional staff of the Committee and developed 
a new, compromise proposal.
    The compromise proposal passed by the Committee and the full Senate 
in 2002 but was not taken up by the House. It is now incorporated in 
the text of S. 924 introduced by Senator Lisa Murkowski. S. 924 expands 
the original exchange proposal to add key lands identified by the Fish 
and Wildlife Service beyond those in the original bill. For Newtok, 
that would include areas identified as likely places for gravel 
removal. For the Fish and Wildlife Service, it would now provide for 
the public ownership of Baird Island, the prime nesting area for brant, 
as well as the Aknerkochik area that was contained in the original 
proposal. With the adjustments to the exchange area made by the 
Committee, acreage to be exchanged by each party is nearly identical. 
Any difference in the value of the exchanged lands would be so 
insignificant as to be less than the cost of the appraisal. Therefore, 
both the Fish and Wildlife Service and Newtok would accept a directed 
exchange, without further appraisal. This will save both parties time 
and money.
    For Newtok, saving time is essential. Gaining title to the land is 
only the first step of our effort to save our village and our way of 
life. We will also need help from appropriate federal and state 
agencies to plan the new village, move the structures, and ensure that 
the present village site is restored to a near natural condition. All 
of these difficult undertakings must be scheduled so that we can avoid 
a disaster of the river flooding the existing village site before the 
new site can be occupied. We support this legislation because it is 
fair. We believe that only Congress can help us achieve an exchange 
before our village is lost.

                               CONCLUSION

    We support the S. 924. It is a fair compromise made by the 
Committee in 2002 that will help us take title to a new village site in 
a timely manner and at reasonable cost. While we're disappointed that 
the House of Representatives was unable to pass this legislation in the 
last Congress, we are especially grateful for Senator Lisa Murkowski 
for her introduction of the bill this year and for her continued 
efforts to help our people.
    Thank you for letting us testify in favor of S. 924 even though we 
could not travel to Washington to speak to you in person. We hope you 
will be able to help us by passing a fair bill for a fair exchange, one 
that allows us to move our village to safer ground and to continue to 
live as we have for many years to come.

                                 ______
                                 
    Statement of Gary Niles, President, Tamarack Lagoon Corporation

    Mr. Chairman and Members of the Subcommittee, I am Gary Niles, 
President of Tamarack Lagoon Corporation (TLC), a non-profit 
organization comprised of 10 local homeowners owning the adjoining 600 
acres (Section 7) of private land immediately south of the Walter's 
Camp Campground and Cibola National Wildlife Refuge. TLC purchased this 
land from the Southern Pacific Railroad in 1987 and has no plans for 
future development nor any interest whatsoever, financial or otherwise, 
in the campground concession at Walters Camp or elsewhere.
    US Geological Survey (USGS) confirms that the area known as 
``Walters Camp'' originally referred to existing homes on the Colorado 
River. Their 1965 map (Picacho NW Quadrangle) shows specific homes, 
roads and driveways, however there is no reference to a campground. 
This map and the most recent Bureau of Land Management (BLM) map of 
1998 confirm the southern boundary of the Cibola National Wildlife 
Refuge (defined by Public Land Order 3442 in 1964) to be the east-west 
section line between Section 6 and Section 7 (copy of map attached).
    Some confusion exists because a USGS map dated 1986 (Trigo 
Mountains) shows the refuge boundary approximately 1/4 mile north of 
the Section 6-7 line. The boundary line on this map was drawn in error, 
without the congressional approval required for such a change. This is 
why more recent maps show its correct (original) location. H.R. 417 
proposes to correct the 1986 error by moving the boundary back to the 
north (to its incorrect location!) thereby transferring 140 acres of 
national refuge land to BLM so that it can resume ``management'' of the 
campground.
    Bureau of Land Management (BLM) historical files reveal that a 
campground in the vicinity of Walters Camp ``. . . began as a trespass 
on federal land and was originally permitted on a year-to-year basis by 
the Lower Colorado River Land Use Office in June 1962''. It is not 
surprising that this campground was overlooked when the wildlife refuge 
was created in 1964, It is surprising that year-to-year camping permits 
were allowed to continue in the wildlife refuge until 1973 at which 
time BLM erroneously issued a five-year commercial lease. This lease 
created the ``BLM/private sector cooperative management area'' 
campground concession (now known as Walter's Camp Incorporated) 9 years 
after the wildlife refuge was established.
    In 1980 BLM again erroneously approved a 20-year contract for the 
campground concession. Despite numerous maps clearly placing the 
campground in the wildlife refuge, BLM continued to ``manage'' this 
concession and collect lease fee revenue. BLM lease documents include a 
map and legal description (1982) for the campground of an area ``18 
acres, more or less''. Note that BLM has never managed the 140 acres 
described in H.R. 417--U.S. Fish and Wildlife Service and BLM officials 
now propose transferring 140 acres not because it is required for use 
by the Walter's Camp Inc. campground but rather out of convenience of 
drawing a map line and to rationalize an old error.
    The majority of the 51 homeowners in the Walters Camp area are 
opposed to the H.R. 417 land transfer because of the precedent set by 
BLM's Hidden Shores concession 40 miles south on the Colorado River, 
Hidden Shores now boasts approximately 900 RV trailer sites, compared 
to 60 at Walter's Camp Inc. This represents a significant source of 
revenue to BLM (the average fee for a single trailer site at Hidden 
Shores now exceeds $300 per month).
    Transferring wildlife refuge land to BLM in the Walters Camp area 
would create an area for future development of over 1,000 RV trailers 
immediately adjacent to the wildlife refuge. BLM explains that such an 
expansion would require an ``environmental assessment'' and ``public 
input''. Our recent experience with major subdivisions in this area has 
been that environmental concerns are ``mitigated'' by donating ``open 
space'' property elsewhere (which is very easy for BLM) and that 
``public input'' is heard but not respected.
    The land transfer proposed by H.R. 417 opens the door for the 
commercialization of public land originally designated as wildlife 
refuge. The potential for an RV development, which economically limits 
public access rather than creating it, represents a danger to the 
wildlife refuge in this remote area. The public would be far better 
served by preserving the refuge as originally created and allowing 
USFWS to manage the existing campground concession.
    Mr. Chairman, this concludes my statement. Your consideration of 
this information is greatly appreciated.

                                 ______
                                 
               Statement of J. Ray Ledbetter, Seattle, WA

    I am a volunteer for the Washington Department of Wildlife and have 
been backpacking trout fry into the alpine takes of Washington for the 
past 34 years. I am intimately familiar with the proposed area known as 
Wild Sky. The centerpiece, the triangular area bounded by the Beckler 
River, & the North & South Forks of the Skykomish has 17 lakes. I have 
been to every one of them and have routinely stocked 12 with trout fry. 
I am fairly certain that not many people know this area better than I.
    I believe that Senator Murray, & Congressman Larsen, have no idea 
of the extent of human influence within this centerpiece. The 
Wilderness Act cites areas to be considered for Wilderness designation 
as ``untrammeled'' and ``showing no evidence of man''. The Wild Sky 
that I know shows much use and plenty of man's artifacts.
    The Index Mining Co. built concrete dams on both Sunset & Simms 
Lakes. Both of these lakes drain to Trout Creek and each dam had a 
pipeline running down the creek to their mining operation at Trout 
Creek. The dams are still there as are the pipelines. My 1985 Forest 
Service map shows a road that runs up Trout Creek with 2 structures 
approximately 2 miles above the Trout Creek Mines. This is where the 2 
pipelines joined into one larger line and about 2 miles into the 
proposed Wilderness. The side hills to the east of the old mine site 
have been logged to the ridge top. There is one access road, and 
several spurs, which terminate at nearly 4000 ft. of elevation. Just 
off the bottom of the main access road ties the wreckage of a Koenig 
666, a 60 ton excavator that slid off the road to a position where it 
could never be recovered. This artifact is also within the proposed 
boundary of Wild Sky.
    Howard Creek, which is the next drainage east of Trout Creak, was 
also an old mining site. There were 3 buildings, a trail that led part 
way, and an access road on the lower end. On up the creek there are 2 
mining edits, one below Howard Lake and another above the lake. The 
buildings have collapsed but they are still there. Again, this site has 
been included in the Wild Sky proposal.
    Bitter & Boss Creeks, the drainage to the west of Trout Creek was 
logged approximately 10 years ago. The logging company regraded the 
access road and people were still driving the road last year. The 
logged arena, and about 5 miles of road, are all within the proposed 
Wild Sky Wilderness.
    To the north of Sunset Lake is Eagle Lake. Eagle lies at the head 
of Eagle Creek roughly 30 minutes from roads end. Originally there were 
2 structures on Eagle Lake, a cabin right on the lakeshore and an 
outhouse right behind it. The outhouse has been taken down and filled 
with soil but the oozing bubbly gases clearly mark where it was. There 
are approximately 20 campsites at the outlet of the lake with many 
social trails connecting them. Additionally, if you were to walk around 
the rest of the lake you would find more campsites and firepits. 
Clearly, this lake does not meet the wilderness standards that congress 
decreed in the Wilderness Act of 1964 but it is within the proposed 
Wild Sky Wilderness.
    It is clear to me that the Murray/Larsen supporters have one thing 
in mind and that is to stop logging. Well, in 1972 loggers took 400 
million board feet of timber from this National Forest. In 2000, it was 
less than 10 million board feet. That is more than a 99% reduction and 
it is very clear to me that logging has already been stopped. It only 
seems fair that Congress should take into consideration the Northwest 
Timber Plan, which the previous administration agreed to, and leave 
those areas set aside for logging alone. Our society does have a need 
for timber.
    One of my primary concerns, about wilderness designation, is what 
happens after Congress authorizes the designation. In 1976, when the 
Alpine Lakes Wilderness Act was passed, float planes were allowed to 
use lakes they historically landed on. 5 years later that permission 
was withdrawn because it wasn't written into the enabling legislation. 
The act also has ambiguous language concerning fish stocking. Many 
environmental groups feel fish stocking, in lakes that did not 
naturally have fish, goes against the ethics of the Wilderness Act. I 
believe that Congress really intended the wilderness experience to 
include fishing. But, without fish stocking, there wouldn't be much 
opportunity for fish in alpine lakes.
    The wild part of Wild Sky is really just a small area. I love it 
dearly and I believe it will be much better off without a wilderness 
designation.


</pre></body></html>
